<html>
<title> - LEGISLATIVE HEARING ON H.R. 147, H.R. 228, H.R. 297, H.R. 466, H.R. 929, H.R. 942, H.R. 950, H.R. 1088, H.R. 1089, AND H.R. 1171</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               LEGISLATIVE HEARING ON H.R. 147, H.R. 228, 
           H.R. 297, H.R. 466, H.R. 929, H.R. 942, H.R. 950, 
                  H.R. 1088, H.R. 1089, AND H.R. 1171 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 4, 2009

                               __________

                            Serial No. 111-5

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-419 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 















                     COMMITTEE ON VETERANS' AFFAIRS

 BOB FILNER, California, Chairman

STEVE BUYER, Indiana, Ranking        CORRINE BROWN, Florida
CLIFF STEARNS, Florida               VIC SNYDER, Arkansas
JERRY MORAN, Kansas                  MICHAEL H. MICHAUD, Maine
HENRY E. BROWN, Jr., South Carolina  STEPHANIE HERSETH SANDLIN, South 
JEFF MILLER, Florida                 Dakota
JOHN BOOZMAN, Arkansas               HARRY E. MITCHELL, Arizona
BRIAN P. BILBRAY, California         JOHN J. HALL, New York
DOUG LAMBORN, Colorado               DEBORAH L. HALVORSON, Illinois
GUS M. BILIRAKIS, Florida            THOMAS S.P. PERRIELLO, Virginia
VERN BUCHANAN, Florida               HARRY TEAGUE, New Mexico
DAVID P. ROE, Tennessee              CIRO D. RODRIGUEZ, Texas
                                     JOE DONNELLY, Indiana
                                     JERRY McNERNEY, California
                                     ZACHARY T. SPACE, Ohio
                                     TIMOTHY J. WALZ, Minnesota
                                     JOHN H. ADLER, New Jersey
                                     ANN KIRKPATRICK, Arizona
                                     GLENN C. NYE, Virginia

 Malcom A. Shorter, Staff Director
                                 ------                                

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

 STEPHANIE HERSETH SANDLIN, South 
        Dakota, Chairwoman

JOHN BOOZMAN, Arkansas, Ranking      THOMAS S.P. PERRIELLO, Virginia
JERRY MORAN, Kansas                  JOHN H. ADLER, New Jersey
GUS M. BILIRAKIS, Florida            ANN KIRKPATRICK, Arizona
                                     HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

















                            C O N T E N T S

                              ----------                              

                             March 4, 2009

                                                                   Page
Legislative Hearing on H.R. 147, H.R. 228, H.R. 297, H.R. 466, 
  H.R. 929, H.R. 942, H.R. 950, H.R. 1088, H.R. 1089, and H.R. 
  1171...........................................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    27
Hon. John Boozman, Ranking Republican Member.....................     3
    Prepared statement of Congressman Boozman....................    28

                               WITNESSES

U.S. Office of Special Counsel, Patrick H. Boulay, Chief, USERRA 
  Unit...........................................................    19
    Prepared statement of Mr. Boulay.............................    45
U.S. Department of Veterans, Keith M. Wilson, Director, Education 
  Service, Veterans Benefits Administration......................    21
    Prepared statement of Mr. Wilson.............................    51

                                 ______

American Legion, Mark Walker, Assistant Director, National 
  Economic Commission............................................    13
    Prepared statement of Mr. Walker.............................    41
Blinded Veterans Association, Thomas Zampieri, Ph.D., Director of 
  Government Relations...........................................    14
    Prepared statement of Dr. Zampieri...........................    43
Disabled American Veterans, John L. Wilson, Associate National 
  Legislative Director...........................................    11
    Prepared statement of Mr. Wilson.............................    39
Doggett, Hon. Lloyd, a Representative in Congress from the State 
  of Texas.......................................................    10
    Prepared statement of Congressman Doggett....................    30
Israel, Hon. Steve, a Representative in Congress from the State 
  of New York....................................................     3
    Prepared statement of Congressman Israel.....................    28
National Coalition for Homeless Veterans, Cheryl Beversdorf, RN, 
  MHS, MA, President and Chief Executive Officer.................     8
    Prepared statement of Ms. Beversdorf.........................    36
Veterans of Foreign Wars of the United States, Justin Brown, 
  Legislative Associate, National Legislative Service............     7
    Prepared statement of Mr. Brown..............................    33
Welch, Hon. Peter, a Representative in Congress from the State of 
  Vermont........................................................     4
    Prepared statement of Congressman Welch......................    30

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service, statement    54
Alexander, Hon. Rodney, a Representative in Congress from the 
  State of Louisiana, statement..................................    56
Buyer, Hon. Steve, Ranking Republican Member, Committee on 
  Veterans' Affairs, and a Representative in Congress from the 
  State of Indiana, statement....................................    56
Filner, Hon. Bob, Chairman, Committee on Veterans' Affairs, and a 
  Representative in Congress from the State of California, 
  statement......................................................    57
International Franchise Association, David French, Vice 
  President, Government Relations, letter........................    57
National Association of State Workforce Agencies, Thomas S. 
  Whitaker, President and Deputy Chairman, North Carolina 
  Employment Security Commission, letter.........................    58
Paralyzed Veterans of America, statement.........................    59

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Bob Wallace, Executive Director, Veterans of Foreign Wars 
      of the United States, letter dated March 9, 2009, and 
      response from Justin Brown, Legislative Associate, National 
      Legislative Service, VFW...................................    63
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Cheryl Beversdorf, President and Chief Executive Officer, 
      National Coalition of Homeless Veterans, letter dated March 
      9, 2009, and NCHV responses................................    66
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Dave Gorman, Executive Director, Disabled American 
      Veterans, letter dated March 9, 2009, and response from 
      John L. Wilson, Associate National Legislative Director, 
      DAV........................................................    71
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      John Sommer, Executive Director, American Legion, letter 
      dated March 9, 2009, and response from Mark Walker, Deputy 
      Director, National Economic Commission, American Legion, 
      letter dated April 17, 2009................................    72
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Patrick Boulay, Senior Attorney, U.S. Office of Special 
      Counsel, letter dated March 9, 2009, and Mr. Boulay's 
      responses..................................................    74
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Hon. Eric K. Shinseki, Secretary, U.S. Department of 
      Veterans Affairs, letter dated March 9, 2009, and VA 
      responses..................................................    76
    Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans 
      Affairs, to Hon. Stephanie Herseth Sandlin, Chairwoman, 
      Subcommittee on Economic Opportunity, Committee on 
      Veterans' Affairs, letter dated May 26, 2009, transmitting 
      Administration views on H.R. 228 and H.R. 297..............    77


  LEGISLATIVE HEARING ON H.R. 147, H.R. 228, H.R. 297, H.R. 466, H.R. 
      929, H.R. 942, H.R. 950, H.R. 1088, H.R. 1089, AND H.R. 1171

                              ----------                              


                        WEDNESDAY, MARCH 4, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:09 p.m., in 
Room 340, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Teague, Adler, 
Boozman.

         OPENING STATEMENT OF CHAIRMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity hearing on pending legislation will come to order.
    I would like to call attention to the fact that the full 
Committee's Ranking Member, Mr. Steve Buyer, and Congressman 
Rodney Alexander have asked to submit written statements for 
the hearing record. If there is no objection, I ask for 
unanimous consent that their statements be entered for the 
record.
    Hearing no objection, so entered.
    [The prepared statements of Congressmen Buyer and 
Alexander, and Chairman Filner appear on p. 56 and p. 57.]
    Ms. Herseth Sandlin. I ask unanimous consent that all 
Members have 5 legislative days to revise and extend their 
remarks and that written statements be made part of the record.
    Hearing no objection, so ordered.
    Today, we have 10 bills before us that seek to: establish a 
voluntary fund to assist homeless veterans; create a 
scholarship program for students seeking an education in the 
areas of visual impairment; orientation and mobility; expand 
vocational rehabilitation and employment (VR&E) subsistence 
allowance; protect wounded veterans in the workforce; create a 
program for veterans to meet the needs of the current job 
market; establish a 5-year pilot project to assist veterans 
seeking training on the purchase of a franchise enterprise; 
expand Chapter 33 housing benefits to veterans taking distance 
learning courses; improve training for those required to take 
National Veterans' Training Institute (NVTI) core training; 
authorize the Office of Special Counsel (OSC) to review certain 
Uniformed Services Employment and Reemployment Rights Act 
(USERRA) cases; and reauthorize the Homeless Veterans 
Reintegration Program.
    Let me say a bit more about two of these bills. Some in the 
room today will recall at least two Subcommittee hearings we 
held in the last Congress highlighting the responsibilities of 
Disabled Veterans' Outreach Program (DVOP) Specialist and Local 
Veteran Employment Representative (LVER) staff, which are 
primarily administered through State employment agencies and 
the U.S. Department of Labor (DOL).
    While several recommendations were highlighted, one 
recommendation was to change DVOP and LVER training 
requirements at NVTI from the current 3-year timeframe to 1 
year from the date of employment.
    Unfortunately, the current core training requirements 
failed to meet the needs of veterans by permitting DVOP and 
LVER to assist veterans when they don't have the proper 
training to effectively assist the veterans they seek to help.
    Recognizing the need to have properly trained DVOP and LVER 
staff, I introduced H.R. 1088, the ``Mandatory Veteran 
Specialist Training Act of 2009.'' This legislation would 
require DVOPs and LVERs to be trained for their position within 
1 year from the date of employment. I look forward to receiving 
comments from the Department of Labor and veteran service 
organizations (VSO) on this important legislation.
    Another bill that I introduced as a result of a previous 
hearing in the last Congress is H.R. 1089, the ``Veterans 
Employment Rights Realignment Act of 2009.'' On February 13, 
2008, the Subcommittee held a hearing on ``Review of Expiring 
Programs.''
    Pursuant to Public Law 108-454, the U.S. Office of Special 
Counsel (OSC) began receiving and investigating certain 
Federal-sector USERRA claims on February 8, 2005, and sunset on 
December 31, 2007, after Congressional intervention extending 
the original sunset. This law gave OSC authority to investigate 
Federal-sector USERRA claims brought by persons whose Social 
Security numbers end in an odd-numbered digit. Under the 
project, OSC received and investigated all Federal-sector 
USERRA claims containing a related prohibited personnel 
practice allegation, for which OSC has jurisdiction regardless 
of the person's Social Security number.
    In the hearing, we received testimony from several veteran 
service organizations and the Office of Special Counsel that 
outlined the results that have increased the Department of 
Labor's effectiveness by decreasing their turnaround rate for 
pending USERRA cases.
    Protecting our Nation's servicemembers and veterans from 
potential workforce discrimination is an issue I will continue 
to address in this Congress.
    I now recognize the distinguished Ranking Member of this 
Subcommittee, Mr. Boozman, for any opening remarks he may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 27.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. I appreciate that we 
are bringing several pieces of legislation before the 
Subcommittee, including my bill, H.R. 1171, the ``Homeless 
Veterans Reintegration Program Reauthorization Act of 2009.''
    As you know, the Homeless Veterans Reintegration Program, 
or HVRP, has been cited by GAO as an example of the successful 
program designed to put homeless veterans back to work. It is a 
relatively inexpensive program funded last year at about $26 
million, that provides grants to community-based providers 
serving the homeless veteran population.
    The U.S. Department of Veterans Affairs (VA) now estimates 
that about 154,000 veterans are homeless, a level down well 
from over 200,000 just a few years ago. I believe that HVRP has 
played an important role in reducing the homeless veterans 
population by putting them back to work and I congratulate the 
Veterans' Employment Training Service (VETS) and all the 
grantees for that success.
    I am also looking forward to hearing the testimony from the 
National Coalition of Homeless Veterans (NCHV), Executive 
Director, Ms. Beversdorf, on the state of the homeless 
community.
    I would also note that we have a number of excellent bills 
on today's agenda, and I want to thank you, Madam Chair, and 
your staff, for bringing forth two very, very good bills, H.R. 
1088 and H.R. 1089.
    I yield back the balance of my time.
    [The prepared statement of Congressman Boozman appears on
p. 28.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. I would now 
like to welcome our colleagues who are testifying on our first 
panel before the Subcommittee today. Joining us are Congressman 
Steve Israel of New York, and Congressman Peter Welch of 
Vermont. We thank you for introducing the bills that we will 
consider at this hearing today.
    The Chairman of the full Committee is en route. We will 
start with you, Mr. Israel; you are recognized for 5 minutes.

 STATEMENTS OF HON. STEVE ISRAEL, A REPRESENTATIVE IN CONGRESS 
      FROM THE STATE OF NEW YORK; AND HON. PETER WELCH, A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF VERMONT

                 STATEMENT OF HON. STEVE ISRAEL

    Mr. Israel. Thank you, Madam Chair, and Ranking Member 
Boozman and Members of the Subcommittee.
    I have introduced H.R. 147 which establishes on the Federal 
income tax form a check-off for homeless veterans, similar to 
the check off for contributions to the presidential campaign.
    One of the deep concerns that I know we all have is the 
issue of homeless veterans. But not everyone is aware just how 
serious the problem is. Tonight in America, 154,000 veterans 
will be homeless. At any point in a veteran's life, about 
300,000 experience homelessness over the course of a year. The 
National Coalition for Homeless Veterans estimates that one out 
of every three homeless men sleeping in a doorway, an alley or 
a box in our cities or rural communities has served in the 
military.
    H.R. 147 creates a section on the annual tax return form 
that would allow taxpayers to designate $3 of their income tax 
liability to programs that assist homeless veterans without 
increasing the taxpayer's tax liability. It is patterned after 
the presidential campaign check off which has worked very 
effectively.
    H.R. 147 creates a Homeless Veterans Assistance Fund within 
the Treasury Department where the contributed money would 
automatically be deposited and safeguarded by the Treasury and 
expenditures from the fund would have to be appropriated. The 
bill stipulates that funds can only be used for the purpose of 
providing assistance to homeless veterans.
    We introduced a bill last year with the support of national 
veterans' organizations in the Senate. Senator Hillary Clinton 
sponsored it last year as a companion bill.
    This year we have 41 bipartisan cosponsors and, once again, 
I am pleased to report that the national veterans' 
organizations such as the American Legion and the Veterans of 
Foreign Wars (VFW) have endorsed the bill.
    Thank you, Chairwoman, for the time. I'd be pleased to 
answer any questions.
    [The prepared statement of Congressman Israel appears on
p. 28.]
    Ms. Herseth Sandlin. Thank you, Mr. Israel.
    Mr. Welch, you are recognized.

                 STATEMENT OF HON. PETER WELCH

    Mr. Welch. Thank you very much, Madam Chair, Members of the 
Committee.
    I am here with a reintroduction of a bill that I worked on 
last year with this Committee, Mr. Boozman, and I'm delighted 
this year that Mr. Teague is joining as a cosponsor. We are 
calling it MOST, and it is about trying to give employment 
opportunities to military veterans.
    And very specifically, what this bill would do is help 
veterans find good-paying jobs. And what this Committee knows 
more than anything else is that the real desire of our veterans 
when they return is to reintegrate into their lives, productive 
lives where they are raising their families, paying their bills 
and feeling good because they have got employment that makes a 
difference for them.
    The Military Occupational Specialty Transition (MOST) 
program is designed to target veterans who are unemployed or 
underemployed or had a military occupational specialty that may 
not have adequately trained them for re-entry into the civilian 
force. You know, there's a lot of skills, as again you know, 
I'm preaching to the choir here, that are enhanced in the 
military. But, also, there are certain skills that are specific 
to the military that don't easily transfer. So we have got to 
help those folks get jobs.
    The VA has estimated that MOST would serve up to about 
3,000 veterans every year. It would provide employers with 50 
percent or $20,000 of a veteran's wages while he or she was 
going through that training period. And of course, that's a big 
boost for our employers who are on the knife edge as to whether 
or not they are going to hire anybody. And they may want to 
hire a veteran, but then they are going to have the training 
period, which is a very expensive time for the employer, helped 
by the taxpayer, that's going to make a difference in those 
decisions.
    While H.R. 929 grew out of the Service Members Occupational 
Conversion and Training Act (SMOCTA) program, this Committee 
supported reauthorization and the House of Representatives 
accepted your recommendation last year. We didn't get it 
through the Senate, same old story, but we are back to try 
again.
    And while H.R. 6272 was a straight reauthorization of part 
of the 1993 Defense Authorization Act, this bill, H.R. 929, was 
changed in the Subcommittee Markup to increase the amount that 
could be paid to employers and for other reasons.
    Finally, just a personal note, Madam Chair. I so appreciate 
working with you and the Ranking Member. It is just delightful 
in Congress with all the noise out there, the partisanship and 
how it goes back and forth, that we have a Committee Majority 
and a Committee Minority and staff who put the veterans first. 
And I wish you guys ran the Congress. I mean that is--you are 
doing a great job.
    I was a new Member last year. I had an idea. Actually, you 
know, you were ahead of me on it, but anybody in Congress last 
year in our class who had an idea to try to help our veterans, 
you wanted to hear it and evaluate it and act on it. So it is 
just an example of the way we ought to operate around here and 
I thank you.
    [The prepared statement of Congressman Welch appears on
p. 30.]
    Ms. Herseth Sandlin. Thank you, Mr. Welch, we appreciate 
the vote of confidence.
    We thank you both for these important bills. We are pleased 
to consider them today, and again we appreciate working closely 
together to advance the bills. Mr. Welch, thank you for the 
work you put in to the bill last Congress. We hope to continue 
to make headway both in this chamber and the other, this 
Congress. Mr. Israel, we appreciate your important bill, one 
that we agree the American public would respond to.
    Again, we are pleased to consider it. I don't have any 
questions for either of my colleagues, but I believe Mr. 
Boozman may have one question.
    Mr. Boozman. The only question that I would ask, Mr. 
Israel, I guess one of the concern, I think your ideas are good 
ones and I really want to commend you on that.
    I guess a concern is what do we do if we do this and the 
appropriators in looking and consider this amount of money is 
coming in for that, and then they arbitrarily cut back that 
amount of money? I guess that is the only concern that I have 
is, can we think of some sort of a way to prevent that from 
happening? Can you comment on that for me?
    Mr. Israel. Sure, Mr. Boozman, thank you. As an 
appropriator, yeah, I understand exactly where you are coming 
from.
    Mr. Boozman. You can have some tough, well, you have got a 
very tough--yeah, you've got a tough job and you have got very 
limited resources.
    Mr. Israel. Well, you're right. You're right. The bill is 
currently written so that the funds would actually be deposited 
in a separate account to the Department of the Treasury and the 
Secretary of the Treasury would have to promulgate regulations 
with respect to how to allocate the funds.
    Now, if you choose to advance this bill in any markup, we 
would leave it to your discretion to ascertain what the best 
way of ensuring that those funds are absolutely frozen in a 
separate account and disbursed. So we would leave it to your 
discretion.
    Mr. Boozman. Well, as an appropriator, you could give us 
some good advice regarding that because, again, I think that is 
a concern that we would have.
    Mr. Welch, we appreciate you with your bill and we really 
are going to work with you and see what we can do. I think 
there is a little bit of concern about just administering the 
program and how you do that. So, like I say, we will be glad to 
work with you.
    Mr. Welch. Right, and I defer to your judgment on that 
because I know the Committee has expertise and I take your 
concerns about that as ones that are intended to try to make it 
work. Thank you.
    Mr. Boozman. Well, thank you. Thank both of you very much.
    Ms. Herseth Sandlin. Mr. Adler?
    Mr. Adler I guess I wanted to comment about what Mr. 
Boozman said a moment ago.
    Frankly, Mr. Israel, I'm hoping that your bill gets 
considered because there is a public service value just to 
having it out there to remind America that we have not yet met 
the needs of our heroes, too many of whom are homeless. I am 
actually frankly hopeful that Mr. Welch's measure and the GI 
Bill for the 21st century make your bill moot in the very near 
term and we don't have homeless veterans where we have met the 
medical needs, met the disability claims, met the psychological 
needs and got them the education and the opportunities for work 
that they deserve. And so we want to put you out of business in 
that narrow capacity.
    Good luck with the bill, though.
    Ms. Herseth Sandlin. Thank you, Mr. Adler.
    Mr. Teague.
    Mr. Teague. No, I don't have anything to say now. Thank 
you.
    Ms. Herseth Sandlin. Thank you, both for taking the time 
out of your busy schedules to be here and discuss your bills. 
We will look forward to working with you further. Thank you, 
both.
    Mr. Israel. Thank you.
    Mr. Welch. Thank you.
    Ms. Herseth Sandlin. The Chairman of the full Committee is 
on his way, actually, so we are going to wait for a couple more 
minutes. We will recess for a few minutes.
    [Recess.]
    Ms. Herseth Sandlin. Joining us at the witness table, Mr. 
Justin Brown, Legislative Associate, National Legislative 
Service for the Veterans of Foreign Wars of the United States; 
Ms. Cheryl Beversdorf, President and Chief Executive Officer of 
the National Coalition for Homeless Veterans; Mr. John Wilson, 
Associate National Legislative Director for the Disabled 
American Veterans (DAV); Mr. Mark Walker, Assistant Director, 
Economic Commission for the American Legion; and Dr. Thomas 
Zampieri, Director of Government Relations for the Blinded 
Veterans Association (BVA).
    In the interest of time and courtesy to all the panelists 
here today, we ask that you limit your testimony to 5 minutes, 
focusing on your comments and recommendations. Keep in mind, 
your entire written statement has been entered into the 
Committee record.
    Mr. Brown, we will start with you. You are recognized for 5 
minutes.

  STATEMENTS OF JUSTIN BROWN, LEGISLATIVE ASSOCIATE, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
  STATES; CHERYL BEVERSDORF, RN, MHS, MA, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, NATIONAL COALITION FOR HOMELESS VETERANS; 
   JOHN L. WILSON, ASSOCIATE NATIONAL LEGISLATIVE DIRECTOR, 
 DISABLED AMERICAN VETERANS; MARK WALKER, ASSISTANT DIRECTOR, 
   NATIONAL ECONOMIC COMMISSION, AMERICAN LEGION; AND THOMAS 
  ZAMPIERI, PH.D., DIRECTOR OF GOVERNMENT RELATIONS, BLINDED 
                      VETERANS ASSOCIATION

                   STATEMENT OF JUSTIN BROWN

    Mr. Brown. Thank you, Madam Chair. Thank you, Ranking 
Member Boozman.
    On behalf of the 2.2 million members of the Veterans of 
Foreign Wars of the United States and our auxiliaries, I would 
like to thank this Committee for the opportunity to testify. 
The issues under consideration today are of great importance to 
our members and the entire veteran population.
    During this economic recession, the number of unemployed 
veterans has increased to nearly 850,000 as of January 2009. 
That is an increase of nearly one-quarter of a million veterans 
since last November and an increase of more than 400,000 since 
last April. Of these unemployed veterans, nearly 100,000 are 
veterans from the Iraq and Afghanistan conflicts. Clearly, 
veterans are not exempt from the current economic crisis, and 
we appreciate this Committee's ambition in addressing these 
issues.
    The VFW is thankful for the tax incentive provisions in the 
economic stimulus, which will aid recently separated 
servicemembers in locating employment. This is smart policy and 
we hope that businesses find the value in an added incentive to 
hiring our Nation's newest combat veterans.
    However, while we laud this provision, we are also worried 
that the infrastructural spending provisions of the stimulus 
will allow circumvention of the Jobs for Veterans Act of 2002. 
What this means for veterans is that contractors that receive 
stimulus money, via State grants in excess of $100,000, will 
not be held accountable to the requirements outlined in the 
Jobs for Veterans Act.
    In particular, contractors receiving stimulus money may be 
bypassing reporting requirements for open employment positions 
and the annual filing requirement known as the VETS-100, which 
identifies affirmative action issues in regards to veteran 
hiring practices and tracks veteran employment percentages.
    Also, in recent news, the new budget as proposed by 
President Obama could increase the Federal workforce by 100,000 
to 250,000 employees. Regardless of the number, we would hope 
to see a large number of America's unemployed veterans fill 
this new workforce.
    We are thankful that the Federal Government has increased 
its veterans and disabled veterans percentage of new hires in 
the previous 5 years.
    In fiscal year 2007, 22.7 percent of all new Federal hires 
were veterans, and 5.7 percent were disabled veterans. Veterans 
Federal Employment Preference is working, and we hope to see it 
continue to do so with the new jobs created by an increased 
budget in the economic stimulus. If the Federal Government 
maintains or exceeds its hiring rate of 22.7 percent, this 
would equate to 20,000 to 60,000 new veteran jobs and 
drastically cut the total unemployment of the veteran 
population.
    As America's largest group representing combat veterans, we 
thank you for allowing the Veterans of Foreign Wars to present 
its views on these bills. The number of unemployed veterans has 
nearly doubled. Our veteran's employment programs and resources 
will be pushed to their limits and now, more than ever, we need 
them to perform.
    Madam Chairwoman, this concludes my testimony, and I will 
be pleased to respond to any questions you or the Members of 
this Subcommittee may have. Thank you.
    [The prepared statement of Mr. Brown appears on p. 33.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Brown.
    Ms. Beversdorf, you are now recognized.

          STATEMENT OF CHERYL BEVERSDORF, RN, MHS, MA

    Ms. Beversdorf. Chairwoman Herseth Sandlin, Ranking Member 
Boozman, Members of the Subcommittee, as a representative of 
the National Coalition for Homeless Veterans, I am pleased to 
be invited to provide our views on several bills that have been 
referred to your Subcommittee for consideration.
    Of the 10 bills that you cited, I will restrict my comments 
to H.R. 147, which would amend the Internal Revenue Code to 
allow taxpayers to designate a portion of their income tax 
payment to provide assistance to homeless veterans, and H.R. 
1171 which would amend Title 38, U.S. Code, to reauthorize the 
Homeless Veteran Reintegration Program for fiscal years 2010 
through 2014.
    Before providing comments on these two bills, I would like 
to talk briefly about the issues of homelessness among veterans 
and why more funding for programs, services and housing are 
needed to address this tragedy. Studies have shown that 
veterans are at a greater risk of becoming homeless due to a 
number of factors. These include uniquely military skills not 
needed in the civilian sector, combat-related health issues, 
minimal income due to unemployment, and a shortage of safe, 
affordable housing.
    Most veterans who are currently homeless served during 
prior conflicts or in peace time. However, according to a 2008 
RAND Corporation study, nearly 20 percent of military 
servicemembers, who have returned from Iraq and Afghanistan, 
300,000 in all, report symptoms of post-traumatic stress 
disorder (PTSD) or major depression, yet only slightly more 
than half have sought treatment. This new generation of combat 
veterans, both men and woman, also suffer from other war-
related conditions, including traumatic brain injuries, which 
puts them at risk for homelessness.
    Women veterans report serious trauma histories and episodes 
of physical harassment and/or sexual assault while in the 
military. VA and homeless veterans service providers are also 
seeing increased numbers of female and male veterans with 
children seeking their assistance.
    According to the Department of Veterans Affairs, there are 
an estimated 154,000 veterans who were homeless on any given 
night, which is actually a 40-percent reduction since 2001.
    If this trend toward reducing the number of homeless 
veterans is to continue, more funding is needed for supportive 
services, employment and housing options to ensure veterans, 
who served prior to and during the Iraq and Afghanistan wars, 
can live independently and with dignity.
    Now about the two bills. H.R. 147. NCHV sincerely 
appreciates Representative Israel's concern for homeless men 
and women veterans and the need to provide them with 
assistance. We represent community-based organizations in 46 
States, the District of Columbia, Puerto Rico and Guam, which 
offer this support every day by providing the full continuum of 
care to both homeless veterans and their families.
    However, to address the needs of veterans who are currently 
homeless and also help the homeless and at-risk Operation 
Enduring Freedom/Operation Iraqi Freedom (OIF) veteran 
population who are seeking help at VA medical centers and 
community-based organizations, additional funding is necessary.
    We believe the Homeless Veteran Assistance Fund could be a 
major resource from which community-based organizations could 
seek funds to provide more supportive services and housing to 
these veterans. However, if H.R. 147 is enacted, we believe 
additional attention needs to be given to how the fund will be 
managed and administered, in addition to what the compliance 
requirements will be for the organizations that receive the 
funds.
    NCHV believes veterans are citizens first. The people of 
this country have a responsibility to show respect and 
gratitude to the men and women who have served in the military. 
Enactment of H.R. 147 would give all Americans an opportunity 
to thank these former warriors for their service by making 
contributions to a fund that would help those men and women who 
need assistance as they return to civilian life.
    Now about H.R. 1171. Regarding this bill, NCHV wants to 
thank Representatives Boozman and Buyer for introducing this 
bill. The HVRP program is the only Federal program wholly 
dedicated to providing employment assistance to homeless 
veterans.
    This program is unique, and as Mr. Boozman said, highly 
successful because it doesn't fund employment services, per se, 
but rather, it rewards organizations that guarantee job 
placement.
    In 2008, DOL reported 65 percent of homeless veterans 
served through HVRP entered employment and 72 percent of them 
retained employment at the 90-day mark.
    In fact, in fiscal year 2009, DOL estimated that $25.6 
million in HVRP funding would provide approximately 15,330 
homeless veterans with employment and training assistance. What 
does that cost? Average cost per participant, $1,670; average 
cost per placement, $2,407. These costs represent a tiny 
investment for moving a veteran out of homelessness and off of 
dependency on public programs.
    In anticipation of the new wave of men and women veterans 
returning from Iraq and Afghanistan who may become homeless and 
will need effective employment programs to ensure their 
economic stability, reauthorization of the HVRP program as 
stated in H.R. 1171 is imperative.
    In conclusion, NCHV appreciates the opportunity to submit 
its views to this Subcommittee regarding these two bills. We 
look forward to continuing to work with you to ensure our 
Federal Government does what is needed to prevent and end 
homelessness among our Nation's veterans.
    [The prepared statement of Ms. Beversdorf appears on p. 
36.]
    Ms. Herseth Sandlin. Thank you, Ms. Beversdorf.
    I would now like to welcome to the dais the gentleman from 
Texas, Mr. Doggett, and recognize him for purposes of 
discussing his bill, H.R. 466, the ``Wounded Veteran Job 
Security Act.''

 STATEMENT OF HON. LLOYD DOGGETT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Doggett. Thank you, Madam Chair, and Mr. Boozman, 
Members of the Subcommittee.
    I apologize for being late. I chaired the Texas delegation 
and you know how everybody talks slow down there in the South 
and I could not get out.
    I believe I have covered it really in my written testimony 
and fortunately the attachments to it that include letters of 
support from a number of the groups that are represented here, 
the American Legion, the VFW, and the Disabled American 
Veterans.
    My interest in this piece of legislation grew from a 
contact from a constituent and problems that he felt had 
occurred in gaps in the Uniformed Services Employment and 
Reemployment Rights Acts with which this Subcommittee on 
Economic Opportunity is very familiar.
    Basically, a situation with some employers that they found 
were not saying that their denial of job rights to a returning 
veteran was because of that veteran's absence in service or 
because of an injury that the veteran had suffered, but because 
the veteran required medical care in frequent visits in that 
regard.
    One example that I got was of a Texan who suffered a 
serious back injury when his Humvee rolled over in Iraq. And 
when he returned home and went back to the job, he was told 
that his visits for treatment to the local VA hospital were 
``unexcused absences,'' and just 6 months after risking life 
and limb for his country, his employer dismissed him, saying 
that he exceeded the number of unexcused absences that were 
allowable.
    Another example that was reported to me was of a soldier 
who suffered a leg injury while serving in Iraq. He required 
physical therapy. I broke my own leg last year. I know how 
important that is. And his employer said that the company leave 
policy did not allow him to get that type of treatment, and 
this injured veteran was dismissed 3 months after returning 
from the battlefield.
    Hopefully, these are isolated incidents, but I think that 
they do deal with something of a, perhaps of a loophole or 
misinterpretation in this legislation which this Subcommittee, 
and Committee as a whole, have been responsible for enforcing. 
And I know also the work of this Committee in trying to do more 
to get health care for our veterans and despite the significant 
progress we have made with the last couple of VA appropriations 
bills, this type of thing can occur with some significance 
because, as I am sure is true in your State of South Dakota, 
some of these veterans, for something like physical therapy, 
may have to travel long distances. So it is not just a matter 
of an hour out of the office. It may be half a day out.
    And so I believe there is a problem here that needs 
attention, and I offer the very narrow legislation that I have 
submitted, that some of you have cosponsored, and would ask for 
the Subcommittee's valuable recommendation.
    [The prepared statement of Congressman Doggett appears on
p. 30.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Doggett.
    Mr. Boozman or any other Subcommittee Members have 
questions or comments?
    Mr. Boozman. I don't have any questions. I appreciate you. 
Certainly, the two instances that you cite are, we all agree 
are unacceptable, inexcusable. And we do need to figure out a 
way to do this, so we thank you for bringing this forward.
    Mr. Doggett. I thank the Members of the Subcommittee for 
your understanding. I'm going to slip over to Ways and Means 
now. Thank you very much.
    Ms. Herseth Sandlin. Thank you, Mr. Doggett.
    I now recognize Mr. Wilson. You are recognized for 5 
minutes.

                  STATEMENT OF JOHN L. WILSON

    Mr. John Wilson. Thank you.
    Madam Chairwoman and Members of the Subcommittee, on behalf 
of the 1.2 million members of the Disabled American Veterans, I 
am honored to present testimony addressing various bills before 
the Subcommittee today. In accordance with our Congressional 
charter, the DAV's mission is to ``advance the interests, and 
work for the betterment, of all wounded, injured, and disabled 
American veterans.'' We are, therefore, pleased to support 
various measures insofar as they fall within that scope.
    Of the legislation under consideration today, I will 
address three in my oral statement.
    The first is H.R. 297, the ``Veteran Vocational 
Rehabilitation and Employment Subsistence Allowance Improvement 
Act of 2009,'' which seeks to increase the monthly subsistence 
allowance payable to veterans participating in the VA 
vocational rehabilitation program. This legislation would, for 
example, increase the current subsistence allowance for a 
single veteran going to school full-time from approximately 
$541 to $1,200 per month.
    Further, it directs VA subsistence allowance for the first 
time to those veterans who are not participating in vocational 
rehabilitation, but rather, are using the employment arm of 
vocational rehabilitation and employment services. This 
legislation would provide such veterans a subsistence allowance 
for 3 months during this period of active job hunting.
    While not opposed to the favorable consideration of this 
legislation and we commend Mr. Buyer for its introduction. We 
do, however, recommend it be amended to authorize vocational 
rehabilitation and employment, Chapter 31 participants, to 
receive the higher subsistence allowance offered under the 
Post-9/11 GI Bill, Chapter 33.
    For example, the higher subsistence allowance equals 
approximately $1,570 per month for a single E-5 living in the 
D.C. Metro area. A significant increase from the approximate 
$541 currently, and an increase in the proposed $1,200, to the 
same veteran, in this legislation.
    The difference in the subsistence allowance may be 
significant enough to cause some to actually opt out of 
vocational rehabilitation, which, in the long term, may be 
detrimental to their physical and mental health, as well as 
their ability to retain employment. We believe this was not the 
intent of Congress.
    There is precedent which can be found under section 31-08-F 
of Chapter 30, which governs the Montgomery GI Bill. It allows 
a veteran to receive vocational rehabilitation assistance, but 
at the subsistence allowance under the Montgomery GI Bill.
    Therefore, we ask for your favorable consideration in 
amending this legislation to grant the higher subsistence 
allowance offered under the Post-9/11 GI Bill, yet allowing 
veterans to continue vocational rehabilitation.
    The second piece of legislation I would like to address is 
H.R. 288, which directs the Secretary of Veterans Affairs to 
establish a scholarship program for individuals who: (1) pursue 
a program of study leading to a degree or certificate in either 
visual impairment, orientation and mobility, or both; (2) 
provided they agree to become a full-time VA employee for 3 
years, within the first 6 years after program completion.
    While the DAV has no resolution on this issue, we are not 
opposed to this legislation. The only amendment we would 
recommend is that the scholarship program's emphasis is on 
providing such educational opportunities first to service 
connected veterans with visual impairment, orientation and/or 
mobility disabling conditions.
    The third and last piece of legislation I will address is 
H.R. 466, the ``Wounded Veteran Job Security Act,'' which 
amends Uniformed Services Employment and Reemployment Rights 
Act, prohibiting discrimination and acts of reprisal by 
civilian employers against persons who receive treatment for 
conditions incurred in or aggravated by service in uniformed 
services.
    Although the DAV has no resolution on this issue, we are 
not opposed to the favorable consideration of this legislation 
as it would protect veterans from discrimination and reprisal 
as they seek care for their disabilities.
    Madam Chairwoman, this concludes my testimony on behalf of 
the DAV. We hope you will favorably consider our 
recommendations. I would be happy to answer any questions 
Members of the Subcommittee might have. Thank you.
    [The prepared statement of Mr. John Wilson appears on p. 
39.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson. We appreciate 
your recommendations.
    Mr. Walker, you are now recognized for 5 minutes.

                    STATEMENT OF MARK WALKER

    Mr. Walker. Thank you. Madam Chairwoman and Members of the 
Subcommittee, thank for this opportunity to present the 
American Legion's views on the several pieces of legislation 
being considered by the Subcommittee today. The American Legion 
commends the Subcommittee for holding a hearing to discuss 
these important and timely issues.
    H.R. 147, the American Legion supports this provision. This 
fund will provide medical, rehabilitative, and employment 
assistance to homeless veterans and their families. Homeless 
veteran programs should provide supportive services such as, 
but not limited to, outreach, health care, case management, 
daily living, personal financial planning, transportation, 
vocational counseling, employment and training, and education. 
This designation of funds would provide these needed services 
for America's most vulnerable veterans.
    H.R. 228, the American Legion supports this pilot program. 
There is a strong need for more medical providers in these 
medical fields and this program would provide the necessary 
funding for veterans who are interested in these career 
opportunities.
    H.R. 297, the American Legion supports this provision. This 
subsistence increase would allow the veteran to meet his or her 
needs and maintain their educational pursuits within the VR&E 
program.
    H.R. 466, the American Legion supports this amendment to 
the USERRA to allow veterans to maintain their employment while 
being treated for service-connected disabilities.
    H.R. 929, the American Legion supports this legislation. 
This program would provide job training in a relevant career 
field for veterans who have been unemployed for at least 90 of 
the previous 180 days, are not eligible for education or 
training services, or do not have a primary or secondary 
military occupation specialty that is readily transferable to 
the civilian workforce. This program would be the only Federal 
job training program available strictly for veterans and the 
only Federal job training program specifically designed and 
available for use by State veterans' employment personnel to 
assist veterans with employment barriers.
    H.R. 942, the American Legion supports this provision. The 
American Legion views small business as the backbone of the 
American economy. This program would defray the cost and allow 
training that is required to run a franchise successfully.
    H.R. 950, the American Legion believes that paying veterans 
a lesser benefit when they receive credit via distance learning 
is a concern. The U.S. Department of Defense reports that over 
70 percent of its enrollees are receiving credit via distance 
learning, and the VA is reporting a similar shift toward 
increasing utilization of the distance learning modality.
    Accordingly, the American Legion is recommending that the 
allowances for distance learning be similar to those for 
residential learning. This policy assures equity for veterans, 
including such individuals as single parents and veterans with 
significant medical disabilities.
    H.R. 1088, the American Legion recommends that these 
personnel be trained within a year. We agree with this 
legislation.
    And H.R. 1089, the American Legion has no position on this 
enforcement through the Office of Special Counsel of Employment 
and Unemployment Rights, Veterans and members of the armed 
forces employed by executive agencies.
    And lastly, H.R. 1171, the American Legion strongly 
supports the reauthorization of HVRP for fiscal years 2010 to 
2014. HVRP is the only nationwide program that focuses on 
assisting homeless veterans to reintegrate into the workforce.
    Again, thank you for the opportunity to submit these 
opinions of the American Legion on these issues. I am willing 
to answer any questions.
    [The prepared statement of Mr. Walker appears on p. 41.]
    Ms. Herseth Sandlin. Thank you, Mr. Walker.
    Dr. Zampieri, you are now recognized.

              STATEMENT OF THOMAS ZAMPIERI, PH.D.

    Dr. Zampieri. On behalf of the Blinded Veterans 
Association, I appreciate the opportunity to provide the 
testimony today to the Committee.
    We aren't going to give up. We appreciate the fact that, 
actually, you all passed H.R. 1240 in the last session, and I 
appreciated the bipartisan support of the Committee in trying 
to get this scholarship program for the blind, rehabilitative 
instructors and the orientation mobility instructors.
    Since then, the bad news is, of course, the friends of mine 
on the Senate side didn't get a chance to pass the bill in the 
110th Congress, but I have spent the last week over there. And 
I am sure that, if nothing else, they want to get rid of me, so 
they said, we'll try this time to get the bill passed. And I 
think, Senator Brown actually is going to be introducing the 
companion bill in the near future and with, also, bipartisan 
support over there.
    So, again, we appreciate your bringing this bill up again 
before your Committee. And hopefully, we'll get it passed. The 
bad news is that as the VA has tried to expand its outpatient 
blind rehabilitative programs to more medical centers since we 
last testified 8 months ago, or whenever the hearing was, the 
number of vacant positions now has increased.
    The good news is, the VA is trying to expand its ability to 
improve access for blind and low-vision veterans. And actually, 
they've opened up 53 new programs.
    The bad part of that is, is when you are trying to recruit 
these individuals, there are only 30 universities in the whole 
country that offer a master's level degree in blind instruction 
and orientation mobility. And there's actually a national 
shortage of these individuals coming out of these 30 programs 
because these programs are very small to begin with.
    And so the VA will be able to use this scholarship program, 
obviously, as a great recruitment tool to bring these 
individuals into the system.
    The polytrauma centers and the other blind rehabilitative 
centers, especially, have felt the problems with trying to be 
able to recruit these individuals. And as mentioned by other 
witnesses, these individuals coming back, or polytrauma 
patients, not only are they visually impaired, but they often 
have other physical injuries, burns, amputations. A significant 
number of them, or their polytrauma patients, have PTSD, and 
the best place for them to be treated is within a multi-
disciplinary health care system, like the VA operates at its 
blind centers in conjunction with the other specialists that 
are needed to treat these individuals.
    The other pieces of legislation before the Subcommittee 
today, BVA supports all of those. I did make a little error in 
testimony under H.R. 942. I meant to have a section there where 
it talked about returning medics and corpsmen. Actually, it 
should have been under Congressman Welch and Congressman 
Boozman's bill, H.R. 929.
    It is a great resource of individuals returning with combat 
life-saving skills. It is not easily transferred into the 
private sector, although these individuals that are combat 
medics and navy corpsmen can come back and apply to be 
emergency medical technicians. In many rural States, those are 
volunteer positions on fire departments and rescue squads. They 
can't get employment, even though they have these amazing life-
saving skills.
    So if there is a way to include corpsmen and medics into 
this as a way of helping them in any way as far as getting into 
the VA and going back to school and becoming physician 
assistants helps meet several things in regards to providing 
rural health care, primary care providers that physician 
assistants are. So I just want to bring that up.
    These other things are also important. Congressman 
Doggett's bill, I just want to say that we have also supported 
that because I know of servicemembers who have had problems 
where they are actually afraid, especially National Guard and 
Reservists who come back who have had traumatic brain injuries 
(TBIs), tell their employer that I had a TBI. Now, here we are, 
constantly trying to figure out better ways to screen, diagnose 
and treat these individuals, but I am hearing that there is a 
stigma attached now and employers get real suspicious of an 
individual who comes back and says, oh, by the way, I had a TBI 
or I had PTSD because of my experience in Iraq. And just so you 
know, there are cases out there that I am familiar with where 
persons have suddenly been treated differently than in the 
past.
    So any way that you can protect an individual so that they 
are not discriminated against because of the fact that, you 
know, they are seeking treatment and care for war-related 
injury or illness or mental health problems, we fully support 
your action here on the Committee.
    And I just wanted to mention that today I have a blinded 
OIF servicemember who came with me from Walter Reed, and I am 
not sure how you all would do this, but you are the experts. 
One of the things, too, with Congressman Doggett's bill, and I 
know the Committee has looked at, if there is a way to sort of 
help the parents or the spouse or a family member who is a 
caretaker. We have heard of cases where individuals are trying 
to take care of their son or daughter and they start to get 
harassed at work, because they are taking time off from work in 
order to get their son or daughter to appointments and stuff. I 
know this gets complex, in a lot of different ways. But it is 
just something that I wanted to draw attention to.
    And so, again, we appreciate the opportunity to be able to 
testify today and we would be willing to answer any questions.
    [The prepared statement of Dr. Zampieri appears on p. 43.]
    Ms. Herseth Sandlin. Thank you, Dr. Zampieri, and thank you 
for your tenacity in working with our colleagues on the Senate 
side. I appreciate it.
    Let me just start out with a couple of questions for Ms. 
Beversdorf. First, are you satisfied by the geographic location 
of the services provided by the Homeless Veterans Reintegration 
Program?
    Ms. Beversdorf. I'm sorry. Could you repeat the question?
    Ms. Herseth Sandlin. Are you satisfied by the geographic 
locations of the services provided by the Homeless Veterans 
Reintegration Program? My understanding is the Department of 
Labor funds are limited to a number of grantees and a limited 
number of States.
    To phrase it differently, are there some areas that are 
underserved by the Homeless Veterans Reintegration Program 
because of the geographic locations as identified by the 
Department of Labor?
    Ms. Beversdorf. There are definitely areas that are 
underserved. And part of the problem, frankly, Madam Chairman, 
is that only a limited amount of funding is available. While 
the program is authorized at $50 million each year, the 
Department of Labor has required only a $2 million increase in 
funding.
    And so, the number of grants that are available, both urban 
as well as suburban, is limited. Most of the time DOL has far 
more grant applications than they are able to fund because of 
limited dollars.
    HVRP is a successful program. If there is anything this 
Subcommittee can do, it would be to request full authorized 
funding for the program this year.
    Ms. Herseth Sandlin. Thank you.
    Mr. Brown, in your testimony, you state that while the VFW 
is supportive of the intent of the legislation--I think 
referring to H.R. 297--it doesn't address the core issues 
facing VR&E. Could you, perhaps, identify for the Subcommittee, 
either now or follow up in writing what the VFW deems to be the 
top three or five core issues facing VR&E today?
    Mr. Brown. I would be happy to follow up in writing, Madam 
Chairwoman.
    [The DAV response is provided in the response to Question 
#1 in the Post-Hearing Questions and Responses for the Record, 
which appears on p. 71.]
    Ms. Herseth Sandlin. Thank you.
    This question is for anyone on the panel who would like to 
comment. Mr. Brown, I think your testimony indicates that VFW 
can't support H.R. 950 because it would create inequities among 
veterans pursuing distance learning. I'm wondering if VFW could 
support the bill, Mr. Walker, you may have referenced this in 
your testimony, if it was changed to the student's residence at 
enrollment, instead of the institution's location.
    Mr. Brown. That would certainly make it more favorable to 
the VFW.
    Ms. Herseth Sandlin. Okay.
    Mr. Boozman.
    Mr. Boozman. Mr. Brown, can you elaborate a little bit on 
Mr. Welch's bill, H.R. 929?
    Mr. Brown. Yes, Congressman. And exactly how would you like 
me to elaborate on it, if I may?
    Mr. Boozman. Well, you all, do you oppose that?
    Mr. Brown. We are not in support of the legislation, 
Congressman.
    Mr. Boozman. Yes, what I'd like to know is, a little bit 
more where if you see a situation that can be fixed or just, do 
you have, I guess, a recommendation on fixing the bill?
    Mr. Brown. Well, one of the biggest things that struck out 
while looking at the bill, in consideration of the total 
unemployment right now for veterans, we're looking at about 
850,000 people. Even before the economic decline, it was about 
half of that. If veterans were to use this benefit to the full 
amount of $20,000 a year, for the period of 1 year, an 
appropriation of $60 million, that would only affect 3,000 
veterans.
    So, I guess, one of our biggest issues with the legislation 
is that we feel that we really need to look at maybe some other 
avenues to really try to affect a larger veteran population. 
The legislation seems like it is aimed at a certain demographic 
of veterans. In particular I think it cites that anybody that 
is eligible for educational benefits is not eligible under this 
section.
    Also, we think that, you know, that the bill is essentially 
just paying employers to hire veterans. And another program 
that also kind of does something like that, but their job is to 
hire other veterans is the DVOPs and LVERs through the 
Workforce Investment Act. They are appropriated at about $160 
million. Their job is to hire other veterans. This is a $60 
million appropriation that would just pay kind of any 
employers.
    We just feel like there are more effective ways of trying 
to go after this demographic.
    Mr. Boozman. Well, that's very reasonable.
    Ms. Beversdorf, you mentioned that the authorization was 
$50 million and that it was--how much--one of the arguments has 
been that there is not enough providers to, if you did dole out 
more money, some people are arguing that there are not enough 
providers to actually use the money efficiently. Can you 
comment on that?
    Ms. Beversdorf. NCHV represents 260 community-based 
organizations. Many who are not NCHV members also provide 
services to the homeless veterans. Many providers have been 
applied for HVRP funding and have been turned down even though 
they have submitted excellent proposals. DOL is accepting only 
the very best proposals.
    Approval of the proposals may depend on who is reviewing 
them. In terms of eligible providers, many would qualify for 
funding. An additional $25 million would increase the number of 
people who would apply for the program and who could receive 
funding.
    Mr. Boozman. I agree. Thank you very much.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. Mr. Brown, 
could you clarify if it is the VFW's position, as it is the 
DAV's position, that you are advocating for the subsistence 
allowances offered under the Post-9/11 G.I. Bill be available 
for VR&E participants, at that level?
    Mr. Brown. The level of what?
    Ms. Herseth Sandlin. The level of funding offered under the 
Post-9/11 G.I. Bill. In your testimony, VFW estimated that the 
Chapter 33 basic allowance for housing is more generous than 
what is currently offered for subsistence.
    Mr. Brown. Correct.
    Ms. Herseth Sandlin. Do you agree that we should make the 
level of subsistence allowance the same level for VR&E 
participants under Chapter 31, as it is under Chapter 33?
    Mr. Brown. Right. At the minimum. I mean, we are also 
talking about disabled veterans as well.
    Ms. Herseth Sandlin. Mr. Wilson, that was your testimony 
for the DAV as well, right?
    Mr. John Wilson. Yes, that's correct.
    Ms. Herseth Sandlin. Mr. Walker, is the American Legion 
taking a position on this?
    Mr. Walker. We have not taken one on that.
    Ms. Herseth Sandlin. You have not? Okay.
    My final question relates to my bill with regard to the 
Office of Special Counsel and USERRA complaint issues. Do any 
of the veterans service organizations, represented today on 
this panel, have a position as to whether or not OSC should be 
the lead agency handling USERRA complaint issues?
    Mr. Walker. Not at this time.
    Ms. Herseth Sandlin. Not at this time.
    Mr. Brown. Not at this time.
    Ms. Herseth Sandlin. Okay.
    Mr. John Wilson. Not at this time, no, ma'am.
    Ms. Herseth Sandlin. Okay. That's all I have.
    We thank you for your testimony, your commitment to our 
Nation's veterans, your recommendations and your thoughts on 
the bills that we have under consideration in this hearing 
today. Thank you very much.
    I would now like to invite our witnesses on the third panel 
to the witness table. Joining us today is Mr. Patrick Boulay, 
Chief of the USERRA Unit for the U.S. Office of Special 
Counsel, and Mr. Keith Wilson, Director of the Office of 
Education Service, Veterans Benefits Administration, U.S. 
Department of Veterans Affairs.
    Thank you both for being here, and thank you for your 
written testimony which will be entered in its entirety into 
our hearing record.
    Mr. Boulay, we will begin with you. Thank you, again, for 
being here at the Subcommittee. We'll recognize you for 5 
minutes.

   STATEMENTS OF PATRICK H. BOULAY, CHIEF, USERRA UNIT, U.S. 
   OFFICE OF SPECIAL COUNSEL; AND KEITH M. WILSON, DIRECTOR, 
   EDUCATION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                     DEPARTMENT OF VETERANS

                 STATEMENT OF PATRICK H. BOULAY

    Mr. Boulay. Thank you, Madam Chairwoman, Mr. Ranking Member 
and Members of the Subcommittee.
    Good afternoon, and thank you for the opportunity to 
testify today on important matters of concern to our veterans, 
their families and our Nation as a whole.
    My name is Patrick Boulay and I am Chief of the USERRA Unit 
at the U.S. Office of Special Counsel.
    OCS is honored to serve as the Federal-sector prosecutor of 
the Uniformed Services Employment and Reemployment Rights Act, 
the law that protects the civilian employment rights of our 
veterans.
    There are several important bills concerning veterans 
benefits and programs that are the subject of today's hearing. 
Because OSC's role is limited to USERRA, however, our testimony 
today focuses on H.R. 1028, the ``Veterans Employment Rights 
Realignment Act of 2009,'' which proposes to expand OSC's role 
in USERRA by giving OSC exclusive jurisdiction to not just 
prosecute, but also investigate USERRA complaints involving 
Federal executive agencies.
    Our Nation's military commitments in Iraq, Afghanistan and 
elsewhere have resulted in unprecedented deployments of our 
national Guard and Reserves during this decade.
    As a consequence, we have seen, and are likely to continue 
to see, increased activity surrounding USERRA in the months and 
years ahead as soldiers continue to transition to and from the 
civilian workforce. Federal agencies, which employ 
approximately 25 percent of the Guard and Reserve, will play an 
important role in this process.
    As you may know, the U.S. Office of Special Counsel is an 
independent Federal executive and prosecutorial agency whose 
primary mission is to safeguard the merit system in Federal 
employment by protecting Federal employees and applicants from 
prohibited personnel practices such as whistle-blower 
retaliation.
    In 1994, OSC's mission was expanded with the enactment of 
USERRA, which is intended to ensure that those who serve in our 
Nation's military are not disadvantaged in their civilian 
careers because of military service, are promptly reemployed in 
their civilian jobs upon their return from duty, and are not 
discriminated against in employment based on past, present or 
future military service.
    This law applies to all employers, Federal, State, local 
and private. Congress intends for the Federal Government to be 
a model employer under USERRA.
    OSC is privileged to play a critical role in the 
enforcement of USERRA. Specifically, OSC provides legal 
representation and files suit on behalf of Federal employees 
and applicants whose USERRA rights have been violated by their 
Federal agency employers.
    Since USERRA's enactment, OSC has sought to vigorously 
enforce USERRA to help fulfill Congress' goal that the Federal 
Government be a model employer under the law. We believe that 
Federal agencies must set an example for private, State and 
local employers to follow. We owe an immeasurable debt of 
gratitude to those who serve, and we must make certain that 
they are restored to their full employment rights and benefits 
when they come home, and that they are not discriminated 
against in employment.
    Under current law, Federal employees and applicants who 
have USERRA complaints must first submit those complaints to 
the U.S. Department of Labor. The Department of Labor then 
investigates and attempts to resolve their complaints. If DOL's 
efforts are unsuccessful in resolving the complaint, the 
claimant may request that his or her complaint be referred to 
OSC.
    Once OSC receives the case, it reviews the investigative 
file from the Department of Labor and determines whether to 
represent the claimant in a USERRA appeal before the U.S. Merit 
Systems Protection Board (MSPB).
    Thus, USERRA creates a bifurcated process for Federal 
employees and applicants seeking to vindicate their USERRA 
rights by splitting the investigative and prosecutorial 
functions between two agencies, the Department of Labor and 
OSC.
    OSC has long enjoyed a cooperative, productive partnership 
with DOL enforcing USERRA. Nevertheless, in USERRA cases 
referred from DOL to OSC, OSC must rely on DOL's 
investigations, which are sometimes incomplete or not fully or 
properly analyzed under the law. This often requires OSC to 
conduct additional follow-up investigation to make its 
determination.
    Recognizing the inefficiencies of the bifurcated USERRA 
complaint process for Federal employees, as well as OSC's 
extensive experience and expertise in investigating and 
resolving other Federal employment claims, Congress established 
a USERRA demonstration project in 2004, under which OSC 
directly received roughly half of all USERRA complaints for 
both investigation and possible prosecution.
    Under the demonstration project, OSC resolved the USERRA 
complaints it received in an efficient and highly effective 
manner, obtaining full relief for claimants in one-in-four of 
all claims filed with our office.
    OSC achieved this unusually high rate of corrective action 
through its thorough investigations, expert analysis of the 
law, ability to educate Federal agencies about USERRA and a 
credible threat of litigation before the Merit Systems 
Protection Board.
    Claimants whose cases OSC received also benefited from 
having a single centralized entity handle their claims from 
beginning to end, instead of being transferred within and 
between the Department of Labor and OSC.
    The demonstration project ended on December 31st, 2007, 
without further Congressional action. If enacted into law, H.R. 
1089 would expand and make permanent the benefits realized 
under the demonstration project by authorizing OSC to not just 
prosecute, but to receive and investigate all USERRA complaints 
involving Federal executive agencies.
    By consolidating the investigative and prosecutorial 
functions in one specialized enforcement agency, we believe 
H.R. 1089 would make the USERRA complaint process more 
transparent, accountable, efficient and effective for military 
servicemembers employed or seeking to be employed by the 
Federal Government. It would also allow the Department of Labor 
to better focus on providing its best service to those employed 
by non-Federal employers and to administer other vital veterans 
programs.
    For these reasons, we believe H.R. 1089 is a win-win 
proposition for the men and women who serve in our Nation's 
military for Federal servicemembers who would benefit from 
OSC's specialized experience and approach, and for non-Federal 
servicemembers who would benefit from greater attention and 
focus on their claims at the Department of Labor.
    Thank your for attention and I look forward to your 
questions.
    [The prepared statement of Mr. Boulay appears on p. 45.]
    Ms. Herseth Sandlin. Thank you.
    Mr. Wilson, you are recognized for 5 minutes.

                  STATEMENT OF KEITH M. WILSON

    Mr. Keith Wilson. Thank you. Madam Chair, Ranking Member 
Boozman, thank you. I am pleased to be here today to provide 
you comments and views on pending benefits legislation.
    Several bills on the agenda today affect programs and laws 
administered by the Department of Labor, the Office of Special 
Counsel and the Internal Revenue Service. We defer to those 
lead agencies and expect that they will best speak to the 
following bills, H.R. 147, H.R. 466, H.R. 1088, and H.R. 1089 
and the Draft Bill to Reauthorize Homeless Veterans 
Reintegration Programs.
    I regret we did not have sufficient time to formulate 
formal views on two bills, H.R. 228 and H.R. 297. However, we 
would be pleased to provide written views for the record.
    [The Administration Views for H.R. 228 and H.R. 297 were 
provided in a follow-up letter from Secretary Eric K. Shinseki, 
dated May 26, 2009, which appears on p. 77.]
    H.R. 942, the ``Veterans Self Employment Act of 2009,'' 
would direct VA to conduct a 5-year pilot to test the 
feasibility and advisability of using VA education assistance 
to pay for training costs associated with the purchase of a 
franchise enterprise.
    Currently, there is no provisions under any education 
benefit program for payment of benefits to help cover the 
training costs associated with the purchase of a franchise 
enterprise. The impact on this legislation on VA with regard to 
the number of claimants would be minimal. However, there would 
be more significant administrative impact in that VA would be 
required to develop regulations for proper administration to 
program, as well as conduct adequate oversight to ensure 
compliance.
    VA supports enactment of this act, subject to the 
identification of offsets for the additional benefits costs. VA 
estimates that enactment of H.R. 942 would result in benefit 
costs of $594,000 for fiscal year 2010, and $23.7 million over 
10 years.
    H.R. 929 is an educational training program which would 
require VA to establish a Military Occupational Specialty 
Transition program for training to provide eligible veterans 
with skills relevant to the job market. VA supports the 
initiatives goal of expanding education opportunities that is 
currently drafted. This bill would be problematic to implement 
and execute. Therefore, we cannot endorse at this time.
    Under the program, VA would enter into contracts with 
employers who had received payments for providing programs of 
apprenticeship or on-the-job training. Under the MOST program, 
the Secretary would be required to determine whether a 
veterans' military occupational specialty has limited 
transferability to the job market and whether the veteran has 
not acquired a marketable skill since leaving military service. 
Because of these unique determinations, we believe MOST would 
be better implemented as a joint program between the Department 
of Labor and VA.
    The MOST program would allow for payment to employers who 
provide a program of apprenticeship or training for eligible 
veterans, and it is expected that the employer would hire the 
veteran upon completion of the training, but there are no 
guarantees. Reimbursing an employer for a portion of the 
apprenticeship or on-the-job wages, as well as to ensure that 
veterans are protected with rights as employees, it would seem 
to be a better program if the employers are required to hire 
the veterans at the beginning of the training program.
    As written, the program puts the risk upon the veteran and 
the VA, with only a hope of future employment for the veteran. 
This legislation would require significant development of 
regulations and procedures to administer the benefit. As the 
proposed legislation appears to be effective the date of 
enactment, there would be a considerable delay in VA's ability 
to pay claims associated with the MOST program.
    H.R. 950 is a bill designed to pay college housing 
allowance to veterans who take education courses over the 
Internet, in other words, distance learning via the Post-9/11 
GI Bill. As currently written, this program poses a risk of 
unintended increased costs due to the locality determination of 
this subsidy. Therefore, as currently drafted, we oppose the 
bill.
    Currently, under the bill, individuals who are pursuing a 
program of education are eligible to receive a monthly housing 
allowance stipend equal to Department of Defense basic 
allowance for housing rates for an E-5 with dependents. This 
bill would extend this benefit to individuals taking courses 
over the Internet, regardless of their location.
    This legislation would have an impact on VA business 
processes and procedures. Housing stipends are based on basic 
allowance for housing (BAH) rates where the school is located, 
versus the individual's residence. We anticipate some 
individuals would enroll in a distance learning program at the 
schools with the highest BAH rate. Presumably, it would be 
better to base the housing stipend on where individuals live 
and/or their home of record at the time of enrollment.
    VA estimates an enactment of H.R. 950 would result in 
benefit costs of $20.4 million for fiscal year 2010, and $1.5 
billion over 10 years. In view of the cost and because BAH 
rates are based on the locality of the school, bear no 
relationship to the cost of living associated at a locality, VA 
opposes this bill.
    Madam Chair, this concludes my statement. I would be happy 
to entertain any questions you or other Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Keith Wilson appears on p. 
51.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson.
    Mr. Boulay, is it correct to state that the Department of 
Labor must accept every USERRA case while OSC can pick and 
choose among the cases for which it was referred?
    Mr. Boulay. I mean, in a sense, the Department of Labor at 
this time receives all USERRA complaints against all employers 
and if they investigate it and are unable to resolve the 
complaint, the claimant, regardless of the merit of the case, 
can ask that the case be referred to OSC. And then OSC must 
then determine whether to prosecute the case, pursue 
settlement, file the case with the MSPB, et cetera.
    So, in a sense, you know, the Department of Labor picks and 
chooses in the sense that they try to determine merit through 
their investigations, and then only approach an employer if 
they think there is something to a case. In terms of trying to 
get something for the servicemember, and I suppose we do, too, 
in the sense that we are trying to evaluate whether there is 
enough evidence to go forward.
    Ms. Herseth Sandlin. Okay. Well, let us touch on the issue 
of the evidence because you were critical in your testimony of 
the Department of Labor's investigations and analyses. Can you 
identify some of the most common deficiencies that OSC finds 
with the Department of Labor's investigation?
    Mr. Boulay. Well, I think there are a number of things that 
seem to be common problems. One being that Department of Labor 
is just trying to get enough information to figure out if there 
is some merit to the case and if they can maybe settle it.
    So, you know, oftentimes they might not interview all the 
witnesses, they might not ask all the questions, they might not 
get all the documents that would be needed to prove a case in 
court. So there is some incompleteness. We have also seen that 
sometimes they analyze cases, for instance, under the anti-
discrimination part of USERRA, rather than the reemployment 
part, or vice versa which, of course, affects how they 
investigate the case, and, you know, our ability to evaluate it 
if it is not analyzed under the right part of the statute.
    And I think that that could be due to the fact that, you 
know, the Department of Labor's process for USERRA is very 
decentralized. They have these offices throughout the country 
which, you know, I am sure benefits our veterans in terms of 
them being able to go to a local office.
    But, you know, in terms of outcomes in USERRA cases, there 
is a lot of inconsistency in the quality we see because there 
is not a lot of central oversight.
    Whereas, at OSC we are a small agency, we are located here 
in D.C. We have a few field offices, but everything is done, 
you know, everything--when we have a USERRA case under the 
demonstration project, all the cases come in for the USERRA 
unit through me as the chief, and I review them before their 
determination is finalized. So we get more consistency that 
way.
    Ms. Herseth Sandlin. Okay. Let me ask just a couple of 
questions on the number of cases referred under the current 
process. How many cases are referred from the Department of 
Labor to OSC in an average year?
    Mr. Boulay. Well, in the past, that number was generally 
anywhere from 10 to 20 cases on average.
    Ms. Herseth Sandlin. On average. How about last year?
    Mr. Boulay. Last year, well, I think last year I believe it 
was in that range, however, we were still kind of dealing with 
the demonstration project.
    Ms. Herseth Sandlin. Right.
    Mr. Boulay. So that tends to depress the numbers. Actually, 
this year, I think in part because of a new law that imposes 
deadlines and Department of Labor's improvement in notifying 
veterans that they can come to OSC, we are actually on pace to 
get about 40 or 50 referrals this year, in this fiscal year. So 
we are seeing an uptick, but obviously we would see, you know, 
I think in the vicinity of 300 to 400 cases, if we were 
getting--that is about the number of total Federal cases a 
year, 300 to 400.
    Ms. Herseth Sandlin. Okay, let us say you get them.
    Mr. Boulay. Yes.
    Ms. Herseth Sandlin. Is the OSC prepared to handle the 
increased workload?
    Mr. Boulay. Yes, we are, and that's because, you know, we 
had a USERRA unit in operation, a fairly large group during the 
demonstration project. Our personnel have been spread out a 
little bit into different departments as the work had 
decreased, but we can bring them back together.
    And you know, this wasn't even hard when we got the 
demonstration project because this is not a stretch for us. We 
investigate cases. We enforce USERRA. It wasn't a stretch for 
us to start investigating USERRA cases as well. They are very 
similar to the other cases we also investigate, like whistle-
blower cases.
    So it is really not, you know, a big stretch for us to have 
to do this. And you know, we think there would be a need for 
some additional staff and resources, but we have already kind 
of projected that, and I don't think it would be that 
difficult.
    Ms. Herseth Sandlin. Would you need additional staff 
resources?
    Mr. Boulay. We would need some additional resources, you 
know, beyond our existing staff to, you know, handle the larger 
volume.
    Under the demonstration project, we were only getting half 
of the cases.
    Ms. Herseth Sandlin. Right.
    Mr. Boulay. So we would need, you know, some additional 
staff.
    Ms. Herseth Sandlin. But you haven't done any estimates on 
how many additional staff you would need if this bill were to 
become law?
    Mr. Boulay. Well, we actually have.
    Ms. Herseth Sandlin. Okay.
    Mr. Boulay. And we estimate that we would need, I believe, 
19 full-time employees. We have a handful right now.
    Ms. Herseth Sandlin. Nineteen additional.
    Mr. Boulay. Well, that is 16 additional employees and an 
increase, I think, in the vicinity of $2.5 million in funding 
to cover that.
    Ms. Herseth Sandlin. Final question. Should there be a 
mandatory referral to OSC from the Department of Labor, or 
would making OSC the lead agency be better in your opinion?
    Mr. Boulay. Well, I think definitely making OSC the lead 
agency would be better because then it wouldn't place the 
burden on the claimant, for one thing, to ask for a referral 
and if we got involved in the cases sooner and we were able to 
do our investigation, we could approach an agency, a Federal 
agency sooner on the claimant's behalf, perhaps get settlement. 
I think it would just be much more efficient.
    I mean a mandatory referral kind of takes it out of the 
hands of the claimant. I mean, they have that right as a matter 
of law. So I just think, again, just us being able to do these 
cases from beginning to end, given our experience and our 
mission, would definitely be a benefit and allow us to really 
make the Federal Government the model that it is supposed to 
be.
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. I really don't have 
any questions. We appreciate you all being here. We appreciate 
your testimony.
    Ms. Herseth Sandlin. Well, Mr. Wilson, we are not going to 
let you out that easily.
    Mr. Keith Wilson. I would be disappointed otherwise.
    Ms. Herseth Sandlin. Just a couple of quick questions for 
you. I asked this question to a prior panel on H.R. 950. If the 
bill was amended to pay the student housing stipend, based on 
their current residence from which they were taking the 
distance learning courses, rather than the location of the 
institution, would VA support the bill? Or would VA be more 
inclined to support the bill?
    Mr. Keith Wilson. It would take away one of our core 
concerns about the bill. I would preface that, though, with our 
need to take into account what we have in place right now with 
implementation of a new GI Bill.
    Ms. Herseth Sandlin. Right.
    Mr. Keith Wilson. Because we would have to take into 
account any impact it would have with our functional 
requirements, rollout, et cetera.
    Ms. Herseth Sandlin. Okay. You also stated that the MOST 
program would be better implemented between the Department of 
Labor and the VA, correct?
    Mr. Keith Wilson. Correct.
    Ms. Herseth Sandlin. Just elaborate for the Subcommittee a 
bit further on how a joint program would be better?
    Mr. Keith Wilson. The specific determinations that the 
Secretary would be required to make are largely items that we 
would not necessarily have the expertise in, and perhaps the 
Department of Labor would have better expertise in that area.
    Ms. Herseth Sandlin. Okay. One final question. You state 
that H.R. 929 would be challenging to implement. Do you have 
any thoughts on how the implementation might be streamlined?
    Mr. Keith Wilson. Not at this point. I would be more than 
happy to work with the Subcommittee or provide more details on 
that. At this point I don't.
    [The VA response is provided in the response to Question #2 
of the Post-Hearing Questions and Responses for the Record, 
which appears on p. 76.]
    Ms. Herseth Sandlin. Okay. We appreciate that.
    Well, thank you both for your testimony, for being here 
before the Subcommittee. We thank you for your statements this 
afternoon, as well as the statements of the other witnesses on 
the previous panels. Again, we look forward to following up on 
some of the suggestions that have been made, both by the 
veteran service organizations, our advocates for homeless 
veterans, and the agencies that are represented here. We do 
hope to mark up a number of these bills this month. The full 
Committee hopes to take action on them by the end of the month.
    Your comments and recommendations are timely and we 
appreciate them. I know some of our witnesses joined us today 
on rather short notice.
    Once again, thank you for the opportunity that we had to 
visit with you today. The hearing now stands adjourned.
    [Whereupon, at 2:30 p.m. the Committee was adjourned.]



















                            A P P E N D I X

                              ----------                              


   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity
    I would like to call to attention the fact that the Committee 
Ranking Member, Steve Buyer, Congressman Rodney Alexander and Blinded 
Veterans Association have asked to submit written statements for the 
hearing record. If there is no objection, I ask for unanimous consent 
that their statements be entered for the record. Hearing no objection, 
so entered.
    I ask unanimous consent that all Members have five legislative days 
to revise and extend their remarks and that written statements be made 
part of the record. Hearing no objection, so ordered.
    Today we have 10 bills before us that seek to: establish a 
voluntary fund to assist homeless veterans; create a scholarship 
program for students seeking an education in the areas of visual 
impairment, orientation and mobility; expand VR&E subsistence 
allowance; protect wounded veterans in the workforce; create a program 
for veterans to meet the needs of the current job market; establish a 
5-year pilot project to assist veterans seeking training on the 
purchase of a franchise enterprise; expand Chapter 33 housing benefits 
to veterans taking distance learning courses; improve training for 
those required to take National Veterans' Training Institute (NVTI) 
core training; authorize the Office of Special Counsel to review 
certain USERRA cases; and reauthorize the Homeless Veterans 
Reintegration Program.
    Some of our audience members will recall at least two Subcommittee 
hearings we held in the last Congress highlighting the responsibilities 
of Veteran Outreach Program Specialist (DVOPS) and Local Veterans 
Employment Representative (LVER) staff, which are primarily 
administered through state employment agencies and the U.S. Department 
of Labor.
    While several recommendations were highlighted, one recommendation 
was to change DVOP and LVER training requirement at NVTI from the 
current 3 year timeframe to 1 year from date of employment.
    Unfortunately, the current core training requirements fail to meet 
the needs of veterans by permitting DVOP and LVERs to assist veterans 
when they do not have the proper training to effectively assist the 
veterans they seek to help.
    Recognizing the need to have properly trained DVOP and LVER staff, 
I introduced H.R. 1088, the Mandatory Veteran Specialist Training Act 
of 2009. This legislation would require DVOPs and LVERs to be trained 
for their position within 1 year from the date of employment. I look 
forward to receiving comments from the Department of Labor and veteran 
service organization on this important legislation.
    Another bill that I introduced as a result of a previous hearing is 
H.R. 1089, the Veterans Employment Rights Realignment Act of 2009. On 
February 13, 2008, the Subcommittee held a hearing on ``Review of 
Expiring Programs.''
    Pursuant to Public Law 108-454, the U.S. Office of Special Counsel 
(OSC) began receiving and investigating certain Federal sector USERRA 
claims on February 8, 2005 and sunset on December 31, 2007 after 
Congressional intervention extending the original sunset. This law gave 
OSC authority to investigate Federal sector USERRA claims brought by 
persons whose social security number ends in an odd-numbered digit. 
Under the project, OSC received and investigated all Federal sector 
USERRA claims containing a related prohibited personnel practice 
allegation over which OSC has jurisdiction regardless of the person's 
Social Security number.
    In the hearing we received testimony from several veteran service 
organizations and the Office of Special Counsel that outlined the 
results that have increased the Department of Labor's effectiveness by 
decreasing their turnaround rate for pending USERRA cases.
    Protecting our Nation's servicemembers and veterans from potential 
workforce discrimination is an important issue I will continue to 
address in this Congress.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                  Subcommittee on Economic Opportunity
    Good afternoon everyone. Madam Chair, I appreciate the opportunity 
that we are bringing several pieces of legislation before the 
Subcommittee including my bill, H.R. 1171, the Homeless Veterans 
Reintegration Program Reauthorization Act of 2009.
    As you know, the Homeless Veterans Reintegration Program, or HVRP, 
has been cited by GAO as an example of a successful program designed to 
put homeless veterans back to work. It is a relatively inexpensive 
program, funded last year at about $26 million, that provides grants to 
community-based providers serving the homeless veteran population.
    VA now estimates that about 154,000 veterans are homeless, a level 
down from well over 200,000 just a few years ago. I believe that HVRP 
has played an important role in reducing the homeless veteran 
population by putting them back to work and I congratulate the Veterans 
Employment and Training Service and all their grantees for that 
success. I am also looking forward to hearing the testimony from the 
National Coalition of Homeless Veterans' Executive Director, Ms. 
Beversdorf, on the state of the homeless community.
    I would also note that several Members have excellent bills on 
today's agenda. I want to thank you and your staff Madam Chair for H.R. 
1088 and H.R. 1089.
    I yield back.

                                 <F-dash>
                Prepared Statement of Hon. Steve Israel,
        a Representative in Congress from the State of New York

    Madame Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee, thank you for the opportunity to testify before you 
today. Let me start off today by telling you about a good friend of 
mine. His story is an important one:
    Joe Soukup is a veteran who survived Vietnam with a Purple Heart. 
In the years that followed his homecoming he went through a painful 
divorce, endured several breakdowns and struggled with a drug 
addiction. A few years after his service ended he had to live without a 
home for 3 years.
    In the end he was left with nothing but his truck which he often 
parked at the Mayfair Shopping Center in Commack--right in my District. 
Joe, who suffers from post-traumatic stress disorder and several 
shrapnel wounds from the war was lost, cold, homeless, hopeless and in 
pain.
    And on February 14, 2007, he felt he had nothing left to live for 
and decided to end his life. There was a terrible ice-storm bearing 
down on Long Island that day and the truck was almost out of gas. Joe 
figured he had just enough gas to drive to a bridge. There, he would 
let the ice storm take him to the death he avoided in Vietnam.
    Joe then had a thought: if he was going to die, he should do it 
with dignity at a Veterans hospital. So he drove to the Northport VA, 
in Long Island.
    After receiving help and support from several VA staffers Joe 
started to turn his life around:

    <bullet>  He kicked a drug habit.
    <bullet>  He took anger management counseling.
    <bullet>  He began understanding that the flashbacks of grisly 
combat in Vietnam were just flashbacks.

    Although he was diagnosed with post-traumatic stress disorder, the 
government gave him a senselessly low disability rating. He came to my 
office for help, and after months of phone calls and frequent pestering 
navigating an endless bureaucratic maze we were able to get Joe Soukup 
what he was owed. The work paid off--literally. One year ago, March 
2008, I called Joe to tell him that we secured a retroactive payment of 
$57,834 and monthly checks of $2,527.
    Being able to help Joe was one of my proudest moments in Congress, 
but at the same time it shouldn't have taken a call to a Congressman's 
office for Joe to finally get the benefits he deserved. No Veteran who 
has risked their life for this country should ever have to worry about 
having a roof over their head after they come home. However, the facts 
relating to homeless veterans are heartbreaking:

    <bullet>  There are approximately 154,000 homeless veterans on any 
given night. (VA)
    <bullet>  Twice that many experience homelessness over the course 
of a year. (National Coalition for Homeless Veterans)
    <bullet>  The National Coalition for Homeless Veterans estimates 
that one out of every three homeless men sleeping in a doorway, alley 
or box in our cities and rural communities served in the military.

    This is not just unfortunate . . . this is unacceptable and an 
embarrassment. How can one of the greatest countries in the world let 
the men and women who made it so great sleep on the streets?
    That is why I introduced House Resolution 147.
    This bill creates a section on the annual tax return form that 
would allow taxpayers to designate $3 of their income tax liability to 
programs that assist homeless veterans without increasing the 
taxpayers' tax liability. The method is based on the Presidential 
Campaign Fund, where the user can check a box at the top of the tax 
form to donate.
    H.R. 147 creates a Homeless Veterans Assistance Fund within the 
Treasury where the contributed money would automatically be deposited 
and safeguarded by the Treasury. Expenditures from the fund would have 
to be appropriated and the bill stipulates that funds can only be used 
for the purpose of providing assistance to homeless veterans.
    The idea for this bill originated with New York's Iron Workers 
Local 361 who approached me during the 110th Congress and have been 
instrumental in garnering support for this bill.
    We introduced the bill last year with the support of national 
veterans' organizations. Then Senator Hillary Clinton introduced the 
Senate companion bill (S. 19) on November 20, 2008. This year we have 
41 bi-partisan cosponsors and once again national veterans' 
organizations like The American Legion and Veterans of Foreign Wars 
have offered their support for H.R. 147.
    Serving persons faced with homelessness is a constant challenge due 
to the myriad of needs they may have, in addition to losing their home. 
Veterans add additional dimensions to this challenge as many are faced 
with substance abuse, mental health difficulties and other disabling 
disabilities, as well as the stigma of being homeless.

    <bullet>  45 percent of homeless veterans suffer from mental 
illness. (Center for American Progress)
    <bullet>  Approximately 70 percent suffer from alcohol or other 
drug abuse problems. (VA)
    <bullet>  30 percent of the troops returning from war zones have 
experienced some level of Post-Traumatic Stress Disorder (Center for 
American Progress).

    Many programs exist across the country in effort to provide 
services to these veterans, including housing, psychiatric, medical, 
vocational and monetary, however this continues to be an underserved 
population. Simultaneously, the increased number of individuals 
currently returning from Iraq and Afghanistan is complicating this 
already insurmountable crisis. Many of these veterans have attempted to 
begin a new life outside of the military and have already been faced 
with obstacles such as lack of affordable housing and lack of 
employment opportunities, both issues simultaneously impacting on one 
another in the midst of an economic crisis. This newer population of 
veterans, as per studies, has been found to have a lower incidence of 
substance abuse but a higher incidence of mental illness. The 
population also appears to be a larger group of female veterans than in 
the past. Though the problem of homelessness after times of war is an 
age-old problem, the dynamics and needs of the population have changed 
considerably, thereby creating a more challenging demand for housing 
and services.
    The U.S. has faced so many challenges throughout its history, but 
no matter how grave and great each threat has been our armed forces, 
our service men and women, and our veterans have been there to see us 
through. All because they have sacrificed so much time and energy to 
fight for and defend our country they should be taken care of by their 
country when they return.
    I hope this Subcommittee will look favorably on this legislation 
and I am grateful for the consideration. I hope that H.R. 147 will help 
show that our government will go beyond symbols and rhetoric and 
distribute tangible relief and assistance that honors those who fight 
for us.
    I believe that our Veterans and their families are the heart of 
this country and they deserve the very best America can offer.
    Thank you for your time and consideration.

                                 <F-dash>
                Prepared Statement of Hon. Peter Welch,
         a Representative in Congress from the State of Vermont

    Thank you, Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee, for the invitation to speak today about 
H.R. 929, which would authorize the Military Occupational Specialty 
Transition (MOST) program, a program designed to help veterans find 
work and train for good-paying jobs.
    The MOST program is inspired by and builds upon the success of the 
servicemembers Occupational Conversion and Training Act (SMOCTA), which 
helped veterans in the early 1990s during a period of force reduction. 
During a hearing on my legislation to reauthorize this program in the 
110th Congress, the Disabled American Veterans, the American Legion, 
the Paralyzed Veterans of America, and the Vietnam Veterans of America 
all came before this Subcommittee and expressed their support for this 
bill and my goal of helping all veterans find good-paying jobs. I am 
grateful that the Subcommittee held further hearings on my bill and 
suggested the changes that are reflected in H.R. 929. As we move 
forward with H.R. 929, I hope that the same veterans service 
organizations--and others--will recognize the need for the MOST program 
and once again voice their support.
    The MOST program acknowledges and seeks to address two important 
facts: too many veterans are unemployed or can't find good jobs, and 
many veterans leave the military without acquiring advanced skills that 
are applicable to the civilian workforce. While their leadership 
skills, character, and capacity to take on tough challenges are well-
known and sought after by employers, some veterans simply don't have 
the skills they need to compete in the workforce. In this time of 
economic recession, too many businesses don't have the resources to 
provide the on-the-job training that these veterans need.
    MOST would address this problem by partnering veterans with 
employers willing to provide training, and sharing the cost of training 
programs that will give veterans concrete skills to help them compete 
in an increasingly competitive global marketplace. Through this 
important program, veterans would learn the skills they need to compete 
in a time of intense economic turmoil and increasing globalization. The 
program would be available for veterans who are not currently eligible 
for education or training benefits. The Congressional Budget Office 
estimates that MOST could serve as many as 3,000 veterans every year.
    The men and women of the United States military are the world's 
finest. When I speak with them back home in Vermont and on 
Congressional delegation trips to Iraq and Afghanistan, I am 
consistently impressed by the dedication, professionalism, and 
selflessness of those who wear our country's uniform. It is critical 
that, after leaving the military, veterans can find steady employment; 
those who have given and risked so much deserve our support.
    Unfortunately, far too many veterans are out of work and falling 
through the cracks. Last year, the Bureau of Labor Statistics issued a 
report indicating that the unemployment rate among Gulf War-era II 
veterans age 18 to 54 (6.5 percent) was higher than that of non-
veterans (4.7 percent). This rate was even higher for younger veterans: 
in 2006, unemployment among Gulf War-era II veterans age 25 to 34 
registered at 7.5 percent, while the rate for the same age group in the 
total population was 4.6 percent.
    As our economic struggles continue, it is likely that more and more 
veterans will lose their jobs, be unable to find work, or be 
underemployed. While I am pleased that we made significant strides in 
increasing educational benefits associated with military service during 
the last Congress, those benefits will not reach all veterans. For 
these reasons, the time could not be better to authorize the MOST 
program.
    Again, I would like to thank the Subcommittee for the opportunity 
to discuss this important program and would be happy to answer any 
questions you have.

                                 <F-dash>
               Prepared Statement of Hon. Lloyd Doggett,
          a Representative in Congress from the State of Texas

    Madam Chairwoman, Members of the Committee, I greatly appreciate 
you affording me the opportunity to speak on behalf of my bill, H.R. 
466, the Wounded Veteran Job Security Act. This legislation clarifies 
and strengthens the Uniformed Services Employment and Reemployment 
Rights Act (USERRA) to ensure that employers do not discriminate 
against veterans who require medical care for their service-connected 
injuries. The American Legion, Veterans of Foreign Wars and Disabled 
American Veterans have endorsed my legislation.
    The benefit to wounded veterans returning home will be significant, 
but in terms of cost to the Federal Government, the Congressional 
Budget Office has said that the bill will have ``no significant 
impact.''
    Over 30,000 troops have been wounded as a result of their service 
in Iraq and Afghanistan. Of these, over 8,000 have suffered from 
Traumatic Brain Injuries (TBI) and over 1,200 have required amputation 
of a limb. Complications arising from amputations can force a veteran 
to return repeatedly to the VA for care, and what begins as a migraine 
may later be diagnosed as TBI, requiring a battery of time-consuming 
tests. Even those veterans living near a facility may find it difficult 
to balance their medical treatments with other demands on their time, 
but this difficulty is only heightened for the vets who live far from a 
facility that can meet their needs. For example, a veteran in Colorado 
County, Texas, will find the long drive to the VA hospitals in Houston 
or more remote Temple can mean an additional 4 or 5 hours for the 
round-trip.
    Often, the amount of time required for the treatment of a veteran's 
service connected disability exceeds the amount of vacation and sick 
leave allotted to the veteran. Some employers have viewed this as 
grounds to terminate veterans, leaving them faced with an impossible 
choice--whether to continue receiving the treatment that they need or 
to keep the job that supports them.
    When Congress passed the Uniformed Services Employment and 
Reemployment Rights Act 1994, its first purpose was ``to encourage 
noncareer service in the uniformed services by eliminating or 
minimizing the disadvantages to civilian careers and employment which 
can result from such service.'' The possibility that a wounded veteran 
may have to choose between his life and his livelihood constitutes a 
significant disadvantage that veterans were never meant to face. By 
according veterans the full protection under USERRA that they were 
meant to have, this legislation ensures that no veteran must confront 
such a choice again.

    Enclosures:

Letter of Support from Disabled American Veterans
Letter of Support from The American Legion
Letter of Support from Veterans of Foreign Wars

                               __________
                                         Disabled American Veterans
                                                    Washington, DC.
                                                   February 4, 2009
The Honorable Lloyd Doggett
United States House of Representatives
201 Cannon House Office Building
Washington, D.C. 20515

Dear Representative Doggett:

    On behalf of the more than one million members of the Disabled 
American Veterans (DAV), I would like to thank you for introducing H.R. 
466, the Wounded Veteran Job Security Act.
    As you know, the Uniformed Services Employment and Reemployment 
Rights Act (USERRA) provides protection from employment discrimination 
for persons to perform military duty. It also requires employers to 
make reasonable accommodations regarding any disability incurred while 
in military service. However, USERRA does not require employers to 
allow veterans with service-connected disabilities to be absent from 
the workplace to receive treatment for these disabilities.
    H.R. 466 clarifies and strengthens USERRA to require employers to 
accommodate the absences of service-connected disabled veterans for 
treatment of their service-connected conditions.
    During the DAV's most recent National Convention, held August 9-12, 
2008, in Las Vegas, Nevada, delegates approved Resolution No. 080, 
supporting the strengthening and clarification of USERRA. Therefore, 
the DAV strongly supports the passage of this legislation.
    Thank you once again for introducing this important bill and we 
look forward to working with you to build better lives for America's 
disabled veterans and their families.

            Sincerely,

                                                 JOSEPH A. VIOLANTE
                                      National Legislative Director

                               __________
                                                    American Legion
                                                    Washington, DC.
                                                  February 25, 2009

The Honorable Lloyd Doggett
U.S. House of Representatives
201 Cannon House Office Building
Washington, DC 20515

Dear Congressman Doggett:

    On behalf of the 2.6 million members of The American Legion, I 
would like to express full support of H.R. 466, a bill that will amend 
the Uniformed Services Employment and Reemployment Rights Act (USERRA). 
This legislation prohibits discrimination and acts of reprisal against 
persons who receive treatment for illnesses, injuries, and disabilities 
incurred in or aggravated while serving in the uniformed services.
    Servicemembers who honorably defend this country depend on laws 
like USERRA to protect their jobs while they are activated and deployed 
to a war zone. It was the intent of Congress in enacting USERRA that no 
veteran be denied employment, reemployment advancement or be subjected 
to discrimination in employment for serving their country as a member 
of the Armed Forces.
    Once again, The American Legion fully supports the intent of H.R. 
466 and we applaud your efforts to amend USERRA so as to allow veterans 
to maintain their employment while being treated for service-connected 
disabilities.

            Sincerely,

                                                   DAVID K. REHBEIN
                                                 National Commander

                               __________
                      Veterans of Foreign Wars of the United States
                                                    Washington, DC.
                                                   February 4, 2009

The Honorable Lloyd Doggett
United States House of Representatives
201 Cannon House Office Building
Washington, DC 20515

Dear Congressman Doggett,

    On behalf of the 2.4 million members of the Veterans of Foreign 
Wars and our Auxiliaries, I would like to offer our support for your 
bill to extend protection from discrimination and acts of reprisal 
against veterans to include not only those who suffer illnesses, 
injuries and disabilities incurred in or aggravated by service in the 
armed forces, but also to those receiving treatment for such service-
connected health conditions.
    This important legislation will protect veterans from unfair 
treatment and/or prejudice upon their return from defending our Nation 
by ensuring they do not face employment discrimination due to health 
conditions they may have or be receiving treatment for. Too often young 
men and women return home to find themselves without their previous 
employment or with other disadvantages incurred from service which 
prohibit them from advancing in their jobs. This bill will guarantee 
that veterans both obtain and retain the employment they need for a 
successful reintegration into civilian society.
    Congressman Doggett, this legislation is a great opportunity to 
honor and give back to those who have sacrificed so much for our 
Nation. Thank you for concentrating on changes that can make a 
difference in the lives of our veterans. The VFW commends you and we 
look forward to working with you and your staff to ensure the passage 
of this important legislation.
    Thank you for your continued support for America's veterans.

            Sincerely,

                                                    DENNIS CULLINAN
                              Director National Legislative Service

                                 <F-dash>
                  Prepared Statement of Justin Brown,
          Legislative Associate, National Legislative Service,
             Veterans of Foreign Wars of the United States

    Madam Chairwoman and Members of this Subcommittee:
    On behalf of the 2.2 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, I would like to thank 
this Committee for the opportunity to testify. The issues under 
consideration today are of great importance to our members and the 
entire veteran population.
    During this economic recession the number of unemployed veterans 
has increased to 841,474 as of January 2009. That is an increase of 
nearly 250,000 since November 2008 and an increase of more than 400,000 
since April of 2008. Of the unemployed veterans nearly 100,000 are 
veterans from Iraq and Afghanistan. For unemployed veterans this means 
that twice as many of their counterparts will be relying on the same 
limited resources. Clearly, veterans are not exempt from the current 
economic crisis.
    The VFW is thankful for the tax incentive provisions in the 
economic stimulus which will aid recently separated servicemembers in 
locating employment. This is smart policy and we hope that businesses 
find the value in an added incentive to hiring our Nation's newest 
combat veterans. While we laude this provision, we are worried that the 
infrastructural spending provisions of the stimulus will allow 
circumvention of the Jobs for Veterans Act of 2002 (JVA). What this 
means for veterans is that contractors that receive stimulus money via 
state grants in excess of $100,000 will not be held accountable to the 
requirements outlined in JVA. In particular, contractors receiving 
stimulus money may be bypassing reporting requirements for open 
employment positions, and the annual filing of the VETS-100 form which 
identifies affirmative action issues in regards to veteran hiring 
practices.
H.R. 147, To amend the Internal Revenue Code 1986 to allow taxpayers to 
        designate a portion of their income tax payment to provide 
        assistance to homeless veterans, and for other purposes.
    The VFW supports H.R. 147, which would provide taxpayers with the 
opportunity to designate three dollars of their income tax payment to a 
Homeless Veterans Assistance Fund. With nearly 140 million taxpayers in 
2007 this program has the potential to raise 420 million dollars for 
America's homeless veterans in its first year of implementation. This 
would be a substantial sum of assistance and would go a long way toward 
alleviating homeless veterans. On any given night, more than 150,000 
veterans are homeless, and this fund will help support the programs 
that assist them.
H.R. 228, To direct the Secretary of Veterans Affairs to establish a 
        scholarship program for students seeking a degree or 
        certificate in the areas of visual impairment and orientation 
        and mobility.
    The VFW supports H.R. 228, which would direct the Secretary of 
Veterans Affairs to establish and carry out a scholarship program aimed 
at remedying the difficulty in recruiting new graduates of university 
programs specializing in blind rehabilitation. VA estimates that there 
are currently 169,000 legally blinded veterans throughout the country, 
of which 47,450 are enrolled in Veterans Health Administration (VHA) 
services; this number is projected to reach 55,000 within 10 years. A 
new generation of OIF/OEF blinded and impaired low vision veterans will 
require a concerted effort by VA to respond to their needs. By offering 
students scholarships in exchange for a commitment to work for VA as 
Blind Specialists immediately following graduation, this legislation 
will provide a means to address a significant gap in VA health care for 
visually impaired veterans by aiming at reducing VA's critical shortage 
in blind rehabilitation practitioners.
H.R. 297, To amend title 38, United States Code, to provide for an 
        increase in the amount of subsistence allowance payable by the 
        Secretary of Veterans Affairs to veterans participating in 
        vocational rehabilitation programs, and for other purposes.
    The VFW supports a Vocational Rehabilitation and Training (VR&E) 
for the life of the veteran. The sole purpose of VRE, as authorized 
under Chapter 31 of 38 USC, is to employ qualified, disabled veterans. 
VRE helps to equip veterans with marketable skills to transition 
quickly back into the workforce. While VRE focuses on employment, it is 
not designed to forecast the changes in the job market or the changing 
nature of a veteran's service-connected injuries. Both the recent 
market instabilities and the dynamic nature of OIF/OEF injuries require 
lifelong access to training and continuous education to fulfill the 
lasting commitment to those veterans who gave a piece of themselves in 
defense of our Nation.
    VR&E is in need of modernization.

    <bullet>  Increase the monthly stipend of VRE to reflect the Basic 
Allowance for Housing (BAH) payments under Chapter 33.
    <bullet>  Cover all books, fees, and adaptive equipment deemed 
necessary to ensure a maximum independence in daily living to the 
maximum extent feasible.
    <bullet>  Eliminate any impediments to reentry into VRE regardless 
of the veteran's age or date of claim of service-connection.
    <bullet>  Allow all service-connected disabled veterans access to 
career counseling.
    <bullet>  Focus the goal of the program on career skills and 
career-long employability.

    This bill seeks to increase the amounts of full, three-quarter, and 
half-time subsistence allowance for veterans receiving VR&E subsistence 
payments. Further, it affords a veteran access to 3 months of 
subsistence allowance after the Secretary determines the veteran has 
reached a point of employability. H.R. 297 improves upon the access to 
funding for veterans using VR&E. This bill is a positive step toward 
improving upon the VR&E program. We support this bill, but urge this 
Committee to review the values of the VR&E program.
    The underlying problem with VR&E is the focus of the program; it 
seeks to put vets in jobs, not careers. Increasing the compensation 
structure is needed for VR&E, but even more dire is the need to improve 
upon the values of the program. While we may put more money into VR&E, 
we may not achieve the ultimate goal, creating veterans that are 
independent, productive citizens. While we are supportive of the intent 
of this legislation, it does not address the core issues facing VR&E.
H.R. 466, To amend title 38, United States Code, to prohibit 
        discrimination and acts of reprisal against persons who receive 
        treatment for illnesses, injuries, and disabilities incurred in 
        or aggravated by service in the uniformed services.
    The VFW is in support of H.R. 466, the Wounded Veteran Job Security 
Act. This legislation would extend the prohibition against 
discrimination and acts of reprisal against armed servicemembers to 
include persons who receive treatment for illnesses, injuries, and 
disabilities incurred in or aggravated by their service. Passage of 
this legislation would prohibit employers from discriminating or making 
any adverse employment decision against a veteran on the basis of 
treatment for an illness, injury, or disability incurred or aggravated 
by uniformed service.
H.R. 929, To amend title 38, United States Code, to require the 
        Secretary of Veterans Affairs to carry out a program of 
        training to provide eligible veterans with skills relevant to 
        the job market, and for other purposes.
    The VFW does not support H.R. 929. This bill is reminiscent of a 
similar program known as the Service Members Occupational Conversion 
and Training Act of 1992 (SMOCTA). It was created as a mechanism to 
help veterans transition to the workforce as DoD was drawing down the 
military's size following the Cold war era. SMOCTA provided employers 
money for training if they guaranteed a veteran with employment. 
However, it is the opinion of the VFW that this training money was a 
subsidy to reduce labor costs which was attractive to potential 
employers. SMOCTA transformed into a short term employment solution 
that subsidized veterans' jobs and failed to provide long-term 
employment, training, and specialization. In essence, the government 
directly purchased veteran employment. When the appropriation was cut, 
many of its participants found themselves searching for new jobs while 
lacking transferable certifications or training.
    This legislation proposes to provide a veteran with 1 year of 
subsidized training/employment up to a $20,000 credit paid to the 
employer. With an appropriation of 60 million dollars a year this 
program could affect as few as 3000 veterans (.00356 percent of the 
total number of currently unemployed veterans), excluding any 
administrational costs. The VFW believes that this money might be 
better spent offering these veterans a direct educational and/or 
training credit of $20,000 to use toward positions DOL identifies as 
high demand industries. This would enlarge veterans' options in regards 
to training and would prevent employers from taking advantage of ``free 
money'' and veterans with little regard to their successful long-term 
employability.
H.R. 942, To direct the Secretary of Veterans Affairs to conduct a 
        pilot project on the use of educational assistance under 
        programs of the Department of Veterans Affairs to defray 
        training costs associated with the purchase of certain 
        franchise enterprises.
    The VFW does not support H.R. 942, which seeks to expand the uses 
of Chapter 30 of title 38, Chapter 32 of title 38, Chapter 35 of title 
38, Chapter 1606 of title 10, and Chapter 1607 of title 10, to training 
costs associated with the purchase of certain franchise enterprises. 
The aforementioned chapters were created for the purpose of providing 
veterans with the ability to transition from the military into a degree 
or certificate bearing program that would provide lifelong skills. If a 
veteran were to use this program and fail in establishing or 
maintaining a franchise, their primary education benefit would be 
liquidated. It is the belief of the VFW that these educational benefits 
are the best transitional benefits available and we do not want to see 
them diverted from their initial intent which may encourage programs 
that lack a high probability of long-term success.
H.R. 950, To amend chapter 33 of title 38, United States Code, to 
        increase educational assistance for certain veterans pursuing a 
        program of education offered through distance learning.
    We would like to thank this Committee and staff for all of your 
work on the New GI Bill. We believe this new benefit will help reinvest 
in our troops and our veterans. The powerful recruiting and retention 
aspects will continue to ensure the high standards we have come to 
expect from our military.
    With the passage of the New GI Bill, creating Chapter 33 of Title 
38, we have transformed the way we look at the GI Bill. Chapter 33 is 
the promise of a full-ride (paying books, tuition, fees, and a housing 
stipend) at any in-state institution in the Nation. Chapter 33 
resembles the original WWII GI Bill, which is a dramatic departure from 
the Montgomery GI Bill, Chapter 30. In taking this huge step toward a 
WWII style benefit, we must continue to examine all of the education 
benefits that were previously tied to Chapter 30 rates.
    The VFW believes that Congress should standardize, simplify, and 
restructure all education programs with, an eye toward equitable 
benefits for equitable service, in accordance with Chapter 33. 
Remaining Chapter 30 programs (lump sum payments, vocational training, 
distance learning) should be moved into Chapter 33. Title 10 section 
1606, the guard and reserve Select Reserve GI Bill needs to reflect the 
Chapter 33 scale. Chapter 35, survivors and dependents educational 
benefits should also be comparable to Chapter 33. Ultimately, phasing 
out Chapter 30 and simplifying benefits based on Chapter 33.
    H.R. 950 would provide student veterans, who are pursuing purely 
distance/correspondence, a living stipend equivalent to student 
veterans attending in-class room programs. The VFW does not oppose 
providing equitable stipends for students enrolled in distance 
learning.
    However, this bill would create further inequities among veterans 
pursuing an education at institutions of distance learning. Currently, 
cost-of-living stipends are paid to the student according to the real 
cost of living attached to the zip code of the institution the veterans 
attends. Under this bill, the cost-of-living stipend would still be 
fixed to the institution, regardless of the actual costs a veteran 
faces while attending classes online. This would over compensate 
veterans living in areas more affordable than the zip code of their 
school while under compensating veterans that live in more expensive 
areas relative to their school. For this reason, the VFW cannot support 
H.R. 950.
H.R. 1088, To amend title 38, United States Code, to provide for a one-
        year period for the training of new disabled veterans' outreach 
        program specialists and local veterans' employment 
        representatives by National Veterans' Employment and Training 
        Services Institute.
    The VFW strongly supports H.R. 1088 which would require all 
disabled veterans' outreach program specialists (DVOP) and local 
veterans' employment representatives (LVER) to attend the National 
Veterans' Employment and Training Services Institute within 1 year of 
being employed. The findings of the VFW have been that many DVOP/LVER 
positions have been subject to turnover rates in excess of 15 percent 
and extreme variables in salary. Therefore, a large number of DVOPs/
LVERs are failing to attend critical skills training at an early stage 
of their employment. In fact, half of the DVOPs/LVERs waiting for 
training were employed in 2006 or earlier yet 95 percent of them sent 
to training were hired after 2006. What this means is that the states 
are tending to send newer employees even though older employees have 
still failed to participate in the training. Furthermore, the National 
Veterans' Employment and Training Services Institute would need 
temporarily increased resources in order to catch up with the number of 
untrained DVOPs/LVERs.
    While the VFW sees the value in providing training to DVOPs/ LVERs 
we maintain that DOL needs to conduct the overdue impact evaluation 
required by law to assess the effectiveness of one-stop services.
H.R. 1089, To amend title 38, United States Code, to provide for the 
        enforcement through the Office of Special Counsel of the 
        employment and unemployment rights of veterans and members of 
        the Armed Forces employed by Federal executive agencies, and 
        for other purposes.
    The VFW has no formal position on this legislation at this time.
H.R. 1171, To amend title 38, United States Code, to reauthorize the 
        Homeless Veterans Reintegration Program for fiscal years 2010 
        through 2014.
    The VFW supports this legislation which reauthorizes The Homeless 
Veterans Reintegration Program (HVRP), within the Department of Labor's 
Veterans Employment and Training Service (VETS), provides competitive 
grants to community-based, faith-based, and public organizations to 
offer outreach, job placement, and supportive services to homeless 
veterans. HVRP grants are intended to address two objectives: 1) to 
provide services to assist in reintegrating homeless veterans into 
meaningful employment, and 2) to stimulate the development of effective 
service delivery systems that will address the complex problems facing 
homeless veterans.
    HVRP is the primary employment services program accessible by 
homeless veterans and the only targeted employment program for any 
homeless subpopulation. HVRP removes homeless veterans' barriers to 
employment by providing specialized support unavailable through other 
employment programs. Job placement, training, job development, career 
counseling, and resume preparation are among services that are 
provided. Additionally, support services such as clothing, provision of 
or referral to temporary, transitional, and permanent housing, referral 
to medical and substance abuse treatment, and transportation assistance 
are also provided to meet the needs of this target group.
    As America's largest group representing combat veterans, we thank 
you for allowing the Veterans of Foreign Wars to present its views on 
these bills. The number of unemployed veterans has nearly doubled. Our 
veterans' employment programs and resources will be pushed to their 
limits, and now, more than ever, we need them to perform.
    Madam Chairwoman, this concludes my testimony and I will be pleased 
to respond to any questions you or the Members of this Subcommittee may 
have. Thank you.

                                 <F-dash>
         Prepared Statement of Cheryl Beversdorf, RN, MHS, MA,
                 President and Chief Executive Officer,
                National Coalition for Homeless Veterans
                           EXECUTIVE SUMMARY
                      Homelessness Among Veterans
    Veterans are at a greater risk of becoming homeless due to a number 
of factors including having uniquely military skills not needed in the 
civilian sector, combat-related health issues, minimal income due to 
unemployment, and a shortage of safe, affordable housing.
    Most Americans believe our Nation's veterans are well-supported. In 
fact, many go without the services they require and are eligible to 
receive. Neither the VA nor its state and county equivalents are 
adequately funded to respond to these veterans' needs. Moreover, 
community-based and faith-based homeless veteran service providers lack 
sufficient resources to care for this population.
    According to the Department of Veterans Affairs there are an 
estimated 154,000 veterans who were homeless on any given night, a 40-
percent reduction since 2001. If this trend toward reducing the number 
of homeless veterans is to continue, more funding is needed for 
supportive services, employment and housing options to ensure veterans 
who served prior to and during the Iraq and Afghanistan wars can live 
independently with dignity.
                                H.R. 147
    NCHV believes veterans are citizens first. The people of this 
country have a responsibility to show respect and gratitude to the men 
and women who have served in the military. Enactment of H.R. 147 would 
give Americans an opportunity to thank these former warriors for their 
service by making a contribution to a fund that would help those men 
and women who need assistance as they return to civilian life. NCHV 
conditionally supports H.R. 147 but believes further discussion is 
needed regarding the administration and operation of the Homeless 
Veteran Assistance Fund.
                               H.R. 1171
    The Homeless Veterans Reintegration Program (HVRP) is the only 
Federal program wholly dedicated to providing employment assistance to 
homeless veterans. The program is unique and highly successful because 
it does not fund employment services per se; rather it rewards 
organizations that guarantee job placement. In 2008, DOL reported 65 
percent of homeless veterans served through HVRP entered employment and 
72 percent of those who entered employment retained employment at the 
90-day mark.
    HVRP is the primary employment services program accessible by 
homeless veterans and the only targeted employment program for any 
homeless subpopulation. In anticipation of the new wave of men and 
women veterans returning from Iraq and Afghanistan who may become 
homeless and will need effective employment programs to ensure their 
economic stability, reauthorization of the HVRP program, as stated in 
H.R. 1171 is imperative.

                               __________
    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Subcommittee:
    As the representative of the National Coalition for Homeless 
Veterans (NCHV), I am pleased to be invited to provide our views on 
several bills that have been referred to your Subcommittee for 
consideration. Of the ten bills you cited, I will restrict my comments 
to H.R. 147, which would amend the Internal Revenue Code of 1986 to 
allow taxpayers to designate a portion of their income tax payment to 
provide assistance to homeless veterans, and H.R. 1171, which would 
amend title 38, United States Code, to reauthorize the Homeless 
Veterans Reintegration Program for fiscal years 2010 through 2014.
Homelessness Among Veterans
    Veterans are at a greater risk of becoming homeless due to a number 
of factors including having uniquely military skills not needed in the 
civilian sector, combat-related health issues, minimal income due to 
unemployment, and a shortage of safe, affordable housing.
    Most currently homeless veterans served during prior conflicts or 
in peacetime. However, according to a 2008 RAND Corporation study 
nearly 20 percent of military servicemembers who have returned from 
Iraq and Afghanistan--300,000 in all--report symptoms of post-traumatic 
stress disorder or major depression, yet only slightly more than half 
have sought treatment. This new generation of combat veterans of 
Operation Iraqi Freedom and Enduring Freedom (OIF-OEF), both men and 
women, also suffer from other war related conditions including 
traumatic brain injuries, which put them at risk for homelessness. The 
evolving gender mix of the military--women represent 15 percent of the 
military population--poses new challenges for the Nation's support 
system for returning veterans and their families. Women veterans report 
serious trauma histories and episodes of physical harassment and/or 
sexual assault while in the military. The VA and homeless veteran 
service providers are also seeing increased numbers of female and male 
veterans with children seeking their assistance.
    Most Americans believe our Nation's veterans are well-supported. In 
fact, many go without the services they require and are eligible to 
receive. According to a Congressional staff analysis of 2000 U.S. 
Census data conducted in 2005, one and a half million veterans--nearly 
6.3 percent of the Nation's veteran population--have incomes that fall 
below the Federal poverty level, including 634,000 with incomes below 
50 percent of poverty. Neither the VA nor its state and county 
equivalents are adequately funded to respond to these veterans' health, 
housing and supportive services needs. Moreover, community-based and 
faith-based service providers also lack sufficient resources to care 
for this population.
    According to the VA 2007 Community Homelessness Assessment, Local 
Education and Networking Groups (CHALENG) report, there are an 
estimated 154,000 veterans who were homeless on any given night. This 
estimate of homeless veterans is down 21 percent from the 2006 estimate 
and represents a 40 percent reduction since 2001. The VA stated the 
decrease was due in part to the partnership between the VA and 
community-based homeless veteran service providers and provides 
evidence that the VA's programs to help homeless veterans are 
effective.
    If the trend toward reducing the number of homeless veterans is to 
continue, more funding is needed for supportive services, employment 
and housing options to ensure veterans who served prior to the Iraq and 
Afghanistan wars can live independently and with dignity. Additionally, 
increased funding for VA homeless veteran assistance programs will help 
prevent homelessness among the newest generation of combat veterans 
from OIF/OEF. With the help of Congress, the VA and other Federal, 
state and local agencies, community-based organizations will be able to 
develop a coordinated approach to reduce, eliminate and ultimately 
prevent homelessness among all of America's veterans.
H.R. 147
    If enacted, H.R. 147 would amend the Internal Revenue Code to 
establish in the Treasury the Homeless Veterans Assistance Fund and 
would allow individual taxpayers to designate on their tax returns 
$3.00 of income taxes ($6.00 in the case of joint returns) to be paid 
to such Fund to provide assistance to homeless veterans. The Fund would 
be administered by Treasury officials. The bill stipulates funds can 
only be used for the purpose of providing assistance to homeless 
veterans.
    H.R. 147 does not provide details regarding Fund management and 
administration nor does it provide guidelines for dissemination of Fund 
amounts, including grant recipient eligibility, programmatic 
expectations, utilization requirements, size of funding requests, 
relationship of Fund assistance to other government and non-government 
funding resources, program accountability, expected outcomes, 
performance measures of success, and evaluation methodologies.
    NCHV represents community-based organizations in 46 states and the 
District of Columbia that provide the full continuum of care to 
homeless veterans and their families, including emergency shelter, food 
and clothing, primary health care, addiction and mental health 
services, employment supports, educational assistance, legal aid and 
transitional housing. Many of these organizations currently receive 
funding from grants administered by the Department of Veteran Affairs 
and the Department of Labor in addition to other state and local 
government sources, for-profit and not-for-profit organizations. 
However, to address the needs of the homeless and at-risk OEF-OIF 
veteran population, additional funding is needed to provide supportive 
services and housing to ensure they will return to productive, self-
sufficient lives.
    NCHV believes veterans are citizens first. The people of this 
country have a responsibility to show respect and gratitude to the men 
and women who have served in the military. Enactment of H.R. 147 would 
give Americans an opportunity to thank these former warriors for their 
service by making a contribution to a fund that would help those men 
and women who need assistance as they return to civilian life. NCHV 
conditionally supports H.R. 147 but believes further discussion is 
needed regarding the administration and operation of the Homeless 
Veteran Assistance Fund.
H.R. 1171
    If enacted, H.R. 1171 will amend title 38, United States Code, to 
reauthorize the Homeless Veterans Reintegration Program (HVRP) for 
fiscal years 2010 through 2014. HVRP is the only Federal program wholly 
dedicated to providing employment assistance to homeless veterans. HVRP 
is funded by the Department of Labor (DOL) Veterans' Employment and 
Training Service (VETS) and requires the Secretary of Labor to conduct, 
directly or through grant or contract, such programs as the Secretary 
determines appropriate to expedite the reintegration of homeless 
veterans into the labor force.
    HVRP programs fill a special need because they serve veterans who 
may be shunned by other programs and services because of problems such 
as severe post-traumatic stress disorder (PTSD), long histories of 
substance abuse, serious psychosocial problems, legal issues, and those 
who are HIV-positive. These veterans require more time-consuming, 
specialized, intensive assessment, referrals and counseling than is 
possible in other programs that work with veterans seeking employment.
    HVRP is unique and so highly successful because it doesn't fund 
employment services per se; rather it rewards organizations that 
guarantee job placement. HVRP grantees produce highly positive outcomes 
for homeless veterans. The success of the program has been documented 
by DOL--65 percent of homeless veterans served through HVRP enter 
employment and 72 percent of those who enter employment retain 
employment at the 90-day mark.
    DOL estimated for FY 2009, $25,600,000 in HVRP funding would 
provide employment and training assistance to approximately 15,330 
homeless veterans and of those approximately 10,665 will be placed into 
employment (average cost per participant = $1,670 and average cost per 
placement = $2,407). These costs represent a tiny investment for moving 
a veteran out of homelessness, and off of dependency on public 
programs.
    HVRP is the primary employment services program accessible by 
homeless veterans and the only targeted employment program for any 
homeless subpopulation. In anticipation of the new wave of men and 
women veterans returning from Iraq and Afghanistan who may become 
homeless and will need effective employment programs to ensure their 
economic stability, reauthorization of the HVRP program, as stated in 
H.R. 1171 is imperative.
Conclusion
    NCHV appreciates the opportunity to submit its views to the House 
Veterans Affairs Subcommittee on Economic Opportunity regarding H.R. 
147 and H.R. 1171. We look forward to continuing to work with the 
Subcommittee to ensure our Federal Government does what is necessary to 
prevent and end homelessness among our Nation's veterans.

                                 <F-dash>
                 Prepared Statement of John L. Wilson,
                Associate National Legislative Director,
                       Disabled American Veterans

    Madame Chairwoman and Members of the Subcommittee:
    On behalf of the 1.2 million members of the Disabled American 
Veterans (DAV), I am honored to present this testimony to address 
various bills before the Subcommittee today. In accordance with our 
congressional charter, the DAV's mission is to ``advance the interests, 
and work for the betterment, of all wounded, injured, and disabled 
American veterans.'' We are therefore pleased to support various 
measures insofar as they fall within that scope.
                                H.R. 147
    Congressman Israel introduced H.R. 147 in January 2009. This bill 
would amend the Internal Revenue Code to establish in the Treasury the 
Homeless Veterans Assistance Fund and to allow individual taxpayers to 
designate on their tax returns $3.00 of income taxes ($6.00 in the case 
of joint returns) to be paid over to such Fund to provide assistance to 
homeless veterans. The DAV has a standing resolution recommending 
adequate funding and permanency for veterans' employment and/or 
training for homeless veterans programs. Given that this legislation 
establishes a homeless veterans' trust and to the extent that this fund 
would not diminish the government's responsibility to provide for our 
Nation's homeless veterans, the DAV would not be opposed to the 
favorable consideration of this legislation.
                                H.R. 228
    Congresswoman Jackson-Lee introduced H.R. 228 in January 2009, 
which directs the Secretary of Veterans Affairs to establish and carry 
out a scholarship program of financial assistance for individuals who: 
(1) are accepted for, or currently enrolled in, a program of study 
leading to a degree or certificate in visual impairment or orientation 
and mobility, or both; and (2) enter into an agreement to serve, after 
program completion, as a full-time Department of Veterans Affairs (VA) 
employee for 3 years within the first 6 years after program completion. 
It sets maximum assistance amounts of $15,000 per academic year and 
$45,000 total. The legislation requires pro rated repayment for failure 
to satisfy education or service requirements, while allowing the 
Secretary to waive or suspend such repayment whenever noncompliance is 
due to circumstances beyond the control of the participant, or when 
waiver or suspension is in the best interests of the United States. The 
DAV has no resolution on this issue. The DAV is not opposed to this 
legislation, provided the scholarship programs emphasis is focused 
first on providing such educational opportunities to service-connected 
veterans with visual impairment, orientation and/or mobility disabling 
conditions.
                                H.R. 297
    Congressman Buyer introduced the Veteran Vocational Rehabilitation 
and Employment Subsistence Allowance Improvement Act of 2009 in January 
2009 which increases the amount of monthly subsistence allowance 
payable to veterans participating in the veterans' vocational 
rehabilitation program (a program of training and rehabilitation for 
veterans with service-connected disabilities). It further directs the 
Secretary of Veterans Affairs, in the case of a veteran who has reached 
a point of employability and is participating only in a program of 
employment services, to pay such veteran a subsistence allowance for 3 
months while the veteran is satisfactorily pursuing such program.
    The DAV has no resolution on this issue. The DAV does support the 
legislation as it raises subsistence allowances. However, we recommend 
it be amended to authorize Vocational Rehabilitation (Chapter 31) 
participants to receive the higher subsistence allowance offered under 
the Post-9/11 GI Bill (Chapter 33). This would prevent veterans from 
having to choose between a program that provides a greater financial 
benefit and one that focuses on their rehabilitation as they seek to 
support themselves and their families.
                                H.R. 466
    Congressman Doggett introduced the Wounded Veteran Job Security Act 
in January 2009, which seeks to amend title 38, United States Code, to 
prohibit discrimination and acts of reprisal against persons who 
receive treatment for illnesses, injuries, and disabilities incurred in 
or aggravated by service in the uniformed services. Although the DAV 
has no resolution on this issue, we are not opposed to the favorable 
consideration of this legislation as it would protect veterans from 
discrimination and reprisal as they seek care for their disabilities.
                                H.R. 929
    Congressman Welch introduced legislation in February 2009 to amend 
title 38, United States Code, to direct the Secretary of Veterans 
Affairs to carry out a program of job training in skills relevant to 
the job market for discharged veterans who are either currently not 
paid at more than 150 percent of the Federal minimum wage, or: (1) had 
a military occupational specialty of limited transferability to the 
civilian job market; (2) are not otherwise eligible for veterans' 
education or training services; (3) have not acquired a marketable 
skill since leaving military service; (4) were discharged under 
conditions not less than honorable; and (5) have been unemployed for at 
least 90 of the previous 180 days. It designates the program as the 
MOST (military occupational specialty transition) Program and directs 
the Secretary to contract with employers to provide on-the-job training 
or apprenticeship programs for such veterans. It limits payments under 
the program to $20,000 per veteran and 24 months in duration. The DAV 
has no resolution on this issue. Additionally, this legislation is 
outside the scope of the DAV's mission. We nonetheless have no 
opposition to its favorable consideration.
                                H.R. 942
    Congressman Alexander introduced the Veterans Self-Employment Act 
of 2009 in February 2009, which directs the Secretary of Veterans 
Affairs to conduct a 5-year pilot project to test the feasibility and 
advisability of the use of educational assistance under certain VA 
programs to pay for training costs associated with the purchase of a 
franchise enterprise. It prohibits the use of such assistance unless: 
(1) training is required and provided in connection with the purchase 
and operation of a franchise; and (2) such training, and the training 
entity, is approved by the Secretary. It also provides training and 
entity approval requirements. The DAV has no resolution on this issue. 
Additionally, this legislation is outside the scope of the DAV's 
mission. We nonetheless have no opposition to its favorable 
consideration.
                                H.R. 950
    Congressman Filner introduced legislation in February 2009 to amend 
chapter 33 of title 38, United States Code, to increase educational 
assistance for certain veterans pursuing a program of education offered 
through distance learning. The DAV has no resolution on this issue. We 
nonetheless have no opposition to its favorable consideration.
                               H.R. 1088
    Congresswoman Herseth Sandlin introduced legislation in February 
2009 to amend title 38, United States Code, to provide for a 1-year 
period for the training of new disabled veterans' outreach program 
specialists and local veterans' employment representatives by National 
Veterans' Employment and Training Services Institute. The DAV has no 
resolution on this issue. We nonetheless have no opposition to its 
favorable consideration.
                               H.R. 1089
    Congresswoman Herseth Sandlin introduced legislation in February 
2009 to amend title 38, United States Code, to provide for the 
enforcement through the Office of Special Counsel of the employment and 
unemployment rights of veterans and members of the Armed Forces 
employed by Federal executive agencies, and for other purposes. The DAV 
strongly supports Federal, State and local veterans' preference laws 
and related efforts to protect employment and reemployment of veterans. 
The DAV would not be opposed to the favorable consideration of this 
legislation.
                               H.R. 1171
    Congressman Boozman introduced in February 2009 the Homeless 
Veterans Reintegration Program Reauthorization Act of 2009, which 
amends title 38, United States Code, to reauthorize the Homeless 
Veterans Reintegration Program for fiscal years 2010 through 2014. The 
DAV has a standing resolution recommending adequate funding and 
permanency for veterans' employment and/or training for homeless 
veterans programs. The DAV supports this legislation.
    Madame Chairwoman, this concludes my testimony on behalf of DAV. We 
hope you will consider our recommendations. I would be happy to answer 
any questions Members of the Subcommittee might have.

                                 <F-dash>
                   Prepared Statement of Mark Walker,
           Assistant Director, National Economic Commission,
                            American Legion

    Madame Chairwoman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
view on the several pieces of legislation being considered by the 
Subcommittee today. The American Legion commends the Subcommittee for 
holding a hearing to discuss these important and timely issues.
    H.R. 147, seeks to amend the Internal Revenue Code 1986 to allow 
taxpayers to designate a portion of their income tax payment to provide 
assistance to homeless veterans. The American Legion supports this 
provision. This fund will provide medical, rehabilitative, and 
employment assistance to homeless veterans and their families. Homeless 
veteran programs should provide supportive services such as, but not 
limited to, outreach, health care, case management, daily living, 
personal financial planning, transportation, vocational counseling, 
employment and training, and education. This designation of funds would 
provide these needed services for America's most vulnerable veterans.
    H.R. 228, directs the Secretary of Veterans Affairs (VA) to 
establish a scholarship program for students seeking a degree or 
certificate in the areas of visual impairment and orientation and 
mobility. The American Legion supports this pilot program. There is a 
strong need for more medical providers in these medical fields and this 
program would provide the necessary funding for veterans who are 
interested in these career opportunities.
    H.R. 297, Veteran Vocational Rehabilitation and Employment 
Subsistence Allowance Improvement Act of 2009, amends title 38, United 
States Code (USC), to provide an increase in the amount of subsistence 
allowance payable by VA to veterans participating in vocational 
rehabilitation programs. The American Legion supports this provision. 
This subsistence increase would allow the veteran to meet his or her 
needs and maintain their educational pursuits within the Vocational 
Rehabilitation and Employment program.
    H.R. 466, Wounded Veteran Job Security Act, amends title 38, USC, 
to prohibit discrimination and acts of reprisal against persons who 
receive treatment for illnesses, injuries, and disabilities incurred in 
or aggravated by military service. The American Legion supports this 
amendment to the Uniformed Services Employment and Reemployment Rights 
Act (USERRA) to allow veterans to maintain their employment while being 
treated for service-connected disabilities. Servicemembers who 
honorably defend this country depend on laws like USERRA. It was the 
intent of Congress in enacting USERRA that no veteran be denied 
employment, reemployment, advancement, or be subjected to 
discrimination in employment for serving their country as a member of 
the Armed Forces.
    H.R. 929, amends title 38, USC, to require VA to provide eligible 
veterans with skills relevant to the job market. The American Legion 
supports this legislation. This program would provide job training in a 
relevant career field for veterans who have been unemployed for at 
least 90 of the previous 180 days, are not eligible for education or 
training services, or have a primary or secondary military occupational 
specialty that is not readily transferable to the civilian workforce. 
This program would be the only Federal job training program available 
strictly for veterans and the only Federal job training program 
specifically designed and available for use by state veterans' 
employment personnel to assist veterans with employment barriers.
    H.R. 942, Veteran Self-Employment Act of 2009, directs VA to 
conduct a pilot project on the use of educational assistance under 
programs of the VA to defray training costs associated with the 
purchase of certain franchise enterprises. The American Legion supports 
this provision. The American Legion views small business as the 
backbone of the American economy. It is the mobilizing force behind 
America's past economic growth and will continue to be the major 
economic factor as we move into the 21st Century. This program will 
provide veterans with the training that is required to run a franchise 
successfully.
    H.R. 950, amends chapter 33 of title 38, USC, to increase 
educational assistance for certain veterans pursuing a program of 
education offered through distance learning. The American Legion 
believes that paying veterans a lesser benefit when they receive credit 
via distance learning is a concern. Department of Defense reports that 
over 70 percent of its enrollees are receiving credit via distance 
learning and the VA is reporting a similar shift toward increasing 
utilization of the distance learning modality. Accordingly, The 
American Legion is recommending that the allowances for distance 
learning be similar to those for residential learning. This policy 
assures equity for veterans including such individuals as single 
parents and veterans with significant medical disabilities.
    H.R. 1088, Mandatory Veteran Specialist Training Act of 2009, 
amends title 38, USC, to provide a 1-year period for training new 
disabled veterans' outreach program specialists and local veterans' 
employment representatives by National Veterans' Employment and 
Training Services Institute (NVTI). The NVTI was established to ensure 
a high level of proficiency and training for staff that provide 
veterans employment services. NVTI provides training to Federal and 
state government employment service providers in competency based 
training courses. Current law requires all DVOPs and LVERs to be 
trained within 3 years of hiring. The American Legion recommends that 
these personnel be trained within 1 year.
    H.R. 1089, Veterans Employment Rights Realignment Act of 2009, 
amends title 38, USC, to provide for the enforcement through the Office 
of Special Counsel of the employment and unemployment rights of 
veterans and members of the Armed Forces employed by Federal executive 
agencies. The American Legion has no position on this legislation.
    H.R. 1171, Homeless Veterans Reintegration Program Reauthorization 
Act of 2009, amends title 38, USC, to reauthorize the Homeless Veterans 
Reintegration Program (HVRP) for fiscal years 2010 to 2014. The 
American Legion notes there are approximately 154,000 homeless veterans 
on the street each night. This number, compounded with 300,000 
servicemembers entering the private sector each year since 2001 with at 
least a third of them potentially suffering from mental illness, 
indicates intensive and numerous programs to prevent and assist 
homeless veterans are needed. The purpose of HVRP is to provide 
services to assist in reintegrating homeless veterans into meaningful 
employment within the labor force and to stimulate the development of 
effective service delivery systems that will address the complex 
problems facing homeless veterans. HVRP is the only nationwide program 
that focuses on assisting homeless veterans to reintegrate into the 
workforce. The American Legion strongly supports the reauthorization of 
HVRP for fiscal years 2010 to 2014.

                                 <F-dash>
             Prepared Statement of Thomas Zampieri, Ph.D.,
     Director of Government Relations, Blinded Veterans Association
INTRODUCTION
    Madame Chairwoman and Members of the House Veterans Affairs 
Subcommittee on Economic Opportunity, on behalf of the Blinded Veterans 
Association (BVA), thank you for this opportunity to submit for the 
record our strong legislative support for the ``To direct the Secretary 
of Veterans Affairs to establish a scholarship program for students 
seeking a degree or certificate in the areas of visual impairment and 
orientation and mobility'' (H.R. 228). BVA is the only congressionally 
chartered Veterans Service Organization exclusively dedicated to 
serving the needs of our Nation's blinded veterans and their families. 
BVA has worked with VA Blind Service in improving the VA ability to 
provide the necessary blind outpatient mobility and orientation 
training for blinded veterans for years. With the growing numbers of 
wounded in both Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF) who are entering the VA health care and benefits system 
today, with history of penetrating eye trauma and over 70 percent of 
Traumatic Brain Injury (TBI), having Post-Trauma Vision Syndrome 
(PTVS), more of these highly skilled professionals are necessary and 
critical for VA. While the number of legally blind OIF and OEF veterans 
enrolled in VA Blind Rehabilitative Service is approximately 132, the 
VA has identified 585 with functional visual impairments that benefit 
from the rehabilitative skills of these Blind Rehabilitative Outpatient 
Specialists (BROS) and Blind Instructors.
    As of September 2008, VHA reported 8,747 diagnosed TBI with another 
approximately 7,500 in diagnostic testing for possible TBI. Improvised 
Explosive Device (IED) blasts contributed to over 64 percent of these 
injuries. As of January 30, 2009, a total of 43,993 servicemembers had 
been wounded or injured in Iraq. The number though of hostile wounded 
requiring air medical evacuation from Iraq between March 19, 2003 and 
January 30, 2009 was 9,375, of which an estimated 1,348 had sustained 
combat penetrating eye trauma. The number of direct battle eye injuries 
however does not include estimated numbers of all moderate to severe 
TBI servicemembers that may have visual dysfunction according to VA 
research from those tested by either neuro-ophthalmologists or low-
vision optometrists. We stress that only 4 percent of them meet legal 
blindness definition.
    Veterans with neurological vision dysfunction with their moderate 
or severe TBI will require long term VA eye care follow-up in low 
vision clinics. Epidemiological TBI studies find that about 70 percent 
have associated neurological visual disorders of diplopia, convergence 
disorder, photophobia, ocular-motor dysfunction, color blindness, and 
an inability to interpret print. Some TBIs result in visual field loss 
and 4 percent are found to have legal blindness. Like other generations 
of visually disabled veterans who have desired to continue living 
independently, the current generation of OIF and OEF veterans deserves 
the same opportunity and the ability of the VA to recruit these BROS is 
vital to this effort. These VA BROS work in multidisciplinary teams 
with VA medical, surgery, psychology, occupational therapists, 
pharmacists among others that bring together coordinated specialized 
services needed for the complex wounded and these are not found in 
civilian low vision or blind independent agencies. These OIF and OEF 
wounded are often complex polytrauma patients with 44 percent suffering 
from depression or PTSD in conjunction with other injuries, requiring 
medication therapy, and BVA would caution this Committee that the best 
approach is for those blinded servicemembers to be treated within VA 
Blind Centers and not contracted out where other specialists are not 
co-located.
    BVA would like to stress again to this Committee that data compiled 
between March 2003 and April 2005 found that 13 percent of all 
casualities evacuated from Iraq were due directly to eye injuries. VA 
reports that 86 servicemembers have attended one of the ten VA Blind 
Rehabilitation Centers (BRCs), 135 are enrolled in local VA Blind 
Visual Impairment Service Teams (VISTs), and others with TBI vision 
dysfunction are in the process of being referred. Such rehabilitation 
programs must be very individualized for each veteran and their family 
members. As has been the case for an older generation of combat blinded 
veterans and for those who have recently suffered from age-related 
degenerative blindness and require these types of VA specialists, this 
legislation will ensure they all have this care.
    The legislation H.R. 228 will help our Nation's blind and low-
vision veterans by establishing a scholarship program for students 
seeking careers in blind rehabilitation. There are 167,000 legally 
blind veterans in the United States, and 46,625 are currently enrolled 
in Veterans Blind Rehabilitative Services (BRS). In addition, it is 
estimated that there are over 1 million low-vision veterans in the 
United States, and incidences of blindness among the total veteran 
population of 24 million are expected to increase over the next two 
decades. This is because the most prevalent causes of legal blindness 
and low vision are age-related diseases like glaucoma, macular 
degeneration, diabetic retinopathy, cataracts, and the veteran 
population is increasing in age, the current average age is 78 years 
old.
    The fact is that there are not enough blind rehabilitation 
specialists to serve all legally blind and low-vision veterans in the 
VA. Currently there are only 38 of these Blind Rehabilitative 
Outpatient Specialists (BROS) with 30 vacant positions. Some of the VA 
Polytrauma Centers had difficulty for over a year in finding these 
masters level graduate Orientation and Mobility Specialists at those 
vital centers. Blind rehabilitation training helps give these veterans 
awareness of and mobility functioning in their surroundings and enables 
them to retain their independence and dignity. Veterans without these 
services may find it difficult to be self-sufficient, relying on others 
to perform certain daily living skills or even simple tasks on their 
behalf. Research on blind and low vision Americans show they are at 
high risk of falls, or making medication mistakes, resulting in costly 
hospital admissions every year, and of losing their independence to 
live at home. Falls are the sixth leading cause of death in senior 
citizens and a contributing factor to 40 percent of all nursing home 
admissions with annual Federal costs over $48,000 for each nursing home 
bed. According to Framingham Eye Study, 18 percent of all hip fractures 
among senior citizens--about 63,000 hip fractures a year--are 
attributable to vision impairment. The cost of medical-surgical 
treatment for every hip fracture is over $39,000, if outpatient 
rehabilitation services prevented even 20 percent of these hip 
fractures, the annual Federal savings in health care costs would be 
over $461 million. Essential outpatient, cost effective services that 
would allow blind veterans to safely live independently at home should 
be supported by this Congress and the Administration from a health care 
policy stand point. Research has found that 25 percent of all falls 
resulting in hip fractures result in nursing home admissions with 
chronic disability; it is seven times more expensive to care for a 
disabled nursing home resident than a healthy independent American over 
age 65.
    Public Law 104-262, The Eligibility Reform Act 1996, requires the 
Department of Veterans Affairs to maintain its capacity to provide 
specialized rehabilitative services to disabled veterans, but it cannot 
do so when there are not enough specialists to address these needs. In 
the 109th congress the Veterans Programs Extension Act was passed, 
which included a provision by Congressman Michael Michaud to increase 
the number of Blind Rehabilitation Outpatient Specialists by thirty-
five new positions over the next 30 months serving our Nation's 
veterans but only 14 have been recruited. However, there are currently 
only 19 university programs that graduate this allied health care 
professional, and there are not enough counselors certified in blind 
rehabilitation to provide for the growing number of blind American 
citizens. According to National Council of Private Agencies for the 
Blind and Visually Impaired today there are only approximately 3,000 
certified in the field in the entire country. Because of this shortage, 
some of the ten VA Blind Centers have had longer waiting times for 
admissions.
    The Vision Impairment Specialists Training Act H.R. 228 helps VA 
remedy this recruiting situation by directing the Secretary of Veterans 
Affairs to establish a discretionary scholarship program for students 
seeking a degree or certificate in blind rehabilitation (Vision 
Impairment and/or Orientation and Mobility). This will provide an 
incentive to students considering entry into the field to consider a VA 
career in return for this scholarship funding. In addition, in exchange 
for the scholarship award, students are required to work for 3 years in 
a health care facility of the Department of Veterans Affairs, to ensure 
that our veterans are well cared for.
RECOMMENDATIONS
    BVA supports including this occupational specialty in the current 
VA educational program and providing for the aging population of 
visually impaired and blinded veterans the rehabilitative specialized 
staffing needed. VA testified in favor and VHA Blind Rehabilitative 
Service strongly supported this same legislation (HR 1240) in the 110th 
congress which this Committee passed with bipartisan support BVA again 
requests the Committee pass this bill. Chairwoman Herseth-Sandlin and 
Ranking Member Boozman, BVA expresses thanks to both of you for this 
opportunity to present our testimony for the record and again 
appreciates that Congresswoman Sheila Jackson-Lee reintroduced this 
bill. The current lack of access in many networks of VA will continue 
unless changes are made by enacting this legislation. The future 
strength of our Nation depends on the willingness of young men and 
women to serve in our military.
    The Blinded Veterans Association also supports the following 
legislation being considered today:
    <check> H.R. 297 ``To amend title 38, United States Code, to 
provide for an increase in the amount of subsistence allowance payable 
by the Secretary of Veterans Affairs to veterans participating in 
vocational rehabilitation programs, and for other purposes.''
    <check> H.R. 466 Congressman Doggett ``To amend title 38, United 
States Code, to prohibit discrimination and acts of reprisal against 
persons who receive treatment for illnesses, injuries, and disabilities 
incurred in or aggravated by service in the uniformed services.'' 
Returning veterans with Traumatic Brain Injuries and other disabilities 
are reporting problems with employment.
    <check> H.R. 929 Congressman Welch and Congressman Boozman ``To 
amend title 38, United States Code, to require the Secretary of 
Veterans Affairs to carry out a program of training to provide eligible 
veterans with skills relevant to the job market, and for other 
purposes.'' Since Vietnam War we have had combat experienced, well 
trained veterans return home with military skills and training that can 
not be easily transferred into civilian skills and this becomes even 
more of a challenge if the veteran is disabled. This legislation would 
assist those veterans by providing them with the support to meet their 
goals in entering the job market.
    <check> H.R. 942 Congressman Alexander bill ``To direct the 
Secretary of Veterans Affairs to conduct a pilot project on the use of 
educational assistance under programs of the Department of Veterans 
Affairs to defray training costs associated with the purchase of 
certain franchise enterprises.''
    <check> H.R. 950 Congressman Filner bill ``To amend chapter 33 of 
title 38, United States Code, to increase educational assistance for 
certain veterans pursuing a program of education offered through 
distance learning.'' BVA would recommend to this Committee that 
provision to ensure that only accredited and approved university 
programs are authorized for this distant educational program. For many 
disabled veterans, taking online distant educational courses is easier 
to access especially in some degree programs that might not be 
available locally, but there are many problems with diploma mills, that 
develop their own certification standards and guidelines, that must be 
avoided.
    <check> H.R. 1088 Congresswoman Herseth Sandler bill ``To amend 
title 38, United States Code, to provide for a one-year period for the 
training of new disabled veterans' outreach program specialists and 
local veterans' employment representatives by National Veterans' 
Employment and Training Services Institute.''

                                 <F-dash>
                Prepared Statement of Patrick H. Boulay,
           Chief, USERRA Unit, U.S. Office of Special Counsel

                           EXECUTIVE SUMMARY
    The Uniformed Services Employment and Reemployment Rights Act 1994 
(USERRA) protects the civilian employment and reemployment rights of 
those who serve our Nation in the Armed Forces, including the National 
Guard and Reserves. The U.S. Office of Special Counsel (OSC) plays a 
critical role in enforcing USERRA on behalf of Federal employees and 
applicants who file USERRA complaints, helping to fulfill Congress's 
goal that the Federal Government serve as a ``model employer'' under 
the law. This is especially important because the Federal Government is 
the civilian employer of approximately 25 percent of the National Guard 
and Reserves.
    Existing law requires that USERRA complaints against Federal 
agencies must first be filed with the U.S. Department of Labor, 
Veterans' Employment and Training Service (DOL-VETS) for investigation 
and attempted resolution. If DOL-VETS is unable to resolve the 
complaint, the claimant may request referral to OSC for possible 
representation of their claim before the U.S. Merit Systems Protection 
Board (MSPB).
    Recognizing the inefficiencies in this system (which splits the 
``investigative'' and ``prosecutorial'' responsibilities between two 
agencies), as well as OSC's extensive expertise and experience in 
investigating and resolving other Federal employment claims, Congress 
established a USERRA Demonstration Project in 2004 under which OSC 
directly received roughly half of all Federal USERRA complaints for 
both investigation and possible prosecution (eliminating the two-part 
process for such claims).
    Under the Demonstration Project, OSC resolved the USERRA complaints 
it received in an efficient and highly effective manner, obtaining full 
relief for claimants in one-in-four claims. OSC achieved this unusually 
high rate of corrective action for Federal employment claims through 
its thorough investigations, expert analysis of the law, ability to 
educate Federal agencies about USERRA, and a credible threat of 
litigation before the MSPB. Claimants whose cases OSC received also 
benefited from having a single, centralized entity handle their claims 
from beginning to end, instead of being transferred within and between 
DOL and OSC.
    The Demonstration Project ended on December 31, 2007 without 
further congressional action. H.R. 1089, the ``Veterans Employment 
Rights Realignment Act of 2009,'' would make permanent and expand the 
benefits realized under the Demonstration Project by giving OSC 
exclusive jurisdiction to not just prosecute, but also investigate, all 
USERRA complaints involving Federal executive agencies. By 
consolidating the investigative and prosecutorial functions in one 
agency, H.R. 1089 would make the USERRA complaint process more 
transparent, accountable, efficient, and effective for military 
servicemembers employed, or seeking to be employed, by the Federal 
Government. It would also allow the Department of Labor to better focus 
on providing its best service to those employed by private, State, and 
local entities, and to administer other vital veterans' programs. For 
these reasons, we believe H.R. 1089 is a ``win-win'' proposition for 
the men and women who serve in our Nation's military.
INTRODUCTION
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
distinguished Members of the Subcommittee: good afternoon, and thank 
you for the opportunity to testify on important matters of concern to 
our military veterans, their families, and our Nation as a whole.
    My name is Patrick Boulay and I am Chief of the USERRA Unit at the 
U.S. Office of Special Counsel (OSC). OSC is honored to serve as the 
Federal sector prosecutor of the Uniformed Services Employment and 
Reemployment Rights Act 1994 (USERRA), the law that protects the 
civilian employment and reemployment rights of our veterans.
    There are several important bills concerning veterans' benefits and 
programs that are the subject of today's hearing. Because OSC's role is 
limited to USERRA, however, our testimony today focuses on H.R. 1089, 
the ``Veterans Employment Rights Realignment Act of 2009,'' which 
proposes to expand OSC's role in USERRA by giving OSC exclusive 
jurisdiction to not just prosecute, but also investigate, USERRA 
complaints involving Federal executive agencies.
    OSC values the tremendous commitment of our military men and women 
and their families, and we are committed to protecting the job rights 
of those who serve our Nation both as civil servants and as soldiers. 
We are proud to employ several past and current members of the Guard 
and Reserves, as well as other military veterans, at OSC. Their 
valuable skills and dedication to both public and military service are 
an honor to our government and our Nation.
    Since USERRA's enactment in 1994, OSC has sought to vigorously 
enforce USERRA to help fulfill Congress's goal that the Federal 
Government be a ``model employer'' under the law. We believe that 
Federal agencies must set an example for private, State, and local 
employers to follow. We owe an immeasurable debt of gratitude to those 
who serve, and we must make certain that they are restored to their 
full employment rights and benefits when they come home, and that they 
are not discriminated against in employment based on past, present, or 
future military service. This is especially true for those who also 
work as civilians for the Federal Government.
    Our military commitments in Iraq, Afghanistan and elsewhere have 
resulted in unprecedented deployments of our national Guard and 
Reserves during this decade. As a consequence, we have seen, and are 
likely to continue to see, increased activity surrounding USERRA in the 
months and years ahead as soldiers continue to transition to and from 
the civilian workforce. Federal agencies, which employ approximately 25 
percent of the Guard and Reserves, will play an integral role in this 
process.
    OSC is uniquely suited to ensure that the Federal Government serves 
as a ``model employer'' under USERRA. By consolidating the 
investigative and prosecutorial functions in one agency, H.R. 1089 
would make the USERRA complaint process more transparent, accountable, 
efficient, and effective for military servicemembers employed, or 
seeking to be employed, by the Federal Government. It would also allow 
the Department of Labor to better focus on providing its best service 
to those employed by private, State, and local entities, and to 
administer other vital veterans' programs. For these reasons, we 
believe H.R. 1089 is a ``win-win'' proposition for the men and women 
who serve in our Nation's military.
THE U.S. OFFICE OF SPECIAL COUNSEL (OSC)
    The U.S. Office of Special Counsel (OSC), an independent Federal 
investigative and prosecutorial agency, was established by Congress in 
1979 to safeguard the merit system in Federal employment by protecting 
Federal employees and applicants from prohibited personnel practices, 
such as reprisal for whistleblowing; providing a secure channel for the 
disclosure of government waste, fraud, and abuse; and enforcing 
restrictions on political activity by government employees under the 
Hatch Act.
    OSC carries out its mission by: (1) investigating prohibited 
personnel practice allegations and, where warranted, seeking corrective 
action on behalf of Federal employees and applicants and disciplinary 
action against Federal officials, including by prosecuting violations 
before the U.S. Merit Systems Protection Board (MSPB); (2) receiving 
and evaluating disclosures of government wrongdoing and, where 
warranted, forwarding such disclosures to subject Federal agencies for 
investigation, report, and appropriate action; and (3) providing 
advisory opinions, investigating complaints, and prosecuting violations 
of the Hatch Act before the MSPB.
    OSC employs a staff of attorneys, investigators, and personnel 
specialists who are experts in Federal personnel law and are trained to 
evaluate, investigate, analyze, and resolve Federal employment 
complaints. The Special Counsel, head of OSC, is appointed by the 
President and confirmed by the Senate to a 5-year term. Currently, 
William E. Reukauf, a career Senior Executive, serves as Acting Special 
Counsel.
OSC'S ROLE AND SUCCESS IN ENFORCING USERRA
    In 1994, OSC's mission was expanded with the enactment of USERRA, 
codified at 38 U.S.C. Sec. Sec. 4301-4333. USERRA is intended to ensure 
that those who serve in our Nation's military: (1) are not 
disadvantaged in their civilian careers because of their military 
service; (2) are promptly reemployed in their civilian jobs upon their 
return from duty, with full benefits and seniority, as if they had 
never left; and (3) are not discriminated against in employment 
(including initial hiring, promotion, retention, or any benefit of 
employment) based on past, present, or future military service. The law 
applies to Federal, State, local, and private employers.
    Under USERRA, a person claiming a violation by a Federal executive 
agency may either file an appeal with the MSPB (with or without the 
assistance of private counsel) or submit a complaint to the U.S. 
Department of Labor, Veterans' Employment and Training Service (DOL-
VETS).
    If the USERRA claimant chooses to submit a complaint, DOL-VETS must 
investigate and attempt to resolve it. If DOL-VETS is unable to resolve 
the complaint, the claimant may request referral to OSC for possible 
legal representation before the MSPB. If, after reviewing the complaint 
and investigative file, and conducting any necessary follow-up 
investigation, OSC is reasonably satisfied that the claimant is 
entitled to relief under USERRA, OSC may act as attorney for the 
claimant and initiate an action before the MSPB. If OSC declines 
representation, the claimant may still file an appeal with the MSPB on 
his or her own or with the assistance of private counsel.
    USERRA thus expanded OSC's role as protector of the Federal merit 
system and Federal workplace rights by giving OSC prosecutorial 
authority over Federal-sector USERRA claims. However, it also 
established a ``bifurcated'' process in which DOL-VETS first 
investigates and attempts to resolve such claims, followed by possible 
referral to OSC for prosecution before the MSPB when DOL-VETS is unable 
to achieve resolution.
    Since 1994, OSC has successfully resolved a number of USERRA cases, 
including several before the MSPB, resulting in significant awards to 
Federal employees and applicants whose USERRA rights were violated by 
the Federal Government, but who were unable to obtain relief before 
coming to OSC. Many of the cases were considered unwinnable or had been 
languishing for years before arriving at OSC.
    In a case involving a Federal employee who had served in the Air 
Force, but was refused reemployment when he tried to return to his 
civilian job, DOL-VETS did not recommend prosecution by OSC. OSC 
disagreed and filed an appeal with the MSPB on the servicemember's 
behalf, obtaining full corrective action, including $85,000 in back 
pay, reemployment in his former position, and full restoration of 
seniority and benefits.
    In another case, a Reservist was dismissed from his Federal 
employer's supervisory training program because his Reserve duties 
conflicted with part of the training schedule and he would be absent 
from work on Saturdays, which the agency believed would cause morale 
problems. The training program was important because it resulted in 
automatic promotion and related benefits. OSC filed suit with the MSPB 
and successfully obtained full relief for the Reservist, including a 
retroactive promotion with back pay upon completion of the training.
    Another case illustrates both OSC's effectiveness and the flaws in 
the current ``bifurcated'' USERRA complaint process for Federal 
employees. It involved an Alaska national Guardsman who left his 
Federal position to serve an extended tour of duty. When he was refused 
reemployment upon his return, he filed a USERRA complaint with DOL-
VETS. His case languished for over 5 years before he finally obtained 
Federal employment again (he had been forced to find part-time and 
temporary work to pay his bills in the interim). However, his new 
employment did not restore the five-plus years of pay, seniority, and 
benefits (including retirement contributions, vacation time, and sick 
leave) he lost as a result of the government's failure to promptly 
reemploy him. After repeated requests, his case was referred to OSC in 
November 2006. Within a few months of receiving the case, OSC 
negotiated a settlement that provided the Guardsman with 65 months of 
back pay plus interest, restored his seniority and Federal retirement 
benefits as if he had been properly reemployed over 6 years earlier, 
and provided him the vacation time and sick leave he had lost.
    OSC has long enjoyed a cooperative, productive relationship with 
DOL in enforcing USERRA. Nevertheless, in USERRA cases referred from 
DOL to OSC, OSC has often found that further investigation is needed to 
make a determination or that the claim has not been fully or properly 
analyzed by DOL under the law. For instance, in two of the cases filed 
by OSC with the MSPB since 2004, DOL recommended that OSC not afford 
the claimant representation (i.e., that the claims were non-
meritorious), but OSC disagreed and obtained full relief for the 
servicemember. OSC has also found that DOL-VETS investigations are 
incomplete in that important documents have not been obtained or key 
witnesses not interviewed. Last, a number of cases referred from DOL 
have been investigated and analyzed under the wrong part of the statute 
(e.g., the anti-discrimination provisions instead of the reemployment 
provisions, or vice versa).
    Moreover, many of the claimants described above could have received 
relief faster had OSC been able to receive and investigate their claims 
from the beginning, without the need for attempted resolution and 
referral by DOL-VETS. As a government Accountability Office (GAO) 
report found, the referral process alone adds an average of over 8 
months to the resolution of such claims (i.e., from the time DOL-VETS 
completes its investigation and attempted resolution to the time DOL's 
Solicitor's Office refers the claim to OSC).\1\ In the last case 
described above, this process took years and caused significant 
hardship and delayed relief for a deserving servicemember.
---------------------------------------------------------------------------
    \1\ See GAO Report No. 07-907, p. 23.
---------------------------------------------------------------------------
    The cases above are only a few examples of OSC's effectiveness in 
enforcing USERRA. As explained further below, the timely, highly 
favorable results OSC obtains for servicemembers would be greatly 
expanded if H.R. 1089 becomes law.
THE USERRA DEMONSTRATION PROJECT
    In 2004, recognizing the shortcomings of the ``bifurcated'' USERRA 
complaint process for Federal employees, as well as OSC's unique 
expertise and experience in investigating and prosecuting Federal 
employment claims, Congress passed the Veterans Benefits Improvement 
Act of 2004 (VBIA). The VBIA included a Demonstration Project to 
determine whether OSC could provide better service and results to 
Federal employees filing USERRA claims.
    Under the Demonstration Project, which ran from February 2005 
through December 2007, roughly half of all Federal USERRA claims were 
submitted directly to OSC for investigation and prosecution, rather 
than first going through DOL-VETS.\2\ During this period, the sometimes 
confusing, time-consuming process that shuffled Federal USERRA claims 
among different Federal agencies before finally being resolved by OSC 
was eliminated for some claims.
---------------------------------------------------------------------------
    \2\ During the Demonstration Project, OSC had exclusive 
investigative jurisdiction over Federal sector USERRA claims where: 1) 
the claimant's Social Security Number ended in an odd digit, or 2) the 
claimant alleged a Prohibited Personnel Practice as well as a USERRA 
violation (regardless of Social Security Number). DOL-VETS retained 
investigative jurisdiction over all other Federal sector USERRA claims.
---------------------------------------------------------------------------
    During the Demonstration Project, OSC obtained corrective action 
for servicemembers in approximately 25 percent of the USERRA claims it 
received, a rate that is significantly higher than that for most 
governmental investigative agencies. OSC achieved this high rate of 
corrective action through its thorough investigations, expert analysis 
of the law, ability to educate Federal employers about the requirements 
of USERRA, and a credible threat of litigation before the MSPB. The GAO 
study of the Demonstration Project also found that it took OSC less 
than 120 days on average to resolve cases (which includes prosecution 
as well as investigative time).\3\
---------------------------------------------------------------------------
    \3\ See GAO Report No. 07-907, p. 22. GAO found that DOL's case 
closure dates were not reliable and, as a result, could not accurately 
determine an average case processing time. Id., p. 4.
---------------------------------------------------------------------------
    OSC's centralized and straight-line process ensured that the USERRA 
claims we received were resolved efficiently, thoroughly, and correctly 
under the law. The numerous and varied corrective actions OSC obtained 
for servicemembers included back pay, retroactive promotions, restored 
seniority and retirement benefits, reimbursed leave, improved 
performance ratings and bonuses, and priority consideration for future 
positions. OSC seeks not to simply settle the USERRA claims it receives 
as quickly as possible, but to ensure that the servicemember gets all 
of the relief to which he or she is entitled. For this reason, 
virtually all of the USERRA cases OSC has resolved resulted in full, 
complete corrective action for the servicemember.
    In addition to obtaining relief for individuals, OSC also seeks 
``systemic'' corrective action in appropriate cases, i.e., broader 
changes in agency policies and practices to prevent future USERRA 
violations. To this end, we have assisted Federal agencies in modifying 
their leave, evaluation, and promotion policies to better comply with 
USERRA; provided USERRA training to agency managers, attorneys, and 
personnel specialists; and required agencies to post USERRA information 
on their Web sites and in common areas.
    For example, in one case involving the U.S. Postal Service, OSC was 
instrumental in authorizing military leave that was improperly denied 
to an eligible employee. In addition, we worked with the agency to 
ensure that its managers accommodate employees who perform military 
duty by identifying and scheduling replacement workers and posting 
USERRA informational posters in locations accessible to employees. The 
claimant indicated that after the OSC's involvement, he noticed a 
greater interest in the agency's efforts to recognize and support 
veterans.
    OSC's success under the USERRA Demonstration Project is 
attributable to several factors:

    1.  OSC has extensive experience and expertise in investigating and 
resolving Federal employment claims, so the Demonstration Project did 
not require significant re-training or hiring of new personnel;
    2.  OSC staff specializes in Federal personnel law, of which USERRA 
is a part, and its primary mission and focus is protecting the merit 
system of Federal employment (in contrast to DOL, which administers 
numerous, varied Federal programs and laws);
    3.  OSC's USERRA Unit is centralized in one location, with a small, 
specialized group of attorneys and investigators working closely and 
collaboratively on a daily basis to investigate and resolve USERRA 
claims (in contrast to DOL-VETS, which relies on a decentralized 
network of offices throughout the country that also administer several 
other programs besides USERRA);
    4.  All USERRA claims, investigations, and determinations at OSC 
are reviewed by the USERRA Unit Chief (in contrast to DOL, which 
conducts quality control review on only a very small percentage of its 
USERRA cases, which are randomly selected);
    5.  All USERRA claims, investigations, and determinations at OSC 
receive legal and supervisory review throughout the process (in 
contrast to DOL, which has investigators handle all claims, with 
supervisory review of only a limited number and legal consultation only 
on an ad-hoc basis or if the claimant requests referral to OSC); and
    6.  There is a credible threat of litigation by OSC.\4\
---------------------------------------------------------------------------
    \4\ Many of the differences in structure and approach between OSC 
and DOL are described on pages 8-16 and 24-25 of GAO Report No. 07-907.

    Congress tied the outcome of the USERRA Demonstration Project to a 
GAO evaluation. OSC participated in the evaluations conducted by the 
GAO, but their report did not meet the April 1, 2007, deadline mandated 
by Congress. Instead, the final report was published only 2 weeks 
before the congressional August recess, leaving Congress with no 
opportunity to act on USERRA before the Demonstration Project would 
conclude on September 30, 2007.\5\
---------------------------------------------------------------------------
    \5\ Congress extended the Demonstration Project through December 
31, 2007, as part of several Continuing Resolutions for the Federal 
budget.
---------------------------------------------------------------------------
    Moreover, the GAO report did not address the central question that 
the Demonstration Project was intended to answer, namely: Are Federal 
sector USERRA claimants better served when they are permitted to make 
their complaints directly to OSC, for both investigation and 
prosecution, bypassing the ``bifurcated'' process of referral between 
agencies? We submit that the answer is an emphatic ``yes.'' 
Unfortunately, the GAO report focused on data outputs, rather than 
real-life outcomes for servicemembers.
    After the Demonstration Project ended on December 31, 2007, OSC no 
longer had authority to directly accept USERRA claims from Federal 
employees and applicants for investigation, but retained its critical 
role of prosecuting Federal sector USERRA claims referred from DOL-
VETS.
OSC: POISED TO HANDLE ALL FEDERAL USERRA CLAIMS UNDER H.R. 1089
    OSC considers it a privilege to be engaged in Federal sector USERRA 
enforcement, and continues to vigorously enforce the law to obtain full 
relief for aggrieved servicemembers and improve USERRA compliance by 
the Federal Government.
    As an example, in September 2008, OSC filed a novel USERRA appeal 
before the MSPB on behalf of a Federal Government contract employee who 
left his job at the Department of Homeland Security to serve in Iraq. 
When he returned and asked for his job back, the government told the 
contractor that it did not want him back because it might have to train 
him on some new duties and that it would cancel the contract on which 
he worked if the contractor brought him back. As a result, the 
servicemember was unemployed for over a year and suffered significant 
hardship. In the first case before the MSPB to consider this issue, OSC 
argued that the Federal Government acted as an employer under USERRA 
because it ``controlled his employment opportunity'' within the meaning 
of the law, and therefore should be held liable for damages. While the 
case is currently still on appeal, it demonstrates OSC's commitment to 
servicemembers and willingness to ``push the envelope'' if necessary to 
protect their rights.
    OSC also filed a successful amicus curiae (friend of the court) 
brief in a USERRA case before the U.S. Court of Appeals for the Federal 
Circuit. In that case, to which OSC was not a party, the MSPB had ruled 
that Federal employees covered by collective bargaining agreements 
could only enforce certain USERRA rights through negotiated grievance 
procedures, precluding them from the independent third-party review and 
judicial enforcement mechanisms available to them under USERRA, 
including OSC representation. Recognizing the severe implications of 
the MSPB's ruling for a large segment of Federal employees, OSC argued 
for reversal. After OSC filed its brief, the MSPB acknowledged that its 
ruling was erroneous (adopting many of the same arguments put forth by 
OSC) and requested that the Federal Circuit remand the case, which it 
did.
    If enacted into law, H.R. 1089 would expand and make permanent the 
benefits to servicemembers that OSC's track record demonstrates. By 
authorizing OSC to directly receive all Federal USERRA claims, H.R. 
1089 would eliminate the time-consuming, cumbersome ``bifurcated'' 
USERRA referral process and allow claimants to obtain faster, more 
effective relief. Instead of having to rely on another agency's 
investigation and frequently having to conduct additional 
investigation, OSC would have control of the investigation throughout, 
bringing its unique expertise and experience in investigating and 
resolving other Federal employment claims to bear on USERRA claims, as 
it did during the Demonstration Project. In these trying economic 
times, taxpayers should only have to pay for one investigation per 
claim, not two.
    Moreover, because OSC can and will file suit with the MSPB, Federal 
agencies are more willing to quickly resolve meritorious claims (as 
they often did under the Demonstration Project) instead of taking their 
chances with the existing referral process. USERRA claimants also 
benefit from a more efficient, transparent process that increases 
accountability and communication by having a single, centralized entity 
handle and resolve their claims from beginning to end.
    As described above, OSC has often found deficiencies in DOL's 
investigation and analysis of USERRA claims. This is somewhat 
understandable given the ``many hats'' DOL's investigators and 
attorneys must wear. Authorizing OSC to directly receive and 
investigate all Federal USERRA claims, however, would eliminate these 
problems and extend the benefits realized under the Demonstration 
Project to all Federal servicemembers.
    In sum, granting OSC exclusive jurisdiction over all Federal sector 
USERRA cases, as H.R. 1089 does, would benefit Federal employee 
claimants by having a specialized agency resolve their claims, as 
evidenced by OSC's track record in USERRA enforcement and its 
performance during the Demonstration Project. For these reasons, and 
given OSC's almost thirty years' experience in investigating and 
resolving Federal employment claims, Federal sector USERRA 
investigation and enforcement is a natural ``fit'' for OSC and its 
mission. Such a change would also free DOL-VETS from having to navigate 
Federal personnel law (OSC's particular expertise), allowing DOL-VETS 
to focus on serving the larger volume of USERRA claimants from the 
private sector and those in State and local governments.
    Thus, all servicemembers (Federal and non-Federal) would benefit 
under H.R. 1089--Federal servicemembers would benefit from OSC's 
specialized experience and approach, and non-Federal servicemembers 
would benefit from greater attention and focus on their claims at DOL-
VETS.
USERRA ``SURGE'' AHEAD?
    Today, the United States is in the middle of the largest sustained 
military deployment in three decades. In recent years, the number of 
members of the National Guard and Reserve mobilized at one time peaked 
at more than 212,000. As of last week, the Department of Defense 
reported that 124,594 reserve component members were currently on 
active duty for voluntary and involuntary mobilizations.
    We do not know when they will start returning home in greater 
numbers, boosting demand for USERRA enforcement. With Federal employees 
comprising about 25 percent of the National Guard and Reserve, there 
will likely be a significant number of USERRA claims filed against 
Federal agencies for the foreseeable future. The government must be 
prepared to efficiently and effectively handle such claims, and to 
ensure that Federal agencies set an example for private, State, and 
local employers to follow.
    We believe that adequate information has been developed to support 
a decision by Congress to assign the task of investigating and 
resolving all USERRA claims by Federal employees and applicants to OSC, 
as proposed by H.R. 1089. We are poised to assume this important 
responsibility and to do our part in making the transition back to 
civilian life as smooth as possible for our veterans.
    Thank you for your attention and I look forward to your questions.

                                 <F-dash>
                 Prepared Statement of Keith M. Wilson,
     Director, Education Service, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs

    Madam Chairwoman and other Members of the Subcommittee, good 
afternoon. I am pleased to be here today to provide the Department of 
Veterans Affairs' (VA) views on pending benefits legislation.
    At the outset, I would note that we are dedicated to our 
partnerships with other agencies on programs and initiatives that 
affect our Nation's Veterans. We humbly take on the role as the 
principal advocate for our Nation's Veterans. It is in that vein that 
we have provided our insight on several bills on the agenda. Several 
other bills on the agenda affect programs or laws administered by the 
Department of Labor (Labor), the Office of Special Counsel (Special 
Counsel), and the Internal Revenue Service (IRS). We respectfully defer 
to those lead agencies, and expect that they will best speak to the 
following bills: H.R. 147 (designation of tax payment to homeless 
veterans--IRS), H.R. 466 (prohibiting discrimination against wounded 
veterans--Labor), H.R. 1088 (providing for 1-year period of training 
for disabled veterans' outreach program specialists (DVOPs) and local 
veterans' employment representatives (LVERS)--Labor)), H.R. 1089 
(enforcement of employment rights of veterans and certain 
servicemembers--Labor and Office of Special Counsel), and the draft 
bill to reauthorize the Homeless Veterans Reintegration Program 
(Labor). I regret we did not have sufficient time to formulate formal 
views on two measures, H.R. 228 and H.R. 297. However, we will be 
pleased to provide written views on these bills for the record. As to 
the proposed legislation that we will speak to today, I want to begin 
by stating that every initiative reviewed has admirable goals of 
assisting our Nation's veterans, yet not every initiative can be 
implemented as currently written, and we provide our commentary as 
follows:
H.R. 942
    H.R. 942, the ``Veterans Self-Employment Act of 2009'' would direct 
VA to conduct a 5-year pilot project to test the feasibility and 
advisability of using VA educational assistance benefits provided under 
chapters 30, 32, and 35 of title 38, and chapters 1606 and 1607 of 
title 10, United States Code, to pay for training costs associated with 
the purchase of a franchise enterprise. The amount of educational 
assistance benefit payable to an eligible individual for such training 
would be made in a lump-sum payment and would be one-half of the 
franchise fee or one-third of the remaining amount of education 
assistance to which the individual would be entitled, whichever is 
less. This payment would not be made unless the training in question 
was a requirement for the purchase and operation of the franchise and 
the program and the entity or organization offering the training were 
approved by VA in accordance with the aforementioned chapters under 
titles 10 and 38 and regulations prescribed by VA in accordance with 
this Act. VA would be allowed to use State approving agencies for this 
purpose.
    The bill also would require GAO to conduct periodic evaluations of 
the pilot project and, not later than the end of the third year after 
its inception, submit to Congress a report to include: (1) the number 
of individuals who participated in the project, (2) the number of 
franchise enterprises operated by such individuals by reason of such 
participation, (3) the aggregate payments made by VA under the project, 
(4) recommendations for the continuation of the project, and (5) such 
other recommendations for administrative action or legislation as the 
GAO determines to be appropriate.
    VA would be required to implement the pilot project established by 
H.R. 942 as soon as practicable, but not later than 18 months after the 
date of enactment of the Act.
    Currently, there are no provisions under any education benefit 
program for payment of benefits to help cover the training costs 
associated with the purchase of a franchise enterprise.
    The impact of this legislation on VA, with regard to number of 
claimants, would be minimal. However, there would be a more significant 
administrative impact in that VA would be required to develop 
regulations for proper administration of this program, as well as 
conduct adequate oversight to ensure compliance.
    VA supports enactment of this Act, subject to the identification of 
offsets for the additional benefits costs. VA estimates that enactment 
of H.R. 942 would result in benefits costs of $594,000 for FY 2010 and 
$23.7 million over 10 years.
H.R. 929
    H.R. 929 is an educational training program that, as currently 
drafted, would be problematic to implement and execute. VA supports 
this initiative's goal of expanded education opportunities, but the 
policy is currently not implementable by the VA as drafted, and we 
cannot endorse it at this time. H.R. 929 would require VA to establish 
a Military Occupational Specialty Transition (MOST) program of training 
to provide eligible veterans with skills relevant to the job market. To 
be eligible, a veteran must: (1) be discharged under conditions not 
less than general under honorable conditions; (2) be an individual 
whose military occupational specialty at the time of discharge is 
deemed by VA to have limited transferability to the civilian job 
market; (3) not otherwise be eligible to receive education or training 
services under title 38; (4) not have acquired a marketable skill since 
leaving military service; and (5) have been unemployed for at least 90 
days during the 180-day period preceding the date of the individual's 
application for the MOST program, or the maximum hourly rate of pay of 
such individual during such 180-day period must not be not more than 
150 percent of the Federal minimum wage.
    Under the program, VA would enter into contracts with employers who 
would receive payment for providing programs of apprenticeship or on-
the-job training. The rate of pay for the training the veteran would 
receive would not be less than the rate of pay of nonveterans in 
similar jobs, and VA would reasonably expect the veteran would both be 
qualified for employment in the field of study at the completion of his 
training and that the employer would hire the veteran at that time. The 
amount of payment to each employer for any period would be 50 percent 
of the wages paid by that employer to the veteran for such period 
calculated on an hourly basis. The amount paid to the employer would 
not exceed a monthly amount of $1,666.67 or $20,000 in the aggregate 
and would only be made during the first 12 months of the veteran's 
participation in the program. If the veteran participates in the 
program on a less than full-time basis, VA would extend the number of 
months of payment not to exceed 24 months and proportionally adjust 
them, but not to exceed the $20,000 maximum payment.
    The bill further provides that employers participating in the MOST 
program would submit a quarterly report to VA certifying the wages paid 
and any other information VA may specify. H.R. 929 would also authorize 
to be appropriated $60 million for each of fiscal years 2009 through 
2018 to carry out this program, and would require VA to provide a 
detailed description of the activities carried out under the MOST 
program in the annual report prepared by the Veterans Benefits 
Administration.
    While VA supports the principle of expanding occupational 
opportunities for veterans, we do not support enactment of the 
legislation as written. Under the MOST program, employers would have to 
submit a written application to the appropriate State approving agency 
(SAA) for approval of programs not currently approved under 38 U.S.C. 
Sec. 3677. Additionally, the Secretary would be required to determine 
whether a veteran's military occupational specialty has limited 
transferability to the job market, and whether the veteran has not 
acquired a marketable skill since leaving military service. This would 
be better implemented as a joint program between the Departments of 
Labor and VA. Since there could be a significant difference between the 
time the SAA approves the training program and the determination of the 
veteran's eligibility, we believe the implementation of this bill would 
be challenging.
    Additionally, the MOST program would allow for payment to employers 
who provide a program of apprenticeship or on-the-job training for 
eligible veterans, and it is expected that the employer will hire the 
veteran upon completion of training, but there are no guarantees. To 
reimburse an employer for a portion of apprenticeship or on-the-job 
training wages, as well as to ensure that veterans are protected with 
rights as employees, it would seem a better program if the employers 
are required to hire veterans at the beginning of a trainee program. As 
written, the program puts the risk onto the veteran and VA with only a 
hope of future employment for the veteran. The Department of Labor also 
feels that there is a need to distinguish between ``apprenticeship'' 
and ``registered apprenticeship'' as implemented under the National 
Apprenticeship Act, which I understand it will address in its statement 
for the record.
    This legislation would require significant development of 
regulations and procedures to administer the benefit. As the proposed 
legislation appears to be effective the date of enactment, there would 
be a considerable delay in VA's ability to pay claims associated with 
the MOST program.
    The bill would authorize to be appropriated $60 million for each of 
fiscal years 2009 through 2018 to carry out the program, for a total 
10-year cost of $540 million.
H.R. 950
    H.R. 950 is a bill designed to pay college housing allowances to 
veterans who take educational courses over the Internet (also defined 
as ``distance learning'') via the Post 9/11 GI Bill. As currently 
written, this program would seemingly give housing allowances to 
Veterans who are training at home, at work, or at some other location. 
This does not seem to meet the intent of a housing subsidy for Veterans 
who travel to attend an institution of higher learning, and also poses 
a risk of unintended increased costs due to the locality determination 
of the subsidy. Therefore, as currently drafted, we oppose the bill.
    Currently, under the bill (section 3313(c)(1)(B)(i)), individuals 
who are pursuing a program of education are eligible to receive a 
monthly housing stipend amount equal to the monthly amount of the basic 
allowance for housing (BAH) payable under section 403 of title 37 for a 
member with dependents in pay grade E-5 residing in the military 
housing area that encompasses all or the majority portion of the ZIP 
code area in which is located the institution of higher education at 
which the individual is enrolled. The bill would extend this benefit to 
individuals taking courses over the Internet, regardless of their 
location.
    This legislation would have an impact on VA business processes and 
procedures. Housing stipends are based on BAH rates where the school is 
located versus the individual's residence. We anticipate some 
individuals would enroll in distance learning programs at the schools 
with the highest BAH rate. Presumably, it would be better to base the 
housing stipend on where individuals live, and/or their home of record 
at the time of enrollment.
    VA estimates that enactment of H.R. 950 would result in benefits 
costs of $20.4 million for FY 2010 and $1.5 billion over 10 years. In 
view of this cost, and because BAH rates based on the location of a 
school bear no relationship to the cost of living associated with the 
locality where an individual may reside, VA opposes this bill.
    Madam Chairwoman, this concludes my statement. We continue to be 
encouraged, and challenged to provide our Nation's veterans with the 
best educational opportunities at our disposal, and look forward to 
engaging in a dialog to improve upon these admirable initiatives. I 
would be happy to entertain any questions you or the other Members of 
the Subcommittee may have.

                                 <F-dash>
                    Statement of John M. McWilliam,
          Deputy Assistant Secretary, Veterans' Employment and
               Training Service, U.S. Department of Labor

    Madam Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee:
    Thank you for the opportunity to submit a statement for the record 
on several bills. With regard to those bills that solely concern 
programs that are administered by the Department of Veterans Affairs 
(VA), specifically H.R. 147, H.R. 228, H.R. 297, and H.R. 942, the 
Department of Labor (DOL) respectfully defers to the VA.
    H.R. 466, the ``Wounded Veteran Job Security Act,'' would amend 
section 4311 of the Uniformed Services Employment and Reemployment 
Rights Act (USERRA) to prohibit discrimination and acts of reprisal 
against persons who receive treatment for illnesses, injuries, and 
disabilities incurred in or aggravated by service in the uniformed 
services. The Department would welcome the opportunity to work with the 
Subcommittee to provide technical assistance to ensure that the bill 
appropriately addresses Congressional intent.
    H.R. 929 would amend title 38, United States Code, to require the 
Secretary of Veterans Affairs to establish a Military Occupational 
Specialty Transition (MOST) program, which would help fund eligible 
veterans' participation in on-the-job training and apprenticeship 
programs. To qualify for MOST benefits, VA would have to ``determine 
whether a veteran's military occupational specialty has limited 
transferability to the job market, and whether the veteran has not 
acquired a marketable skill since leaving military service.'' Any such 
job training program should be a joint program between DOL and VA, 
which would leverage the services and training funds already available 
through the Nation's workforce investment system, and operated through 
One-Stop Career Centers across the Nation.
    Even so, the Department does not fully understand the intent and 
scope of the bill. For instance, the bill appears to authorize the 
payment of MOST funds for Registered Apprenticeship programs operated 
under the National Apprenticeship Act (29 U.S.C. 50 et seq.). 
Curiously, H.R. 929 contains a provision to restrict the distribution 
of MOST funds to employers who VA expects will guarantee apprentices 
employment at the conclusion of an apprenticeship; this seems to imply 
that MOST-funded apprentices would not be deemed employees of the 
employer during the apprenticeship. Under the National Apprenticeship 
Act, however, an apprentice in a Registered Apprenticeship program is, 
in fact, an employee of the employer during the apprenticeship, and 
remains so even after completion of the program, unless the apprentice 
or the employer chooses to terminate the employment. The Department 
would welcome the opportunity to work with the Subcommittee and the VA 
to fully understand the intent of the legislation, particularly with 
regard to the application of the National Apprenticeship Act, and to 
provide technical assistance to ensure that the bill appropriately 
addresses that intent.
    H.R. 1088, the ``Mandatory Veteran Specialist Training Act of 
2009,'' would amend title 38, United States Code, to reduce from a 3-
year period to a 1-year period the length of time in which new disabled 
veterans' outreach program specialists and local veterans' employment 
representatives must satisfactorily complete training provided by the 
National Veterans' Employment and Training Services Institute (NVTI). 
While we support H.R. 1088, we note that NVTI would need to provide 
more classes in order to satisfy this requirement.
    H.R. 1089, the ``Veterans Employment Rights Realignment Act of 
2009,'' would amend USERRA to shift from the Department of Labor to the 
Office of Special Counsel (OSC) the responsibility for investigating 
and attempting to resolve claims relating to Federal agency employers. 
DOL strongly opposes this legislation.
    DOL's Veterans' Employment and Training Service (VETS)is a 
veterans-focused agency whose sole mission is to serve the workplace 
needs of separating servicemembers and veterans. Currently, VETS is the 
single agency authorized to receive and investigate formal complaints 
filed by individuals who believe their USERRA rights have been 
violated. Servicemembers who lodge such complaints can--and do--benefit 
from other services that VETS offers as well. This is because VETS' 
programs provide personalized access to a wide array of employment and 
training services that can help individuals upgrade their skills and 
link them to civilian careers. VETS' unique holistic approach allows it 
to identify and address the individual needs of our brave 
servicemembers and veterans.
    VETS staff has acquired extensive experience and achieved much 
success in helping servicemembers resolve USERRA claims. In Fiscal Year 
2008 alone, VETS obtained over $1.9 million in back wages and benefits 
for USERRA claimants. In addition, as shown by our quarterly report to 
Congress under the Veterans' Benefits Improvement Act of 2008, in the 
first quarter of its enactment, we met the new statutory case-
processing deadlines in every case we handled. Thus, the Department is 
better positioned than ever before to serve the needs of all veterans, 
including those who work in the Federal sector.
    Currently, if VETS is unable to resolve a USERRA claim involving a 
Federal employer, we notify the claimant that his or her claim may be 
referred to the OSC for consideration of no-cost representation before 
the Merit Systems Protection Board (MSPB). Similarly, if no resolution 
is obtained in a non-Federal case, VETS notifies the claimant that his 
or her claim may be referred to the Department of Justice for 
consideration of no-cost representation in appropriate Federal courts. 
Historically, less than one-in-ten claimants find it necessary to 
request referral of their claims.
    VETS is proud of its decades-long record of enforcing USERRA and 
USERRA's predecessor laws in the public and private sectors. The agency 
has long accomplished its mission through a nationwide network of 
highly skilled Federal employees, almost all of whom are veterans 
themselves. In addition to being experts on USERRA and related 
regulations, VETS investigators have undergone extensive training in 
investigative techniques and procedures. Located in all 50 States, the 
District of Columbia, and Puerto Rico, VETS investigators also conduct 
outreach and provide technical assistance to employers, servicemembers, 
veterans, and veterans' organizations at the national, State and local 
levels, as well as where servicemembers are demobilized. We believe 
that the Department of Labor can effectively and quickly meet the needs 
of veterans because it has an extensive, accessible nationwide network 
of offices and subject matter experts who have the necessary, 
specialized training and experience.
    Section 204 of the Veterans Benefits Improvement Act of 2004 (P.L. 
108-454) established a demonstration project, which ran from February 
2005 through December 2007, whereby certain Federal USERRA complaints 
were transferred to OSC for investigation and enforcement, and the rest 
were retained for investigation by VETS under the current procedures. 
The objective of the demonstration project was to determine whether 
transferring USERRA cases involving Federal employers to OSC would 
result in ``improved services to servicemembers and veterans'' or 
``reduced or eliminated duplication of effort and unintended delays in 
resolving meritorious claims.'' A report to Congress on the 
demonstration project by the government Accountability Office (GAO-07-
907) was inconclusive as to which agency better handled Federal USERRA 
cases.
    VETS is committed to continuous improvement of our USERRA program 
and our reporting to Congress on investigations. As a result of that 
commitment, we have made a number of investments to make our USERRA 
program even more effective, and more are planned. For example, we have 
enhanced and expanded investigator training, increased supervisory 
oversight of investigations, and established procedures to ensure that 
complainants are informed of the process and our progress in 
investigating their complaints. We have contracted for an external 
evaluation of the USERRA investigative process to examine the current 
process and identify program improvement strategies to increase 
efficiency and effectiveness. An investment in the Department of 
Labor's USERRA program is an investment in ensuring the USERRA rights 
of all claimants, regardless of where they are employed. Directing 
claimants to different agencies based on where they are employed is 
unnecessary, inefficient, and could result in disparate treatment of 
claimants and interpretation of law by the Federal Government. 
Moreover, such an arrangement could confuse claimants about where to go 
for assistance. We encourage the Congress not to pass such legislation.
    H.R. 1171, the ``Homeless Veterans Reintegration Program 
Reauthorization Act of 2009,'' would amend title 38, United States 
Code, to reauthorize the Homeless Veterans Reintegration Program (HVRP) 
for fiscal years 2010 through 2014. We support the extension of this 
program. HVRP is the only Federal employment program designed 
specifically to address the employment problems faced by our Nation's 
homeless veterans. The purpose of the HVRP is to provide services to 
assist in reintegrating homeless veterans into meaningful employment 
within the labor force and to stimulate the development of effective 
service delivery systems that will address the complex problems facing 
homeless veterans. Employment is the linchpin by which a homeless 
veteran may start a successful journey back to society, regardless of 
whether the homelessness is long term or short term, first time or 
cyclical.
    I would be happy to provide written responses to any follow-up 
questions for the record.

                                 <F-dash>
                  Statement of Hon. Rodney Alexander,
        a Representative in Congress from the State of Louisiana

    Madam Chairwoman,
    Thank you for your consideration of H.R. 942, the Veterans Self-
Employment Act of 2009.
    In 1944, President Franklin D. Roosevelt signed the Servicemembers' 
Readjustment Act into law. This law, also known as the GI Bill of 
Rights, provided the means for thousands of veterans to go to college. 
While many have taken advantage of the opportunity to further their 
professional or technical education through the G.I. Bill, others have 
chosen to forego their education and instead directly enter the 
workforce after completing their service.
    Although attending college may be the answer for many veterans, for 
others it is starting their own business. Many veterans who have 
invested in the G.I. Bill and have honorably served their Country are 
unable to capitalize on these benefits because the G.I. Bill does not 
provide opportunities to the veteran entrepreneur. It is in our 
Country's best interest to change this.
    The Department of Veterans' Affairs should provide veterans, who 
have honorably served their Country but do not wish to attend college, 
the opportunity to receive training and assistance if they wish to own 
their own business. Not only will such a passage reward our veterans 
with benefits they have already earned, but it will also be 
instrumental in helping to revitalize a wounded domestic economy.
    The United States enjoys much of its economic success to the small 
business owner. Who better to help own a business than a veteran?
    H.R. 942, the Veterans Self-Employment Act of 2009, will implement 
a five year experimental project under the authority of the VA to test 
the feasibility of the use of educational assistance to pay for 
training costs associated with the purchase of a franchise business. In 
order to receive this VA-funded training, the training must be directly 
related to the purchase and operation of a franchise and must be 
approved by the Secretary of Veterans Affairs.
    It is important that we provide our veterans all the assistance 
that we can reasonably give them. They have done so much in forming and 
preserving the way of life that we cherish so much, and it is 
irresponsible and disrespectful to not reward these actions and show 
our appreciation. This bill will serve not only as a token of our 
appreciation to our veterans by training them to work for themselves, 
but also as a valiant tool to help provide real stimulation to our 
economy.
    Madam Chairwoman, I once again thank you for your time and 
consideration.

                                 <F-dash>
                     Statement of Hon. Steve Buyer,
       Ranking Republican Member, Committee on Veterans' Affairs,
       and a Representative in Congress from the State of Indiana

    Madam Chairwoman and Members of the Subcommittee, I appreciate the 
opportunity to present my views on my bill, H.R. 297, the Veteran 
Vocational Rehabilitation and Employment Subsistence Allowance 
Improvement Act of 2009.
    During fiscal year 2008, 14,408 veterans dropped out of or 
temporarily interrupted the VR&E program. A major reason that disabled 
veterans either decline to enter or drop out or interrupt before 
completing their VR&E program is their need to work to support their 
families. With the subsistence allowance, a 20 percent disabled veteran 
attending an Institution of Higher Learning full time with a spouse and 
two children would receive only about $848 per month plus service-
connected disability compensation of $243 for a total of about $1,091 
per month for full time training. Unless the spouse works, it is 
unlikely that veteran will complete VR&E. Veterans living in high cost 
areas face even more difficulties making ends meet.
    I asked VA to research the last time we made any substantial 
increase in the allowance. Their records go back to 1995. VA staff 
could not remember an increase ever being passed and since 1995, other 
than the cost of living, there have been no increases.
    Clearly, it is time to increase the subsistence allowance. My bill 
would increase the basic rate to from the current $541 per month to 
$1,200. That same 20 percent disabled vet with three dependents would 
now get a subsistence allowance of $1,920 plus $243 in compensation for 
a total of $2,163 per month. This will improve the veterans' ability to 
support their families and to complete the VR&E program.
    I look forward to working with the Chair and Ranking Member to 
identify opportunities to fund this most important VA program for 
disabled veterans.

                                 <F-dash>
                     Statement of Hon. Bob Filner,
               Chairman, Committee on Veterans' Affairs,
     and a Representative in Congress from the State of California

    Good afternoon Chairwoman Herseth Sandlin, Ranking Member Boozman 
and Members of the Subcommittee. Thank you for the opportunity to speak 
on H.R. 950.
    Last year we successfully passed the Post-9/11 Veterans Education 
Assistance Act of 2008 to help pay the full cost of tuition at 4-year 
colleges to veterans of the Iraq and Afghanistan wars. This new law 
also recognizes the sacrifice of our 1.8 million Reserve and National 
Guard troops by better aligning their educational benefits with their 
length of service.
    This new law will also provide a monthly housing stipend, a yearly 
book stipend, match voluntary contributions for more expensive schools, 
provide a 15-year window of eligibility to use the education benefits, 
and allow certain servicemembers the opportunity to transfer their 
entitlements to their dependents.
    As stated, current law will provide a housing allowance to 
qualified veterans who are attending school at least half-time, and 
enrolled in at least one course at an on-site facility. The amount of 
the housing stipend is determined by the location of the educational 
institution.
    While this is an important aspect of the Post-9/11 GI Bill, it 
penalizes hard working veterans who are taking courses that are 
administered through distance learning. I truly believe we will be 
doing a disservice to our rural veterans, injured veterans and veterans 
with family commitments by providing a distinction between those who 
attend a brick and mortar classroom versus those who study at home and 
take their tests on a computer.
    For this reason I introduced H.R. 950 which would waive the 
requirement that a student must take at least one class on-site in 
order to receive the housing stipend. The housing stipend would 
continue to be determined by the zip code of the school.
    Since introducing H.R. 950, I have received letters of support from 
the Fleet Reserve Association and institutions of higher learning such 
as the University of Phoenix; American Public University System; Kaplan 
University; Walden University and Capella University.
    I want to thank my colleagues Chairwoman Stephanie Herseth Sandlin 
and Ranking Member John Boozman for their continued work in the 
Subcommittee. I share their strong belief that we must remain vigilant 
to ensure that the needs of our returning servicemembers are met in the 
21st century.
    I look forward to working with you to provide the needed oversight 
and continue to improve on existing education programs for our veterans 
and their dependents. I would be happy to address any questions you may 
have.

                                 <F-dash>
                                International Franchise Association
                                                    Washington, DC.
                                                      March 4, 2009

The Honorable Stephanie Herseth Sandlin
Chairwoman
Subcommittee on Economic Opportunity
U.S. House of Representatives
Washington, DC 20515
                                                                        
                                                The Honorable John 
                                                Boozman
                                                                        
                                                Ranking Member
                                                                        
                                                Subcommittee on 
                                                Economic
                                                                        
                                                  Opportunity
                                                                        
                                                U.S. House of 
                                                Representatives
                                                                        
                                                Washington, DC 20515

Dear Chairwoman Sandlin and Ranking Member Boozman:

    On behalf of the International Franchise Association (IFA), I am 
writing today to support H.R. 942, the Veterans Self-Employment Act of 
2009. This legislation would allow more veterans to take advantage of 
the opportunities in franchising by allowing the veteran to apply a 
portion of his or her educational benefits to defray the portion of a 
franchise purchase cost attributable to training. We commend you for 
holding today's Subcommittee hearing on this bill and share in the goal 
of assisting our military veterans in realizing the dream of owning a 
small business.
    As the largest and oldest franchising trade group, the IFA's 
mission is to safeguard the business environment for franchising 
worldwide. IFA represents more than 85 industries, including more than 
11,000 franchisee, 1,200 franchisor and
600 supplier members nationwide. According to a 2008 study conducted by 
PricewaterhouseCoopers, there are more than 900,000 franchised 
establishments in the U.S. that are responsible for creating 21 million 
American jobs and generating $2.3 trillion in economic output.
    The IFA has a long and committed history of supporting qualified 
veterans as franchised businessowners. In 1991, during the Gulf War, 
the IFA--under the leadership of board member Don Dwyer--launched the 
Veterans Transition Franchise Initiative, known as ``VetFran.'' Through 
VetFran, participating franchise companies pledge to help qualified 
veterans acquire franchise businesses by providing financial incentives 
not otherwise available to other franchise investors. With the 
cooperation of the U.S. Department of Veterans Affairs, and with 
outreach initiatives to our country's military and veteran 
organizations, the program has expanded to include over 330 
participating franchise companies. Since 2002, over 1,200 qualified 
military veterans have invested in their own franchise business through 
the VetFran program.
    Each year, more and more men and women are returning home from 
active duty service around the world. We believe that in addition to 
initiatives such as VetFran, H.R. 942 can help even more of our 
Nation's veterans return home to more than simply a job; but a career 
as an owner of a small franchised business and an employer and leader 
in their local community.
    Thank you for your consideration in this matter.

            Sincerely,

                                                       David French
                               Vice President, Government Relations

cc: Members of the Subcommittee
Rep. Rodney Alexander

                                 <F-dash>

                   National Association of State Workforce Agencies
                                                    Washington, DC.
                                                     March 10, 2009

The Honorable Stephanie Herseth Sandlin
Chairwoman
Subcommittee on Economic Opportunity
U.S. House of Representatives
Washington, DC 20515
                                                                        
                                                The Honorable John 
                                                Boozman
                                                                        
                                                Ranking Member
                                                                        
                                                Subcommittee on 
                                                Economic
                                                                        
                                                  Opportunity
                                                                        
                                                U.S. House of 
                                                Representatives
                                                                        
                                                Washington, DC 20515

Dear Chairwoman Sandlin and Ranking Member Boozman:

    The members of the National Association of State Workforce Agencies 
(NASWA) constitute State leaders of the publicly funded workforce 
investment system vital to meeting the employment needs of veterans. 
The mission of NASWA is to serve as an advocate for State workforce 
programs and policies, a liaison to Federal workforce system partners, 
and a forum for the exchange of information and practices. Since 1973, 
NASWA has been a private, non-profit corporation, financed by annual 
dues from member State agencies and other sources.
    Our members are committed to providing the highest quality of 
service to our Nation's veterans, National Guard members and 
Reservists. With the ongoing war efforts in Iraq and Afghanistan, this 
is a critical time to ensure high quality workforce services are 
available for those who served our country in time of war. We 
appreciate the opportunity to share our views on H.R. 929, H.R. 1088, 
H.R. 1171 as follows:
    H.R. 929, The Military Occupational Specialty Transition (MOST) 
program directs the Secretary of Veterans' Affairs to carry out a 
program of job training in skills relevant to the job market for 
discharged veterans.
    H.R. 929 would require the U.S. Department of Veterans Affairs (VA) 
to establish a Military Occupational Specialty Transition (MOST) 
program to provide job training to eligible veterans. NASWA does not 
support this legislation because it would be problematic to implement.
    This bill is similar to the Service Members Occupational Conversion 
and Training Act of 1992 (SMOCTA). The SMOCTA program ran for a number 
of years and created opportunities for the U.S. Department of Labor 
(USDOL) and the VA to work together to provide training for veterans.
    SMOCTA was created as a mechanism to help veterans transition to 
the civilian workforce. It languished because the VA was unable to 
approve training programs in a timely manner; process all applications; 
and make all reimbursements for training to employers. Many employer-
veteran matches made by the Disabled Veterans' Outreach Program 
specialists (DVOP) and Local Veterans' Employment Representatives 
(LVER) could not be completed due to delays in processing and approving 
applications.
    NASWA suggests this legislation should be implemented as a joint 
program or partnership between the USDOL and the VA. The USDOL's, 
Veterans and Employment Training Service (VETS) and the States' 
workforce system funded by VETS and the Employment and Training 
Administration (ETA) have significant experience in employment and 
training for veterans.
    H.R. 1088 provides a 1-year period for the training of new disabled 
veterans' outreach program specialists and local veterans' employment 
representatives by the National Veterans' Employment and Training 
Services Institute.
    While NASWA supports H.R. 1088, we are concerned funding is 
insufficient for all DVOPs and LVERs to attend the National Veterans 
Training Institute (NVTI) within 1 year of being employed. In the 
Fiscal Year (FY) 2009 Omnibus Appropriations Bill, H.R. 1105, which 
passed the U.S. House of Representatives on February 25, 2009, $1.949 
million was provided for NVTI; the same level as FY 2008. NASWA 
strongly urges FY 2010 funding be increased by approximately $2 
million, or nearly double the FY 2008 funding. Otherwise, States 
probably would not be able to meet the objective of the bill.
    H.R. 1171 reauthorizes the Homeless Veterans Reintegration Program 
for fiscal years 2010 through 2014.
    NASWA strongly supports this legislation which provides grants to 
providers of job training and employment services for homeless veterans 
by reauthorizing The Homeless Veterans Reintegration Program (HVRP) 
within USDOL's Veterans Employment and Training Service. HVRP is the 
only Federal program wholly dedicated to providing employment 
assistance to homeless veterans. The success of the program has been 
documented by USDOL--65 percent of homeless veterans served through 
HVRP enter employment and 72 percent of those who enter employment 
retain employment for at least 90 days.
    NASWA appreciates the opportunity to present its views and looks 
forward to working with the Subcommittee on these important issues.

            Sincerely,

                                                 Thomas S. Whitaker
                                      President and Deputy Chairman
                      North Carolina Employment Security Commission

                                 <F-dash>
               Statement of Paralyzed Veterans of America
    Chairwoman Herseth Sandlin, Ranking Member Boozman, Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to present our views concerning pending 
legislation. PVA appreciates the effort and cooperation this 
Subcommittee demonstrates as they address the problems of today's 
veterans and the veterans of tomorrow.
            H.R. 147, ``Homeless Veterans Assistance Fund''
    Paralyzed Veterans of America supports H.R. 147, a bill to amend 
the Internal Revenue Code to allow taxpayers to designate a portion of 
their income tax payment to provide assistance to homeless veterans. 
Homelessness continues to be a problem in our Nation. Unfortunately 
veterans, both men and women, make up a disproportionate percentage of 
this population. During a recent Joint Hearing of the House and Senate 
Committees on Veterans' Affairs, Congressman Bob Filner, Chairman of 
the House Committee on Veterans' Affairs, reported that one-half of 
America's homeless are veterans, with a large number of those being 
from the Vietnam era.
    By designating $3 to the Homeless Veterans Assistance Fund as 
allowed by this legislation, taxpayers can demonstrate their concern 
for homeless veterans. Unlike other government programs with a 
designated budget amount, this funding total will be difficult to 
predict or develop plans for its use. We would hope that funding not 
used in a fiscal year, would stay within that trust, and not be 
combined with other VA funds. This funding should not be used to 
supplant the VA's current successful domiciliary program, but instead 
be used by the VA or public sector to increase the options for homeless 
veterans.
    H.R. 228, the ``Visual Impairment and Orientation and Mobility 
              Professionals Education Assistance Program''
    Paralyzed Veterans of America supports H.R. 228, the ``Visual 
Impairment and Orientation and Mobility Professionals Educational 
Assistance Program.'' Currently there is a national shortage of health 
care workers with degrees or certificates in the fields of visual 
impairment and orientation and mobility. The VA is experiencing that 
same shortage. The current Iraq and Afghanistan conflicts are 
responsible for an unexpected number of servicemembers suffering vision 
loss, eye injuries and mobility problems. Representatives of the eye 
care industry have explained that some eye damage caused by being near 
an explosion may not be detected at the time of the incident, but many 
months later, after the veteran returns home.
    These service connected vision problems and mobility problems from 
the current conflict will become the responsibility of the VA health 
care system. This legislation will provide up to $45,000 maximum for 
tuition and fees for the individual to pursue this field of study and 
obtain a degree or certificate. This program could help with the 
shortage of health care professionals in this field of blind 
rehabilitation.
   H.R. 297, the ``Veterans Vocational Rehabilitation and Employment 
            Subsistence Allowance Improvement Act of 2009''
    PVA supports H.R. 297, the ``Veteran Vocational Rehabilitation and 
Employment Subsistence Allowance Improvement Act of 2009.'' This 
legislation would pay a small monthly stipend to a veteran that is 
enrolled in the Vocational Rehabilitation Program. This would help the 
veteran pay rent for housing or provide food for their family while 
attending vocational training. The veteran's focus should be on their 
program to enhance their job skills and prepare to enter, or reenter, 
the workplace. This legislation will help veterans participating in the 
vocational rehabilitation program.
           H.R. 466, the ``Wounded Veteran Job Security Act''
    PVA supports H.R. 466, the ``Wounded Veteran Job Security Act.'' 
For several decades PVA has been in the forefront of advocating for 
health care for veterans, paralyzed veterans, as well as Americans that 
have a disability that limits their activities of daily living. PVA's 
advocacy efforts have included the protection of individuals seeking 
treatment for their injury, illness, or disability. Following the goals 
and principles of our organization, we would support this bill that 
would prohibit discrimination and acts of reprisal by an employer 
against veterans that receive treatment for their condition that was a 
result of, or aggravated by, service to this nation.
                                H.R. 929
    PVA supports H.R. 929, a bill to require the Secretary of Veterans 
Affairs to carry out a program of job training in skills relevant to 
the job market for the qualified veteran. With the current unemployment 
rate at 8.1 percent, the highest in 25 years, a veteran with limited 
job skills because of their Military Occupational Specialty (MOS) is at 
a disadvantage in their search for employment. This bill will attempt 
to level the field for a veteran seeking to start a career that would 
require months, or up to 24 months of training. The intentions of the 
bill are good. Similar legislation was passed in the mid-1980s to help 
unemployed veterans, but unfortunately it was never funded. Many 
employment positions, such as operating computerized equipment, 
repairing machinery or equipment, or being a tool and die maker require 
months to learn. Some employers invest this time to properly train 
their new workers. The railroad industry is a nation wide employer 
needing several thousand new workers in the next 2 to 4 years. One 
representative from a regional railroad recently told the Department of 
Labor, Advisory Committee on Veterans, Employment, and Training and 
Employer Outreach (ACVETEO) that they would hire 2500 to 3000 employees 
in 2009 with a similar goal in future years. The railroad industry has 
been financially solid and knows they face a massive turnover as senior 
employees approach the retirement age. They traditionally spend years 
training workers, since these necessary job skills are not taught in 
college. For situations such as this, the program may give the veteran 
who wants to start a career in this industry an edge over other 
applicants by helping the employer defray some of that cost.
    However, we must caution that programs such as this have potential 
for abuse. The VA and the Department of Labor (DOL) should determine if 
the amount of training and funding requested is appropriate for the 
position. Learning benchmarks and goals would be indicated by a 
schedule of progress for the learning period. With many more veterans 
entering the work place in the future, this could help some learn the 
necessary job skills to support themselves and their families.
    The legislation calls for a total of $60 million for each year to 
carry out this program from 2009 through 2018. If the program is 
marketed properly through DOL and the VA, the dollar amount designated 
for this effort could be inadequate. The amount of $60 million could be 
sufficient for the program during the first year. Employer awareness 
and understanding of the program would require a startup period. 
Perhaps as much as $120 million could be used each year during the 
second and third year of the program. During the third year the program 
should be evaluated for its effectiveness. This is not the answer for 
all veterans seeking employment; however, it could help some learn 
important job skills as they return to civilian life.
                                H.R. 942
    H.R. 942, a bill to direct the Secretary of Veterans Affairs to 
conduct a pilot project on the use of educational assistance under the 
programs of the VA to defray training costs associated with the 
purchase of a franchise enterprise. PVA has no position on this 
legislation. We realize that much training and preparation is required 
to own and operate a franchise business. Often there is cost associated 
with this training period. Perhaps the franchisor could help finance 
this cost, since the veteran is preparing to be their business partner 
for the coming years. If the franchise fails, and many new startup 
businesses do, or the veteran incurs a disability that will not allow 
them to continue with the physical demands of operating that franchise, 
again the veteran would need to find other employment. During the time 
the veteran plans to sell an unprofitable business, or after the 
veteran closes the business they may decide to attend a local community 
college or university while preparing for their next occupation. The 
veteran would still have available the GI Bill. We realize the 
importance of training and preparation when owing a business, but this 
may be an unnecessary departure from the purpose of the GI Bill.
                                H.R. 950
    PVA does not oppose H.R. 950. This bill would amend chapter 33 of 
title 38, USC, to increase educational assistance for certain veterans 
pursuing a program of education offered through distance learning 
organizations. The student pursuing their education while living in 
their hometown will still have the basic expenses of living, including 
food, rent, and utilities. This legislation would help the veteran 
during their training or education years without going further into 
debt.
    Under the current provisions of the ``GI Bill for the 21st 
century,'' the cost-of-living stipend is determined by the zip code of 
the institution. With the large disparity in the cost of living among 
communities, this support should be tied to the area the veteran incurs 
these costs, not the location or mailing address of the institution 
providing the program.
                               H.R. 1088
    PVA supports H.R. 1088, the ``Mandatory Veterans Specialists 
Training Act of 2009.'' This bill would provide for a 1-year period for 
the training of new disabled veterans outreach program specialists 
(DVOP) and local veterans' employment representatives (LVER). This 
training is provided by the National Veterans Training Institute, in 
Denver, Colorado, and is an excellent program taught by experienced 
trainers. Every State should be willing to take advantage of this 
program for their employment representatives.
    Training is such an important component to the role of the DVOP and 
LVER positions, they should be required to take a refresher course, or 
recertification program for those representatives that has been 
performing this function for 3 or 4 years. The laws, policies and 
employment issues change periodically and these representatives must be 
knowledgeable of new changes as they work with the employers in their 
communities.
 H.R. 1089, the ``Veterans Employment Rights Realignment Act of 2009''
    PVA supports H.R. 1089, a bill to provide for the enforcement 
through the Office of Special Counsel of the employment and 
unemployment rights of veterans and members of the Armed Forces 
employed by the Federal executive agencies. PVA supports the increased 
enforcement of the effort to insure that the veteran's preference in 
employment and reemployment is protected.
       H.R. 1171, the ``Homeless Veterans Reintegration Program 
                     Reauthorization Act of 2009''
    PVA supports the Homeless Veterans Reintegration Program (HVRP) for 
Fiscal Year 2010 which would reauthorize the Homeless Veterans 
Reintegration Program within the Department of Labor, Veterans 
Employment and Training Service (VETS). This program offers grants to 
local nonprofit organizations that specialize in addressing the 
problems of the homeless veterans. It is the only Federal employment 
assistance program targeted to this special needs population. The 
program is responsible in recent years for placing in employment 
approximately 15,000 veterans per year with special needs. It has been 
evaluated by the Government Accountability Office (GAO) as one of the 
more successful programs conducted by the Department of Labor. PVA 
supports H.R. 1171, and hopes the program receives, from 
appropriations, the funding this Committee authorizes.
    Paralyzed Veterans of America appreciates the opportunity to 
comment on this important legislation being considered by the 
Subcommittee. We look forward to working with you in the future as you 
further improve the opportunities for veterans. We would be happy to 
answer any questions you may have.

                                 <F-dash>

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 9, 2009

Mr. Bob Wallace
Executive Director
Veterans of Foreign Wars of the United States
200 Maryland Avenue, SE
Washington, DC 20002

Dear Mr. Wallace:

    I am sending questions for the record in reference to a hearing 
from our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Legislative Hearing on March 4, 2009. Please answer the 
enclosed hearing questions by no later than Friday, April 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
                  JUSTIN BROWN, LEGISLATIVE ASSOCIATE,
                     NATIONAL LEGISLATIVE SERVICE,
             VETERANS OF FOREIGN WARS OF THE UNITED STATES
                   RESPONSE TO QUESTIONS SUBMITTED BY
                      CHAIRWOMAN HERSETH SANDLIN,
                    COMMITTEE ON VETERANS' AFFAIRS,
                 SUBCOMMITTEE ON ECONOMIC OPPORTUNITY,
                 UNITED STATES HOUSE OF REPRESENTATIVES
       WITH RESPECT TO THE HEARING ON MARCH 4, 2009 IN REGARDS TO
 H.R. 147, H.R. 228, H.R. 297, H.R. 466, H.R. 929, H.R. 942, H.R. 950, 
                               H.R. 1088,
                        H.R. 1089, and H.R. 1171
                     SUBMITTED ON APRIL 17TH, 2009

    Question 1: In your written testimony you state that while you 
``are supportive of the intent of this legislation, it does not address 
the core issues facing VRE.'' What are the top 5 core issue problems 
facing VRE today?

    Response:
          1--The Delimiting Date for VR&E Needs to be Removed
    Currently, the delimiting date for VR&E is set to 12 years after 
separation from the military, or 12 years following the date a 
servicemember learns of their rating for a service connected 
disability. This fails to take into account the fact that many service 
related injuries will not hinder the veteran to the point of needing 
help or rehabilitation until many years following the injury.
    Eliminating VR&E's delimiting date would allow veterans to access 
the VR&E program on a needs basis for the entirety of their employable 
lives. Veterans would still have to be approved by VR&E as having an 
employment handicap resulting from their service connected disability 
and would still be subject to the total cap of services. However, 
dropping the arbitrary delimiting date would insure rehabilitation for 
veterans should their service connected disability negatively progress 
over time.
      2--VR&E's Educational Stipend Needs Parity in Comparison to
                               Chapter 33
    With the passage of the new GI Bill, the discrepancy in benefits 
between Chapter 31 and Chapter 33 may have the latent consequence of 
incentivizing chapter 33 even though a disabled veteran needs access to 
the additional rehabilitation benefits chapter 31 provides. For this 
reason the VFW strongly urges Congress to create a Chapter 31 
educational housing stipend that is in line with the Chapter 33's 
housing allowance; which is E-5, with dependents, basic allowance for 
housing (BAH) determined by the zip code of the educational institution 
of interest. This would offer our disabled veterans the best all-around 
program and would return the VR&E program to offering the best 
available overall services to rehabilitating veterans.
3--For Many Disabled Veterans with Dependents VR&E Education Tracks are 
                              Insufficient
    For many veterans with dependents the VR&E educational track 
provides insufficient support. Veterans with dependents are the second 
largest group seeking assistance from VR&E and they are often those 
with the most pressing needs to secure meaningful long-term employment. 
There are many seriously disabled veterans that are unable to pursue 
all of their career options or goals due to the limited resources 
provided to disabled veterans with children and spouses. We must not 
forget that these veterans are utilizing VR&E because of a disability 
they incurred in service to our country. Unfortunately, these heroes 
utilize VR&E's employment track at a rate higher than disabled veterans 
without dependents. The VFW believes this is likely due to the fact 
that immediate employment, while possibly not the best long-term 
rehabilitation outlook, immediately provides higher resources to the 
family that cannot afford long-term educational rehabilitation.
    The Veterans of Foreign Wars would like to see VR&E institute a 
program to help veterans with dependents while they receive training, 
rehabilitation and education. This could be achieved by establishing a 
sufficient allowance to assist with the cost-of-living and in some 
cases by providing childcare vouchers or stipends. Childcare is a 
substantial expense for many of these veterans. Without aid of some 
form, many disabled veterans will be unable to afford the costs 
associated with long-term educational rehabilitation.
    By assisting these veterans with these expenses, we can increase 
the likelihood they will enjoy long-term success and an increased 
quality of life. This will lead to decreased usage of VA services and 
is a worthwhile proactive approach.
      4--VR&E Performance Metrics Need to be Revised to Emphasize
                           Long-term Success
    Currently, VR&E measures the ``rehabilitation rate'' as the number 
of veterans with disabilities that achieve their VR&E goals and are 
declared rehabilitated compared to the number that discontinue or leave 
the program before achieving these goals. ``Rehabilitated'' within the 
employment track means that a veteran has been gainfully employed for a 
period of 60 days following any VR&E services they received. This form 
of performance measure could have the latent consequence of 
incentivizing short-term employment solutions over long-term 
strategies.
    The VFW would like to see all VR&E performance metrics changed to 
reflect the employable future of the veteran. At any time if a veteran 
becomes unemployed, during his employable future, he would be counted 
as such. A veteran's success in completing a rehabilitation program 
followed by his employment does not necessarily mean he has been 
rehabilitated for the course of his employable future. Changing the 
metrics to reflect a career long standing will incentivize long-term 
approaches to VR&E programs. If an injury is aggravated following 
rehabilitation then a servicemember may need additional rehabilitation 
to make him employable.
   5--VR&E Needs to Reduce Time from Enrollment to Start of Services
    The current VR&E program can take up to several months to begin a 
program of training. This occurs primarily because VR&E is required to 
validate that entitlement is present. In a recent conversation with 
VR&E's central office, the VFW learned that it is extraordinarily rare 
that entitlement is not found for the VR&E program. If a veteran has 
proven eligibility for VR&E, the VFW believes entitlement ought to be 
assumed thereby minimizing the veteran's time in gaining access to VR&E 
programs.
    The Vocational Rehabilitation Counselor makes entitlement 
determinations on the basis of whether the veteran's employment 
problems have been caused by:

    <bullet>  The veteran's service connected disabilities;
    <bullet>  The veteran's non service-connected disabilities;
    <bullet>  Deficiencies in education and training;
    <bullet>  Negative attitudes about people with disabilities;
    <bullet>  The impact of alcoholism and/or drug abuse;
    <bullet>  Consistency with abilities, aptitudes, and interests;
    <bullet>  Other pertinent factors.

    If entitlement were assumed, veterans would still have to be 
considered eligible. To be considered eligible for VR&E services, a 
veteran must:

    <bullet>  Have received, or will receive, a discharge under 
conditions other than dishonorable;
    <bullet>  Have served on or after September 16, 1940;
    <bullet>  Have a service-connected disability employment handicap 
rating of at least 20 percent or a serious employment handicap rating 
of 10 percent;
    <bullet>  Need vocational rehabilitation to overcome an employment 
handicap; and
    <bullet>  Submit a completed application for VR&E services on VA 
Form 28-1900.

    Question 2: Is it your estimation that Chapter 22 Basic Allowance 
Housing (BAH) is more generous than what H.R. 297 proposes? If so, how 
big is the difference?

    Response: The VFW is supportive of Chairman Filner's proposal that 
VR&E participants of the educational track receive the same stipend as 
veterans utilizing Chapter 33; which is, E-5 BAH with dependants based 
on the zip code of the institution of attendance.

    Question 3: What is your recommendation to help VR&E retool their 
programs and focus on career skills?

    Response: The VFW believes VR&E's delimiting date needs to be 
removed and performance metrics need to be changed to reflect the fact 
that disabilities can affect a veteran for the entirety of their 
employable future.

    Question 4: You state that when SMOCTA funding was cut--
participants found themselves searching for new jobs while lacking 
transferable certifications or training. What changes regarding 
transferable certifications would you suggest?

    Response: Veterans that have exceeded the delimiting dates on 
educational and rehabilitation services have very few options available 
to them for rehabilitation and/or training. SMOCTA essentially directly 
subsidized the short-term solution of low-wage jobs. The VFW believes 
in utilizing proactive long-term solutions versus temporary expensive 
solutions in approaching veterans' employment issues. In basic, the VFW 
believes that a better solution can be created for unemployed veterans 
that will provide long-term results and benefits. Such a program should 
offer veterans a benefit that will prove valuable over time--i.e., 
certifications, degrees, transferable skills training, etc. Subsidizing 
jobs can have the latent consequence of saving the problem for another 
day--typically the day you stop subsidizing their employment.

    Question 5: You state that VFW believes that the money in the MOST 
program would be better spent on a direct educational and training 
credit. Do you believe that Chapters 30 and the new Chapter 33 do not 
address those direct needs?

    Response: They do, but to be eligible for MOST, as written, you 
cannot be eligible for any training or education services under Title 
38. So the demographic of veterans differ and no one veteran can be 
eligible for both of these programs. Chapter 30 has a 10-year 
delimiting date and chapter 33 has a 15-year delimiting date.

    Question 6: You state in your testimony that NVTI resources need to 
be increased. What should be the proper funding level for NVTI?

    Response: NVTI, resources would need to be increased to implement 
the law proposed by Chairwoman Herseth-Sandlin as it would require all 
DVOP's/LVER's to be trained within 1 year. Particularly, because there 
would still be a backlog of untrained DVOP's/LVER's that would need to 
be addressed. NVTI projects that it will take one million additional 
dollars for 2 years, or two million dollars total, for NVTI to train 
all DVOP/LVER staff who started in their current position after 2006. 
This includes training those who started in 2006, 2007, 2008, and 2009. 
This would allow NVTI to ``catch up'' with this group. This additional 
funding does not take into account the cost for participant travel. The 
travel costs for attending NVTI are paid directly by USDOL/VETS using 
non-NVTI contract funding. NVTI projects that the additional travel 
would be 700 thousand dollars for 2 years or $1.4 million dollars total 
to bring these participants to the training. Therefore the VFW would 
recommend $3,400,000 in additional funds over 2 years to catch up.
    Following the catching up period, NVTI believes they could keep up 
with the 1 year requirement with a funding level of $2.5-3.0 million 
dollars per year (not including travel).
    Also, this figure fails to account for any untrained DVOP's/LVER's 
that were hired prior to 2006.

    Question 7: Does VFW have any suggestions on how to improve the 
USERRA complaint process?

    Response: The VFW is currently in strong support of Representative 
Artur Davis's bill H.R. 1474, which would do the following to improve 
the USERRA program for servicemembers.

    1.  Waive state sovereign immunity under the 11th amendment with 
respect to the enforcement of USERRA.
    2.  Make any clause of any agreement between an employer and an 
employee that requires arbitration non-enforceable.
    3.  Increase the number of legal remedies available to USERRA 
claimants.
    4.  Require that attorney fees are paid to claimants who are 
successful in their claims.
    5.  Clarify the definition of successor in interest.
    6.  Clarify that USERRA prohibits wage discrimination against 
members of the armed forces.
    7.  Require injunctive relief when appropriate.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 9, 2009

Ms. Cheryl Beversdorf
President and Chief Executive Officer
National Coalition for Homeless Veterans
333\1/2\ Pennsylvania Avenue, SE
Washington, DC 20003-1148

Dear Ms. Beversdorf:

    I am sending questions for the record in reference to a hearing 
from our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Legislative Hearing on March 4, 2009. Please answer the 
enclosed hearing questions by no later than Friday, April 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
       Deliverable from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                          Legislative Hearing
                             March 4, 2009
    Question 1: Is the funding level adequate for Homeless Veterans 
Reintegration Programs?
    a. If no, what do you recommend?

    Response: NCHV believes the Homeless Veterans Reintegration Program 
(HVRP) funding level is not adequate. The Veterans Housing Opportunity 
and Benefits Improvement Act of 2006 (P.L. 109-233) authorized the HVRP 
to be appropriated at $50 million for each of fiscal years 2007 through 
2009. H.R. 1171, passed by the House on March 30, reauthorizes HVRP for 
fiscal years 2010 through 2014.
    Based on the program's success in terms of employment outcomes for 
one of the most difficult populations to serve and its cost 
effectiveness as compared to other employment placement programs, FY 
2010 funding should be at the full $50 million authorization level. An 
appropriation at this level would enable HVRP grantees to provide 
services to over 30,000 homeless veterans and take advantage of the 
unused capacity of homeless providers who apply each year but do not 
receive a grant.
    The HVRP program has been very effective and efficient. Over the 
past few years the average percentage of HVRP program participants 
placed into jobs has rivaled or exceeded the placement rate for 
veterans overall. After inflation, the program's cost to place a 
homeless veteran in employment in 2006 ($2500) was less than it was in 
2000 ($2,340).
    HVRP programs fill a special need because they serve veterans who 
may be shunned by other programs and services because of problems such 
as severe post-traumatic stress disorder, long histories of substance 
abuse, serious psychosocial problems, legal issues, and those who are 
HIV-positive. HVRP grantees are required to demonstrate that their 
clients' needs in those areas are met and the objective of HVRP 
programs is to enable homeless veterans to secure and keep jobs that 
will allow them to re-enter mainstream society as productive citizens.
    The Department of Labor estimates that almost 15,000 homeless 
veterans will be served through HVRP during FY 2008. This figure 
represents less than 9 percent of the overall homeless veteran 
population, which the Department of Veterans Affairs estimates at 
154,000 at any one time. The FY 2009 appropriation level is $26.3 
million.

    Question 2: Currently, are there some areas that are underserved by 
the Homeless Veterans Reintegration Programs? If so, which geographic 
areas should DOL seek to target and why?

    Response: With each grant competition for the Department of Labor's 
(DOL) Homeless Veterans Reintegration Program, the agency turns down 
more than five out of six proposals received. This is due primarily to 
limited funding for the program, as well as the nature of its 3 year 
grant cycle.
    HVRP urban grants are allocated to only the top 75 most populous 
metropolitan areas within the United States while all other non-
metropolitan areas must compete for grants classified as non-urban 
grants. As a result, underserved geographical areas exist throughout 
all parts of the United States. Additional funding for the program 
would allow DOL to award grants that focus on special needs i.e. 
chronically homeless veterans, homeless veteran families, homeless 
women veterans, as well as grants to more faith-based and community-
based organizations in geographic areas currently not served by the 
program, especially in areas where there is a disproportionate high 
number of unemployed veterans.

    Question 3: What are the key elements that H.R. 147 must have 
regarding fund management?

    Response: If enacted, H.R. 147 would create a Homeless Veterans 
Assistance Fund within the Treasury where the money received from 
taxpayers via a portion of their income tax payment would be used to 
provide assistance to homeless veterans.
    Recommendations for management of the Homeless Veterans Assistance 
Fund are attached and address issues of eligible organizations, 
governance, grant application, review and determination policies, and 
general information.

                               __________
Homeless Veterans Assistance Fund
Recommendations of the National Coalition for Homeless Veterans
April 12, 2009

    The fund will provide assistance in the form of grants to 
community-based organizations (CBOs) and local government agencies that 
provide direct assistance to homeless veterans, and to organizations 
that provide technical assistance and support to those agencies and 
organizations.

    <bullet>  Eligible Organizations:

    Priority 1: Community-Based Organizations--Private nonprofit 
community-based (CBO) and faith-based organizations (FBO) that provide 
direct assistance to homeless veterans and those who are at risk of 
becoming homeless, and their immediate families. Services provided must 
include:

     1.  transitional housing
     2.  food
     3.  clothing
     4.  primary and mental health services
     5.  case management
     6.  personal, family and financial counseling
     7.  employment preparation and placement services
     8.  transportation assistance
     9.  referrals for placement in permanent housing
    10.  followup counseling as indicated
    11.  Drop-In Resource Centers--to connect veterans in crisis who 
are at risk of becoming homeless with services available to help them
    12.  Participation in a registered community or VA Stand Down 
(Stand Down registries are maintained by the VA and NCHV).

    Applicants would be required to demonstrate:

    1.  IRS 501(c)(3) status and Form 990 filings for a minimum of 
three years
    2.  Delivery of services to homeless veterans for a minimum of 
three years
    3.  Ability to provide full range of services--on site or through 
contracts with service providers within the grantee's service area
    4.  Ability to administer Federal grants with respect to 
compliance, fiscal responsibility, and reporting requirements
    5.  Successful outcomes--meeting or exceeding program goals, 
acceptable program evaluation methods
    6.  Administrative oversight costs do not exceed 10 percent of the 
grant award

    Priority 2: Local Government Agencies--In areas underserved by the 
U.S. Department of Veterans Affairs and existing homeless veteran 
assistance providers, local (municipal and county) governments would be 
eligible for grants to fund direct services to homeless veterans. 
Services provided must include those listed in Priority 1 through 
contracts with service providers within the applicant's jurisdiction.
    State Departments of Veterans Affairs (DVA) would be eligible to 
apply for grants to distribute in support of homeless veteran programs 
provided:

    1.  No less that 85 percent of funding would be distributed 
directly to service providers not included in other community-based or 
local government agency applications in their jurisdictions
    2.  State DVA subgrants would be distributed through a competitive 
application process and funds must be utilized to provide the services 
listed in Priority 1, with an allowable percentage for administrative 
oversight (up to 15 percent).

    Applicants would be required to demonstrate:

    1.  Official local government designation of agency as Homeless 
Veteran Assistance Service Agency
    2.  Participation in Consolidated Plan, HUD Continuum of Care, and 
VA CHALENG committees
    3.  Contracts and Memorandums of Understanding (MOUs) with service 
providers to ensure delivery of full range of required services
    4.  Successful outcomes--meeting or exceeding program goals, 
acceptable evaluation methods--of service providers contracted to 
deliver required services
    5.  Ability to administer Federal grants with respect to 
compliance, fiscal responsibility, and reporting requirements
    6.  With the exception of State DVAs, administrative oversight 
costs do not exceed 10 percent of grant award

    Priority 3: Local Veteran, Charitable, Civic, Fraternal and Service 
Organizations that provide support services to U.S. Department of 
Veterans Affairs and community-based grantees under this program to 
provide direct assistance to homeless veterans. Services eligible for 
funding would include:

    1.  food
    2.  clothing
    3.  personal, family and financial counseling
    4.  employment preparation and placement assistance
    5.  tools (uniform allowance) for employment placement
    6.  transportation assistance
    7.  child care assistance for single parents with dependent 
children
    8.  mentoring (to augment case management)
    9.  follow-up mentoring (to augment case management)

    Applicants would be required to demonstrate:

    1.  Certified obligation to provide specific services to homeless 
or low-income veterans in support of community-based or local 
government agencies under this program (through contracts or 
memorandums of understanding)
    2.  Ability to deliver promised services through detailed business 
and financial plans, including operations and administrative costs, 
reflecting the needs of the agency the applicant is obligated to 
support
    3.  Ability to administer Federal grants with respect to 
compliance, fiscal responsibility, and reporting requirements
    4.  Administrative oversight costs do not exceed 5 percent of grant 
award

    Priority 4: Technical Assistance--Up to 10 percent of funds 
distributed in each fiscal year under the Homeless Veterans Assistance 
Fund would be dedicated to organizations that provide technical 
assistance to applicants and grantees under this program. This may be 
effected by competitive grant or cooperative agreement contract 
processes for a minimum of 3 years to enhance program development and 
continuity.

    Technical assistance under this program should provide:

    1.  Guidance to applicants on interpretation of and questions 
related to the grant notices of funding availability (NOFA)
    2.  Guidance on proposal development to strengthen competitiveness 
of grant applications
    3.  Information on Federal grant compliance, financial 
responsibility and reporting requirements
    4.  Information on resource development, program development and 
administration, and community collaborations to ensure program 
efficiencies and effectiveness.

    Applicants should be able to demonstrate:

    1.  IRS 501(c)(3) designation and Form 990 filings for a minimum of 
5 years\*\
---------------------------------------------------------------------------
    \*\ This is important to safeguard against potential conflicts of 
interest and maximizing efficiencies at the expense of performance and/
or accountability.
---------------------------------------------------------------------------
    2.  Comprehensive knowledge of homeless veteran issues and the 
systems in place to help veterans who are homeless or at high risk of 
becoming homeless
    3.  Comprehensive knowledge of and experience working with the U.S. 
Department of Veterans Affairs and other Federal agencies that 
administer homeless veteran assistance programs
    4.  A minimum of 5 years working directly with community 
organizations, local government agencies and the U.S. Department of 
Veterans Affairs in developing and enhancing services provided to 
homeless veterans
    5.  Proven record of success in providing technical assistance to 
organizations that compete for Federal grants designed to support 
community-based homeless veteran assistance programs
    6.  Thorough understanding of Federal grant application, 
compliance, financial responsibility and reporting guidelines and 
regulations

    <bullet> Homeless Veterans Assistance Fund Governance

    Board of Trustees--A Congressional oversight board to review fund 
policies, practices and fiscal management bi-annually. Members would 
represent select House and Senate Committees with jurisdiction on 
veterans and tax issues. Board would be chaired by the representative 
of either the House or Senate Committee on Veterans Affairs, and would 
file an annual report to Congress on activities and outcomes of the 
fund.

    Board of Directors--Responsible for the program design; Fund 
management and operations; allocation and lawful distribution of funds; 
program assessment and performance; and recommendations on program 
enhancements. Board would meet quarterly, with authority to meet in 
additional sessions if necessary. Board would be reimbursed for 
reasonable travel, lodging and per diem costs to participate in 
meetings. Board chairman would prepare reports for Board of trustees 
and attend meetings. Board terms of 4 years, with a limit of two 
consecutive terms. Respective Federal agencies would nominate 
replacements for retiring members. Federal representatives do not have 
to be stationed at the agency national headquarters.

    Permanent seats:

    1.  U.S. Department of Veterans Affairs Office of Homeless Programs
    2.  U.S. Department of Veterans Affairs, Residential Rehabilitative 
Services
    3.  U.S. Department of Labor-Veterans Employment and Training 
Service
    4.  U.S. Department of Housing and Urban Development, Office of 
Special Needs
    5.  U.S. Department of Health and Humans Services, Health Care for 
the Homeless
    6.  Interagency Council on Homelessness
    7.  Community-Based Homeless Veteran Service Provider 
Representatives (3)
    8.  Veteran Service Organization Homeless Veteran Program 
Representatives (2)

    Central Administrative Office Staff--Senior Grant Administrator, 
Assistant Administrator and Operations Staff would be responsible for 
daily operations of Central Office; communications with and monthly 
reports to Board of Directors; coordination of grant program activities 
and timelines; Fund and central office budgets and compliance; grant 
proposal review and rating process, reports to Directors on scoring and 
approval recommendations; quarterly review of financial reports 
(drawdowns and expenditures); and annual audit of program outcomes 
relative to applicant goals (Priority groups 1, 2 and 4).
    Federal agencies with permanent seats on the fund Board of 
Directors would be required to provide a staff member to assist with 
grant application review and rating functions, and the agencies would 
be reimbursed for that personnel allocation.

    <bullet>  Grant Application, Review and Determination Policies

    Grants to community-based organizations and government agencies 
from the Homeless Veterans Assistance Fund would be competitive and 
could be divided into two categories to minimize administrative burden 
and costs:

    Priority 1, 2 and 4--NOFAs would be published in the Federal 
Register detailing program goals, objectives, requirements and 
application guidelines. Notice would include information on award 
ceilings, special funding priorities, allowable use of funds, and 
overview of application grading. Applicants would have 45 days to 
submit complete proposals. Application review, grading and ranking for 
final selection by region would be performed by Central Office staff 
with support from Federal agencies with permanent seats on the Board of 
Directors. Recommendation lists would be submitted by the Senior Grant 
Administrator to the Directors, based on available funds for 
distribution, rankings and regional distribution. Board would give 
final approval, request justifications and/or revisions, and issue 
final authority to Central Office to announce awards, conclude grant 
contracts, and allocate funds to grantee accounts utilizing the Federal 
Electronic/ACH Credit Payment Management System. Awards would be 
published in the Federal Register; VA, Labor and HUD Web sites; 
Homeless Veterans Assistance Fund Web site, and the technical 
assistance grantees' Web sites.
    Priority 3--Since these grants are for organizations that are 
providing support services directly to organizations funded under the 
Homeless Veterans Assistance Fund, applicants would submit proposals 
for funding assistance directly to the organizations or agencies in 
Priority 1 and 2 as ``subcontractors.'' Eligible entities, allowable 
activities and application guidelines would be included as a subsection 
of the fund NOFA. The applicants in Priority 1 and 2 would, as part of 
their program budget plan, identify specific subcontractors and include 
a cost analysis on the services that would be provided through those 
contracts. Grant awards to organizations in Priority 1 and 2 would 
include funds obligated to specified, approved subcontractors. Priority 
1 and 2 grantees would be required to conclude contracts before those 
funds can be expended, and would ensure distribution of funds as 
services are provided. Grantees would be required to report utilization 
of those funds according to their approved grant contracts.
General:
    Funds distributed from the Homeless Veterans Assistance Fund must 
be used for the delivery of services to homeless veterans, technical 
assistance for organizations that wish to apply for inclusion in the 
program or are receiving grants through the program, and for 
administrative and operational costs of the program. Grants would be 
awarded for a 2-year period, with renewals for an additional 2-year 
period if grantee performance goals are met or exceeded and taxpayer 
contributions to the fund are deemed sufficient by the Board of 
Directors and Board of trustees.
    Activities that would not be allowable under the fund would include 
general public education, promotional, conferences, fundraising, 
political and travel expenses other than those authorized and budgeted 
for the Board of Directors and Central Office staff.
    Initially, no more than 50 percent of funds received through an 
Income Tax Checkoff program in a given tax year would be available for 
distribution the following tax year. Depending on the funds generated 
during the fist 3 years of the program, revisions in the allowable uses 
of funds to include prevention strategies and increasing the 
availability of affordable housing for low-income and homeless veterans 
may be considered by the Board of Directors and referred to the Board 
of trustees for Congressional approval.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                      March 9, 2009

Mr. Dave Gorman
Executive Director
Disabled American Veterans
807 Maine Avenue, SW
Washington, DC 20024

Dear Mr. Gorman:

    I am sending questions for the record in reference to a hearing 
from our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Legislative Hearing on March 4, 2009. Please answer the 
enclosed hearing questions by no later than Friday, April 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
               POST-HEARING QUESTIONS FOR JOHN L. WILSON
                                 OF THE
                       DISABLED AMERICAN VETERANS
                 FROM THE COMMITTEE ON VETERANS'AFFAIRS
                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY
                 UNITED STATES HOUSE OF REPRESENTATIVES
                         MARCH 4, 2009 HEARING
    Question 1: In your testimony on H.R. 297, your recommendation is 
to authorize VRE (Chapter 31) participants to receive the subsistence 
allowance offered under the Post-9/11 G.I. Bill. In your opinion is 
this better for the veterans?

    Response: In the opinion of the DAV, this amendment is better for 
the veteran in that participants would receive the higher subsistence 
allowance offered under the Post-9/11 G.I. Bill (Chapter 33). 
Otherwise, veterans with service-connected disabilities must either 
choose the more lucrative G.I. Bill and sacrifice needed Vocational 
Rehabilitation and Education (VRE) services, or choose the VRE program 
because of service-connected disabilities thereby forcing them to 
forego the more lucrative program. Veterans with service-connected 
employment handicaps should not have to choose the lesser program 
because of their disabilities.
    In the long term, this may be detrimental to their physical and 
mental health as well as their ability to retain employment. We believe 
this was not the intent of Congress. There is already precedent for 
such a bridge between legislative programs as seen under title 38, 
United States Code, section 3108 F, which governs the Montgomery G.I. 
Bill. Given this precedent, and the fact that such an amendment 
resolves an unnecessary but potentially significant stumbling block to 
some veterans not being able to receive the optimum vocational 
rehabilitation or education, we see this as a win for all.

    Question 2: Is the Homeless Veterans Reintegration Program at the 
proper funding level?

    Response: In the opinion of the DAV, the funding level should be 
such as to permit the Homeless Veterans' Reintegration Program (HVRP) 
to attain the maximum outreach. The current level of authorization of 
$50 million, while not enough to reach the entire homeless population, 
is an increase from prior levels.
    HVRP is the only Federal program that is dedicated to providing 
employment assistance to homeless veterans who may be denied by other 
programs and services because of severe problems such as post-traumatic 
stress disorder (PTSD), history of substance abuse, serious 
psychosocial concerns, and legal entanglements, to name only a few. 
Extensive, specialized, intensive assessment, referrals and counseling 
is required in virtually every case.
    The program's success, as documented by Department of Labor (DOL), 
notes that 65 percent of homeless veterans served through HVRP enter 
employment and, of that number, 72 percent retain employment at the 90-
day mark.
    It has been estimated by the DOL that for fiscal year 2009, $25.6 
million in HVRP funding would provide employment and training 
assistance to approximately 15,330 homeless veterans and, of those, 
approximately 10,665 will be placed into employment (average cost per 
participant is $1,670 and average cost per placement is $2,407). These 
costs represent a small investment for a program that has been such a 
large success in moving veterans out of homelessness status and off of 
public programs. This increased funding for this vital program is a win 
for homeless veterans and a win for Congress.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                      March 9, 2009

Mr. John Sommer
Executive Director
American Legion
1608 K Street, NW
Washington, DC 20006

Dear Mr. Sommer:

    I am sending questions for the record in reference to a hearing 
from our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Legislative Hearing on March 4, 2009. Please answer the 
enclosed hearing questions by no later than Friday, April 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
                                                The American Legion
                                                     Washington, DC
                                                     April 17, 2009
Honorable Stephanie Herseth Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chair Herseth Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on various legislation on March 4, 2009. I 
respectfully submit the following in response to your additional 
questions:

    Question 1: The MOST bill, H.R. 929, is based on the SMOCTA bill 
which involved the VA, DoD, and DOL. Do you believe that the MOST bill 
should include the DOL?

    Response: Yes, the MOST bill should maintain the inclusion of DOL. 
DOL has the expertise and network of employers to assist veterans in 
finding suitable and gainful employment. DOL participation will be 
vital to the success of the MOST bill, as it was with SMOCTA.

    Question 2: Would The American Legion support the bill if employers 
were required to hire the veterans as part of a training program before 
they were allowed to participate in the MOST program? (Should an 
employer hire a veteran first, then participate in the program.)

    Response: The American Legion strongly supports the MOST program 
and its ability to provide training and employment for vulnerable 
veterans. Currently, The American Legion does not have a position 
concerning this question.

    Question 3: Should the H.R. 942 program be extended to spouses of 
100 percent disabled veterans where the spouse is the bread winner for 
that family?

    Response: Yes, the spouse should be able to participate in this 
benefit to assist in their family's need for financial stability. With 
the inclusion of the spouse to this training benefit, not only does it 
honor the veteran and the contribution of his/her spouse for their 
service to the country, but gives ample opportunity to live financially 
independent and achieve a high quality of life.

    Question 4: Is the Homeless Veterans Reintegration Program serving 
veterans in all the correct geographic veterans' concentrations across 
the country?

    Response: HVRP attempts to serve all the correct geographic 
veterans' concentrations across the county, but falls short due to 
funding. The Department of Labor, Veterans and Training Employment 
Service (DOL-VETS) takes into account geographic concentrations 
throughout the country with the grants it awards. However, since HVRP 
receives about half of the authorized $50 million, serving veterans in 
these critical areas cannot be satisfied. Currently, only one in five 
applicants gets a grant. HVRP could serve our homeless veterans in 
these geographic concentrations better by being fully funded.

    Question 5: In The American Legion's view is this program 
underfunded?

        a.  If so, what would be the correct funding level for this 
        program?

    Response: Yes, The American Legion views the HVRP program as being 
underfunded. The American Legion recommends that HVRP be funded at $50 
million for FY 2010 for this highly successful grant program. 
Currently, the HVRP is funded at $23 million.

            Sincerely,

                                       Mark Walker, Deputy Director
                                       National Economic Commission

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                      March 9, 2009

Mr. Patrick Boulay
Senior Attorney
U.S. Office of Special Counsel
1730 M Street, NW
Suite 300
Washington, DC 20036-4505

Dear Mr. Boulay:

    I am sending questions for the record in reference to a hearing 
from our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Legislative Hearing on March 4, 2009. Please answer the 
enclosed hearing questions by no later than Friday, April 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
       Deliverable from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                          Legislative Hearing
                             March 4, 2009
    Question 1: Why is representation before the Merit System 
Protection Board critical?

    Response: OSC representation of USERRA claims before the Merit 
Systems Protection Board (MSPB) is critical for several reasons.
    First and foremost, it is the exclusive means of enforcing USERRA 
rights against Federal executive agencies. Because the Federal 
Government has not waived sovereign immunity for USERRA, claims against 
Federal executive agencies cannot be brought in U.S. District Courts. 
Thus, filing an action with the MSPB is the sole remedy for those 
seeking to compel Federal agencies to comply with USERRA and obtain the 
relief to which they are entitled. Only the MSPB can issue an order 
against a Federal executive agency to comply with USERRA, provide 
claimants with relief, and sanction a Federal agency for failing to do 
so.
    Second, like OSC, the MSPB is uniquely suited to handle employment 
claims involving the Federal Government. The MSPB was established by 
the Civil Service Reform Act of 1978 to protect the merit system of 
Federal employment by adjudicating individual employee appeals and 
conducting studies of the merit system. The MSPB is far more familiar 
with the intricacies of the Federal personnel system and Federal 
personnel law than other adjudicative bodies. As a result, it can 
expeditiously adjudicate employment disputes between Federal agencies 
and Federal employees and applicants in a manner consistent with the 
letter and spirit of Federal employment laws, including USERRA.
    Moreover, having one adjudicative body handle all Federal employee 
USERRA claims ensures that the law is applied consistently. When 
Federal district courts adjudicate USERRA claims, it is inevitable that 
different courts will apply USERRA dissimilarly and sometimes in a 
conflicting manner. By having the MSPB hear all Federal employee USERRA 
complaints, however, a consistent body of law is developed. This allows 
employees and agencies to better understand USERRA's requirements, and 
leads to fairer and more expeditious outcomes. Finally, appeals from 
the MSPB are adjudicated by the U.S. Court of Appeals for the Federal 
Circuit. The Federal Circuit has expertise in USERRA and other Federal 
personnel laws that other Federal appellate courts do not. Therefore, 
decisions on appeal by Federal employees or agencies will also be more 
consistent and more likely to correctly interpret USERRA than if such 
appeals were decided by different appellate courts.
    Third, it is unlikely that many claimants would or could 
successfully enforce their USERRA rights before the MSPB without OSC 
representation. Not only is such representation free of cost to the 
claimant, but OSC has particular expertise in prosecuting cases, 
including USERRA cases, before the MSPB that no other government agency 
or private attorney can offer. Without the option of seeking OSC 
representation, many potentially meritorious claims would likely not be 
pursued due to the time and cost associated with litigation, especially 
if claimants must retain private counsel. And even if Federal employees 
pursue their claims without OSC representation, it is more likely that 
these lawsuits will be unsuccessful due to a lack of knowledge and 
expertise by claimants and private counsel.
    Moreover, OSC has demonstrated a willingness and ability to 
successfully ``push the envelope'' by pursuing and obtaining relief in 
cases considered unwinnable by others or where the law is ambiguous. In 
short, it would be difficult, if not impossible, to fulfill Congress's 
goal that the Federal Government serve as a ``model employer'' under 
USERRA without OSC representation before the MSPB.
    Fourth, OSC believes its credible threat of litigation before the 
MSPB is essential to its success in enforcing USERRA. Because 
litigation is costly, time-consuming, uncertain, and can generate 
negative publicity, it provides agencies with a strong incentive to 
settle cases before an action is filed with the MSPB. In OSC's 
experience, once educated about USERRA's requirements and presented 
with evidence of a violation, most Federal agencies agree to take the 
appropriate corrective action on behalf of the claimant. However, it is 
unlikely that such a high rate of voluntary compliance would occur 
without the threat of MSPB litigation. Moreover, in cases where an 
agency refuses to take the requested action, OSC has the means of 
obtaining compliance with the law through its authority to file cases 
before the MSPB. This authority must be contrasted with the Department 
of Labor (DOL)'s limited authority to attempt to resolve cases without 
a credible threat of adjudicative action. DOL cannot compel compliance 
with USERRA because it cannot file claims before the MSPB--only OSC has 
this authority.
    H.R. 1089, which proposes to give OSC authority to prosecute and 
investigate Federal USERRA complaints, would likely increase and 
expedite voluntary compliance with USERRA by Federal agencies because 
it eliminates the need for such complaints to first go through DOL. 
Under the current system, there is no threat of MSPB litigation when 
complaints are before DOL, giving agencies less incentive to settle. In 
addition, claimants with meritorious claims may decide not to request 
referral of their complaints to OSC after DOL investigation and 
attempted resolution, either because they become discouraged, are not 
aware of their right to referral, etc. Thus, agencies can ``take a 
chance'' that a complaint will be settled for less than the claimant is 
entitled to or will not be forwarded to OSC for possible prosecution.
    In contrast, if OSC directly received all Federal USERRA 
complaints, the threat of litigation would be imminent, encouraging 
Federal agencies to voluntarily resolve meritorious claims, and do so 
more quickly (as they often did under the USERRA Demonstration 
Project). In addition, OSC would not need to re-investigate complaints 
that DOL has tried to resolve to determine whether to provide 
representation before the MSPB, as is often required under existing 
law. Finally, claimants would not have pressure to accept less than the 
full relief to which they are entitled because they wish to resolve the 
matter without drawing out the process any further. Thus, under H.R. 
1089, Federal USERRA claimants would be able to obtain appropriate 
relief more quickly, as evidenced during the USERRA Demonstration 
Project, where OSC achieved an exceptionally high 25 percent corrective 
action rate for all complaints it directly received.
    In summary, the MSPB is the exclusive means of enforcing USERRA 
claims against Federal executive agencies, and is uniquely suited to 
adjudicating such claims in a consistent manner. Similarly, OSC is 
uniquely suited to prosecuting USERRA claims before the MSPB. Unlike 
private counsel, OSC is focused on presenting cases before the MSPB, 
and has the requisite expertise to do so. Further, OSC is willing and 
able to ``push the envelope'' to ensure that the Federal Government 
serve as a ``model employer'' under USERRA. In fact, OSC often obtains 
settlements from Federal executive agencies that DOL cannot, simply 
because the threat of litigation becomes imminent only when OSC becomes 
involved. Under H.R. 1089, Federal USERRA claimants would receive the 
benefit of having OSC involved in their claims at the earliest possible 
time, thereby making the promise of corrective action quicker and more 
certain.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                      March 9, 2009

The Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Shinseki:

    I am sending questions for the record in reference to a hearing 
from our House Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity Legislative Hearing on March 4, 2009. Please answer the 
enclosed hearing questions by no later than Friday, April 17, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                               __________
                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman,
                 Subcommittee on Economic Opportunity,
                  House Committee on Veterans' Affairs
                             March 4, 2009
                          Pending Legislation
    Question 1: What is the U.S. Department of Veterans of Affairs 
position on H.R. 228 and H.R. 297?

    Response: The Department of Veterans Affairs (VA) provided the 
Committee with a views letter on May 26, 2009. A copy of that response 
is included as a complete reply to this question.

    Question 2: You state that H.R. 929 would be challenging to 
implement. How can the implementation be streamlined?

    Response: While VA supports the principle of expanding occupational 
opportunities for Veterans, implementing H.R. 929 as currently drafted 
would be a challenge. For example, unlike existing GI Bill programs, 
the training programs for the Military occupational specialty 
transition (MOST) program must be approved by State Approving Agencies 
(SAA) prior to placement of eligible Veterans and before payments can 
be made. For employers who do not have existing approved programs, the 
SAAs would have to evaluate the training program under the criteria for 
on-the-job training programs in chapter 36 of title 38, United States 
Code. MOST would also require VA to determine if the training program 
was appropriate for participation by an eligible individual. To meet 
the intent of the program VA would have to seek out employers, SAAs 
would need to pre-approve programs, and then VA would need to match 
individuals to jobs based on their skill sets. Under current GI Bill 
programs, the beneficiary finds employment and requests to use VA 
benefits for the training program. The employer then seeks approval for 
the training program when the Veteran is hired or after the Veteran is 
hired. The issue of having a significant difference between the time 
the SAA approves the training and when a veteran's eligibility is 
determined makes implementation challenging.
    To address the challenges VA recommends obtaining input from the 
Department of Labor (DOL) and leveraging programs they offer to serve 
unemployed Veterans. In addition, the bill makes the program effective 
the date of enactment and requires VA to develop the regulations 
necessary to carry out the program. As such, VA's ability to pay claims 
associated with the MOST program would be delayed until regulations 
were published for public comment and then re-published as final 
regulations.

    Question 3: How big would the impact be on VA to conduct oversight 
to ensure compliance with H.R. 942?

    Response: Conducting oversight to ensure compliance with H.R. 942 
would challenge Education Service resources that are already fully 
committed to existing programs and implementation of the Post-9/11 GI 
Bill. As an entirely new program, VA would be required to conduct 
oversight of entities that provide training associated with the 
purchase of a franchise. The impact would be similar if SAAs provided 
the oversight, it would require the diversion of resources from current 
oversight activities unless additional funding is provided. 
Administration of the program would be delayed until regulations were 
published for public comment and then re-published as final 
regulations.

                                 <F-dash>

                                U.S. Department of Veterans Affairs
                                  The Secretary of Veterans Affairs
                                                     Washington, DC
                                                       May 26, 2009

The Honorable Bob Filner
Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    As requested by the Honorable Stephanie Herseth Sandlin, below are 
the views of the Department of Veterans Affairs (VA) on two bills, H.R. 
228, to ``direct the Secretary of Veterans Affairs to establish a 
scholarship program to provide financial assistance for students 
seeking a degree or certificate in the areas of visual impairment and 
orientation and mobility,'' and H.R. 297, the ``Veteran Vocational 
Rehabilitation and Employment Subsistence Allowance Improvement Act of 
2009.''
H.R. 228
    H.R. 228 would establish a new scholarship program for individuals 
who are accepted for enrollment, or currently enrolled, in a program of 
study leading to a degree(s) or certificate(s) in visual impairment or 
orientation and mobility. In exchange for the scholarship assistance, 
the participants would incur service obligations with the Department. 
The bill would limit to $15,000 the total amount of assistance that a 
participant who is a full-time student could receive during an academic 
year. It would establish a maximum cap of $45,000 on the total 
assistance that VA could provide to any participant. H.R. 228 would 
also require the Secretary to establish terms of participation for the 
program, including the length of a participant's period of obligated 
service. Participants who fail to meet their service obligations would 
be subject to repayment terms, as specified in the bill.
    VA appreciates the importance of Blind Rehabilitation Services, as 
evident by its investment of $50 million to enhance its nationwide 
continuum of rehabilitative care for Veterans and active duty military 
personnel with visual impairments. VHA is the first health care system 
to completely integrate such services for patients with visual 
impairments into comprehensive health care benefits. This continuum of 
care will establish 55 new outpatient clinics targeting those who are 
beginning to experience functional loss from visual impairment. New 
programs also include: 22 new Intermediate Low Vision Clinics; 22 new 
Advanced Ambulatory Low Vision Clinics; and 11 new Outpatient Hoptel 
Blind Rehabilitation Clinics. The goal of this initiative is to provide 
rehabilitation services that keep visually impaired Veterans and active 
duty personnel functioning as independently as possible, and integrated 
with their families and communities.
    The Department is committed to ensuring that appropriate staffing 
of blind rehabilitation outpatient specialists and visual impairment 
professionals is maintained to support VA Blind Rehabilitation Services 
and this expanded continuum of care. However, because VA's existing 
scholarship program already enables us to meet our need for 
professionals in these occupations and many others, we do not support 
this bill. The Veterans Health Administration (VHA) analyzes data 
concerning recruitment and retention of health care disciplines 
annually. The results of this analysis are published each year in the 
Succession and Workforce Development Plan. This plan provides a 
detailed, evidence-based analysis that identifies the categories of 
health professions which could, or should be, targeted with recruitment 
or retention incentives, including scholarship programs. As part of 
succession-planning efforts, VHA has funded technical career field 
interns in the blind rehabilitation occupation. In 2007, nine interns 
were funded, in 2008, 20 interns and again in 2009, 20 interns will be 
funded. We feel continued support in the technical career field program 
will meet the needs within the Department. We do not believe creation 
of an entirely separate scholarship program for this limited group of 
individuals would be cost effective.
    It is also important to note that under the bill, participants 
would be treated far more leniently than participants in VA's existing 
scholarship program in the event they breach their service obligations. 
Participants in VA's Education Incentive Scholarship Program (EISP) 
incur treble damages for breach of their service obligation, whereas 
H.R. 228 would provide for repayment of ``an amount equal to the 
unearned portion of [the educational] assistance,'' We do not believe 
disparate penalties for the same action are justified. The EISP 
statutory framework also establishes other categories of liability 
depending on the type of breach committed by the participant, e.g., 
failure to accept the scholarship money, failure to complete the 
program or to obtain licensure. This bill does not address all of the 
other scenarios covered under the EISP.
    We estimate the total cost of implementing H.R. 228 to be $521,000 
in fiscal year (FY) 2009, $2.72 million over 5 years, and $5.7 million 
over a 10-year period.
H.R. 297
    H.R. 297 would provide for an increase in the amount of subsistence 
allowance payable to Veterans participating in programs of vocational 
rehabilitation under chapter 31 of title 38, United States Code, and 
expand availability of subsistence allowances for veterans using 
employment services under that chapter.
    We support, in principle, efforts to facilitate successful 
completion of vocational rehabilitation programs under chapter 31, and 
we recognize that increasing the amounts of subsistence allowance 
provided to Veterans participating in training and employment services 
will encourage more veterans to continue their rehabilitation programs.
    Increased rates of subsistence allowance would allow Veterans to 
pursue rehabilitation on a full-time basis, leading to entry into 
employment in a shorter period of time.
    However, we are unable to support H.R. 297 at this time. Recent 
changes to VA education benefits, including the new Post-9/11 GI Bill, 
may affect chapter 31 participation and completion rates. In addition, 
as recommended by the Dole-Shalala Commission on Wounded Warriors, VA 
is currently completing a review of its compensation program that has 
implications for the vocational rehabilitation program. This changing 
landscape of comprehensive benefits prevents VA from adequately 
evaluating the subsistence allowance increase proposed in H.R. 297. The 
Department plans to evaluate its total benefit package and recommend 
necessary improvements as part of the FY 2011 Budget.
    We estimate that enactment of H.R. 297 would result in benefits 
costs of $212.3 million for FY 2010 and $771.4 million over 10 years.
    The Office of Management and Budget advises that there is no 
objection to the submission of this letter from the standpoint of the 
Administration.

            Sincerely,
                                                   Eric K. Shinseki

                                 <all>

</pre></body></html>
